 HUD Office of Inspector General
Semiannual Report to Congress
   as of September 30, 2001
   www.hud.gov/oig/oigindex.html


      To everyone we lost, we will never forget you.

                In Memoriam ~ September 11, 2001
INSPECTOR GENERALS MESSAGE

     On July 23, 2001, I was sworn in as the Acting Inspector General of the HUD Office of Inspector General.
During my tenure at HUD, the OIG has continued to address the major issues facing the Department. Chapter 1 of
this Semiannual Report summarizes those areas where much of our audit and investigation resources have been
directed during this 6-month period. These areas, which both the OIG and the General Accounting Office have
advised the Congress as being HUDs major management challenges, include completing ongoing management
reforms; improving financial management systems; assuring adequate and sufficiently trained HUD staff; improving
FHA single family loan origination and real estate owned property oversight; and improving the effectiveness and
efficiency of public and assisted housing program administration.

    The audit resolution process is discussed in Chapter 6 of this Report. We appreciate the focus this Administration
has put on the timely resolution of audit recommendations. The Inspector General Act requires that we report
separately on significant audits where a management decision has not been reached for audits that are more than 6
months old. We are pleased to report that, as a result of the cooperation and support of the current HUD Administra-
tion, there are no such items to report in this Semiannual Report. In all the years we have been reporting on manage-
ment decisions over 6 months old, there has been only one other occasion when we had no items to report. While
Chapter 6 discusses a number of cases where the resolution of audit recommendations has been delayed, the number
of outstanding audits with unresolved recommendations has declined from previous reporting periods. Additionally,
we have formed a task force with the Deputy Secretary, Chief Financial Officer, and the General Counsel to identify
ways to improve and expedite the audit resolution process. The efforts made by HUD management to make audit
resolution a priority for this Administration are greatly appreciated.

    There is evidence of continuing problems within the Single Family Mortgage Insurance Programs, as illustrated
in Chapters 2 and 3 of this Report. Chapter 2 discusses our ongoing Housing Fraud Initiative efforts. These efforts
find fraud in single family loan origination to be a continuing problem. During this reporting period, the OIG also
conducted several audits as part of a nationwide review of Single Family Programs. The audits disclosed that some
programs remain at risk for abuse, while others need strengthened monitoring.

    HUDs programs serve only a portion of those families with worst case housing needs. Accordingly, it is critical
that scarce resources be spent efficiently and effectively. Through our audits and investigations, our goal is to help
each individual area within the Department manage its programs more effectively, and to make HUDs programs
free from fraud and abuse.

    Not reflected in this Report are the heroic efforts of HUD OIG personnel whose office was destroyed in the
horrific events of September 11th. In the wake of this tragedy, they have been right in the thick of the action in the
war on terrorism and the recovery actions in New York. Offices were opened immediately in alternate locations
and back in business. I am deeply appreciative of their dedication and outstanding performance.

    The OIG staff and I look forward to working with you and your staff in making HUD a better, more efficient
organization.




                                                                     David C. Williams
                                                                     Acting Inspector General
Chapter 1
       HUDs Management
        and Performance
           Challenges
      HUDs Management and Performance Challenges

Information             The HUD Office of Inspector General (OIG) provides independent oversight of
                    HUD programs and operations. While organizationally located within the
About the HUD       Department, the OIG maintains independence to initiate and carry out audits and
Office of           investigations related to Departmental programs.
                        HUD OIGs audit and investigative activities are designed to:
Inspector General
                        Ø Promote economy, efficiency, and effectiveness in the administration of
                          HUD programs and operations.


                        Ø Detect and deter fraud and abuse in HUD programs and operations.

                        Ø Investigate allegations of misconduct by HUD employees.

                        Ø Review and make recommendations regarding existing and proposed
                          legislation and regulations relating to HUD programs and operations.

                        Ø Recommend actions to resolve fraud, abuses, and deficiencies in HUD
                          programs and operations.

                        Ø Inform the Secretary of HUD and the Congress of problems and the
                          progress made in resolving such fraud, abuses, and deficiencies.

                       The OIG Offices of Audit and Investigation carry out these duties and are
                    supported in these efforts by the OIG Office of Counsel and the Office of
                    Management and Policy.

Major Issues             The Departments primary challenge is to find ways to improve housing and
                    expand opportunities for families seeking to better their quality of life. HUD does
Facing HUD          this through a wide variety of housing and community development programs
                    aimed at helping American families. These programs are funded through HUDs
                    $30 billion annual budget. Additionally, HUD assists American families by insuring
                    Federal Housing Administration (FHA) mortgages for single family and
                    multifamily properties. FHAs outstanding mortgage insurance portfolio is
                    approaching $550 billion. While HUD is a relatively small agency in terms of staff
                    with about 9,500 nationwide, it relies on the performance and integrity of a large
                    group of entities to administer a diversity of programs. Among HUDs
                    administrators are hundreds of cities that manage HUDs Community
                    Development Block Grant funds, hundreds of public housing authorities that
                    manage assisted housing funds, and thousands of HUD approved lenders that
                    originate FHA insured loans.
                         Over the last several years, both the General Accounting Office and our office
                    have advised the Congress of the Departments management challenges to
                    include:
                               Ø Completing ongoing management reforms.

                               Ø Improving financial management systems.

                               Ø Assuring adequate and sufficiently trained HUD staff.

                               Ø Improving FHA single family loan origination and real estate owned
                                 property oversight.

                               Ø Improving the effectiveness and efficiency of public and assisted housing
                                 program administration.

                               These challenges have been the focus of much of our audit and investigative
                           activities during this 6-month reporting period. The following provides a greater
                           discussion of these challenges and the OIGs efforts to help the Department
                           resolve these matters. Our audit and investigative chapters of this Semiannual
                           Report provide more detail on specific audits and investigations referenced below.

        Completing     During the previous Administration, HUD underwent major organizational
Management Reforms and management  changes known as the HUD 2020 Reform Plan. We continue to
                           highlight this as a management challenge because of the significant organizational
                           and staffing impact these reforms have had on the Department. Within some HUD
                           organizations, this lengthy transition is still happening. There remains a pervasive
                           tension between centralized control and local empowerment. More importantly,
                           HUD stakeholders are still questioning some of the major management changes
                           brought about by the reform. Questions regarding such issues as the fairness of
                           Real Estate Assessment Center physical inspection scores, the appropriateness of
                           consolidating all single family activities into just four Homeownership Centers
                           (HOCs), or the need for a centralized Enforcement operation are still being
                           raised, even today, months and years after the initial changes were made. These
                           and other changes brought about by 2020 were radical departures from HUDs
                           past business practices. Until these issues are ironed out, this remains a
                           challenge for HUD.
                               Our audits and investigations have identified weaknesses brought about by
                           delays in completing HUD 2020 operational changes. For example, in September
                           2001, we testified before the House of Representatives Subcommittee on
                           Oversight and Investigations of the Committee on Financial Services regarding
                           the 1998 scandals of the Section 203(k) Rehabilitation Home Mortgage Insurance
                           Program in New York City. We noted that the rapidity of the changes taking place
                           in Single Family Programs during this period made HUD extremely vulnerable.
                           Single family staff was cut in half and those remaining HUD staff in New York
                           were transferred to the Philadelphia HOC. These staffing shifts had a direct
                           bearing on HUDs ability to provide adequate oversight.

 Improving Financial     Our annual financial audits continue to report numerous problems related to
Management Systems   inadequate system integration. For example, there is a lack of an automated
                           interface between the Departmental general ledger and the FHA subsidiary
                           ledger, which necessitates extensive manual analyses, reprocessing, and
                           additional entries. FHAs funds control process is also largely done manually, even
                        to the point of requiring the hand carrying of documents. Other serious
                        deficiencies include the inability to identify, in a timely fashion, excess funds on
                        expired Section 8 projects and inadequate assurance about the propriety of Section
                        8 rental assistance payments. The systems solutions to these problems remain
                        unresolved.
                             The plans for enhancing or replacing the Departments core financial system
                        and integrating this to related financial systems, such as those of FHA and the
                        grants management systems, have varied significantly over the past few years.
                        Because of the many concerns we have raised in our audits, the Department is
                        proceeding cautiously. The Department is planning to contract for a feasibility
                        study and cost benefit and risk analyses to help it identify the best platform for its
                        integrated financial system. In the meantime, the project to improve the FHA
                        subsidiary accounting systems has made little progress because of necessary
                        procurement delays.
                             Another challenge for the Department in this area is the new Joint Financial
                        Management Improvement Program requirements for integrating certain
                        transactions in the grants management systems with the core financial system.
                        This has increased the importance of HUDs financial systems for consolidated
                        financial reporting. However, the Departments efforts to implement the
                        necessary grants management systems have made little progress to date.

Assuring Adequate      HUDs Fiscal Year (FY) 1999 Annual Performance Plan noted that the
  and Sufficiently Department  no longer had a system for measuring work and reporting time, and
     Trained Staff that HUD lacked a single integrated system to support resource allocation. The
                        National Academy of Public Administration (NAPA) examined HUDs practices for
                        estimating human resource needs. HUD reported that it intended to work with
                        NAPA to develop a methodology or approach for resource management that would
                        allow the Department to identify and justify its resource requirements for
                        effective and efficient program administration and management.
                            Two years ago, we examined the Departments progress in developing and
                        implementing the Resource Estimation and Allocation Process (REAP) using the
                        NAPA developed methodology. We found that the project did not appear to be a high
                        priority at the time and it was proceeding slowly. However, HUDs current
                        Administration has recognized the need to rationalize the allocation of staff as a
                        management challenge. They are reviewing the staffing assigned to core
                        programs to assure they get proper attention. The Department plans to look at
                        resources using the REAP process later this year.

  Improving FHA              Procedures and practices pertaining to HUDs Single Family Loan Origination
     Single Family      Program have undergone considerable change, particularly in the last 5 years.
                        The changes have been both programmatic and organizational, including
  Origination and
                        significant changes in loan underwriting requirements and the transfer of virtually
Real Estate Owned       all aspects of single family production and program monitoring from HUD staff to
   (REO) Oversight      lenders and contractors under the oversight of HUDs Homeownership Centers.
                             A comprehensive audit of FHA loan origination practices last year found
                        significant problems with FHAs reviews of lender underwriting and property
                        appraisals. Also, the monitoring of lenders by the Quality Assurance Division was
                        deficient. We noted problems with the oversight of pre-endorsement contractors,
                        and the accuracy of information in the automated tracking system. These
                         weaknesses increase HUDs risk of losses and can result in inflated appraisals,
                         fraudulent underwriting, property flipping and other lending abuses. HUDs
                         procedures for monitoring both lenders and contractors were less than effective,
                         resulting in an increased risk of fraud, waste and abuse.
                              More recently, we looked at the participation of not-for-profits in HUD Single
                         Family Programs and found that the Department was receiving little or no benefit
                         from discounted sales of REO properties to not-for-profits. In many cases, not-for-
                         profits were fronts for profit-motivated entities, or were unduly influenced by real
                         estate agents, consultants, investors, contractors, and lenders that stood to profit
                         from the discounted transaction. Discounted sales should have reduced the
                         ultimate costs to low- and moderate-income homebuyers.
                              The audit of FHAs FY 2000 financial statements includes a reportable
                         condition on the need for improvement in early warning and loss prevention for
                         FHA single family insured mortgages. FHA continues to make progress in
                         improving its ability to monitor its insured portfolio. As of September 30, 2000,
                         FHA had not yet fully implemented certain initiatives to effectively identify and
                         manage risks in its single family insured portfolio. FHA needs to increase its use
                         and analysis of other data now available to continue improvements in lender
                         monitoring. Timely identification of lenders with above average early default rates
                         is a key element of FHAs efforts to target monitoring and enforcement resources
                         to single family insured mortgages and lenders that represent the greatest
                         financial risks to FHA. Potentially problem lenders must be identified before FHA
                         can institute loss mitigation techniques and lender enforcement measures that can
                         reduce eventual claims.
                              FHA contracted for the management and marketing (M&M) of its single
                         family properties in March of 1999. Seven companies received awards for the 16
                         M&M contracts to manage HUDs single family property inventory. The objective
                         of the contracts was to reduce the inventory in a manner that: (1) expands home
                         ownership, (2) strengthens neighborhoods and communities, and (3) ensures a
                         maximum return to the mortgage insurance fund. FHA has realized some
                         success from outsourcing. Sales volume increased and property inventories
                         decreased. Also, contractors implemented new marketing tools such as bidding
                         through the Internet. Sales of properties in FY 2000 exceeded $5 billion.
                              During this semiannual reporting period, we looked at the management of the
                         REO program by the Philadelphia HOC. We found that the HOC needed to
                         strengthen its M&M contractor monitoring and follow-up procedures.
                         Performance deficiencies were not being corrected and HUD property conditions
                         declined, resulting in decreased marketability. We also identified weak M&M
                         voucher payment controls and identified $937,000 of potential duplicate payments.
                         HOC staffs were ill equipped to manage the voluminous amount of paperwork
                         associated with M&M contractors.

Public and Assisted      HUD relies on intermediaries to make rental subsidy calculations for the
 Housing Program billions of dollars in subsidy payments made each year. Because of insufficient on-
                    site monitoring of intermediaries and the absence of an ongoing quality control
    Administration program to periodically assess the accuracy of rent determinations, we consider
                         this a significant internal control risk. This material weakness was first reported
                         in our financial audit in 1991 and it has been reported in every audit thereafter. A
                         recent study of rent determinations under housing assistance programs estimates
that errors made by intermediaries result in substantial subsidy overpayments and
underpayments. Using a statistical sample of tenant files, tenant interviews, and
income verification data, the study concluded that:

    Ø Thirty-six percent of all households paid at least $5 less rent a month than
      they should have (with an average error of $105).

    Ø Forty percent of all households paid the correct amount of monthly rent
      within $5 (29 percent paid exactly the right amount).

    Ø Twenty-four percent of all households paid at least $5 more rent per
      month than they should have (with an average error of $56).

    The study projected subsidy overpayments of about $1.7 billion annually and
underpayments of about $0.6 billion. Payment errors of this magnitude take on
added significance in light of HUDs estimate of 4.9 million unassisted households.
These households pay more than half of their income for housing or live in
severely substandard housing. The Secretary has made the reduction of subsidy
overpayments a top priority of his Administration. A task force is currently
preparing a comprehensive plan for achieving these results.
    In addition to problems with subsidy overpayments, HUD continues to
experience problems in accounting, budgeting, and overseeing its Section 8
portfolio. HUDs inability to ensure that public housing and rent subsidies are
based on correct tenant income has been reported as a material weakness in our
financial audit for the past 9 years. Also, General Accounting Office and OIG
reviews of HUD operations, such as the Troubled Agency Recovery Centers and
the Real Estate Assessment Center, that were intended to oversee public housing
authority activities, continue to disclose problems the Department is working to
address.
Chapter 2
        Housing Fraud
          Initiative




                FRAUD
                          Housing Fraud Initiative
                             The Housing Fraud Initiative (HFI) is a proactive law enforcement effort using
                         a unified approach to the detection and prosecution of fraud in HUD programs.
                         The concept combines OIG audit and investigative resources together with FBI
                         Agents and Assistant United States Attorneys for the purpose of rooting out
                         corruption and fraud in all HUD funded activities within targeted Federal Judicial
                         Districts. HFI arose out of concern by Members of the House Appropriations
                         Subcommittee on VA, HUD, and Independent Agencies that HUD funds may not be
                         reaching those needing federal assistance due to pervasive fraud.
                             In October 1998, the following Federal Judicial Districts were designated as
                         HFI sites: (1) the Eastern District of New York; (2) the District of Maryland; (3)
                         the District of Columbia; (4) the Northern District of Illinois; (5) the Central
                         District of California; and (6) the Northern District of Texas.
                             Efforts during this reporting period resulted in a number of significant indict-
                         ments and convictions. Fraud in single family loan origination continues to be the
                         most pervasive problem uncovered by HFI investigations. The following are
                         examples of recent HFI results.

Central District of     Gabriel Pugliese, Noemi Pugliese, Monica DAngelo, and Norma Simental
        California  pled guilty in federal district court to two counts each of conspiracy, mail fraud,
                         and/or submitting false statements to HUD. A multi-year investigation by OIG and
                         the FBI resulted in the charging of 20 individuals for their involvement in a single
                         family loan origination fraud scheme based on documents fabricated by the
                         Puglieses and DAngelo, the owners and operators of April 8 Realty in La
                         Puente. Simental, a loan officer with California First Funding, obtained forged
                         employment and income documents from April 8 Realty and then caused the false
                         documents to be submitted to HUD. The loans based on false information from the
                         Puglieses and DAngelo have a total value of approximately $160 million, and
                         those identifiable with Simental total approximately $3.1 million.
                             April 8 Realty was a storefront business that made and sold thousands of
                         fraudulent loan documents to real estate professionals in order to make ineligible
                         borrowers appear qualified for FHA insured home loans. The investigation in-
                         cluded an undercover sting operation in which real estate agents and investors
                         were videotaped purchasing the fake documents. These documents included W-2
                         forms, pay statements, bank statements, and letters of credit which were used to
                         secure over 1,200 federally insured loans. In addition, April 8 Realty routinely
                         provided false employment verifications for loan applicants using fake companies
                         and a network of individuals throughout the Los Angeles area. Active loans with
                         an approximate value of $120 million contain fake documents generated by April 8
                         principals. To date, the loss to the government resulting from the fraud is approxi-
                         mately $11 million, with an additional $15 to $20 million of government insured
                         loans in default. Seventeen of the individuals charged in this case have pled guilty.
                             The following 13 individuals also pled guilty in this case to various charges for
                         attempting to make unqualified persons appear eligible for FHA insured mort-
                         gages. All 13 individuals knowingly obtained forged employment and income
                         documents, and caused them to be submitted to HUD.
    Cesar Villapudua, a former loan officer at American Charter Mortgage in
Los Angeles, pled guilty in federal district court to one count of fraud against
HUD. Adela Jaimes, owner and operator of California First Funding, and Anthony
Quintero, a real estate agent with City Mortgage, pled guilty in federal district
court to two counts each of making false statements to HUD.
    Rose Pinkus and Rogelio Gonzalez, Sr., each pled guilty in federal district
court to two counts of making false statements to HUD. Pinkus was a real estate
broker with Re-Max Tri-City in Pasadena, and Gonzalez was a real estate agent
with Dynamic Brokers in Montebello.
    Jason Moreno and Juan Sandoval pled guilty in federal district court to two
counts each of fraud against HUD. They were in the business of purchasing and
reselling properties.
    Xavier Lujan pled guilty in federal district court to two felony counts of
conspiracy and making false statements to HUD. Lujan was a loan officer with
Mortgage America in Grand Terrace.
    Molly Villa, Salvador Alvarez, and Andrew Lujan pled guilty in federal
district court to two counts each of fraud against HUD. All three were real estate
professionals.
    Emma Barrientes, a loan officer at Trimex Mortgage Corporation in Los
Angeles, pled guilty to two counts of fraud against HUD.
    Domingo Salazar pled guilty to two counts of fraud against HUD. Salazar was
a real estate professional employed at Dynamic Mortgage in Los Angeles.
    Also in this case, a loan officer at California First Funding located in River-
side was charged with participating in a single family loan origination fraud
scheme. The loan officer allegedly obtained forged employment and income
documents in order to make ineligible applicants appear qualified for FHA insured
loans. She then submitted the false documents in conjunction with at least 22 FHA
insured loans with a total value of $3,195,359. The resulting loss to HUD exceeds
$161,000. The loan officer was part of the investigation of April 8 Realty.

    Following a 4-day jury trial, Mario Gonzalez, a mortgage broker and co-
owner of Pacific Investment Capital in Los Angeles, was found guilty in federal
district court of one count of conspiracy, five counts of mail fraud, and one count
of money laundering. Rene Fagundo, a co-conspirator, pled guilty to two counts of
mail fraud. The two were involved in a Title I and Title II loan origination fraud
scheme that included $14,000,000 in FHA insured loans and over 46 properties for
which HUD has paid $5,000,000 in claims. Their scheme entailed creating false
verifications of employment, W-2s, and pay stubs, and using strawbuyers to obtain
both the primary mortgage loans and the Title I home improvement loans. This
case was initiated and conducted by the OIG with the assistance of the FBI.

    In Los Angeles, Elizabeth Patricia Estrada was sentenced to 10 months in
prison and 3 years probation, and ordered to pay $1.27 million in restitution and a
$100 special assessment fee for her role in a scheme to defraud FHA. Estrada was
a former loan processor for Friendly Hills Mortgage. She included false docu-
ments such as pay stubs, W-2s, and letters of credit in FHA loan applications to
qualify ineligible borrowers for FHA insured single family mortgages. This was a
joint investigation by OIG and the FBI.
    Real estate agent/mortgage investor Benjamin Hernandez was sentenced to 8
months incarceration and 3 years supervised release, and was ordered to pay
$253,739 in restitution to HUD. Ostes Hernandez, a real estate investor, was
sentenced to 5 months at a halfway house, 5 months house arrest, and 3 years
supervised release, and ordered to pay $576,053 in restitution and a $400 special
assessment fee. From 1994 to January 1997, Benjamin and Ostes Hernandez
participated in a scheme at Bankers First Realty in South Gate to defraud
commercial lending institutions and HUD. Their real estate property flipping
scheme involved the submission of false and fraudulent proofs of employment, pay
stubs, credit letters, and bank cashiers checks in support of FHA insured mort-
gages. The two caused forged documents to be placed in FHA loan applications to
create the appearance that the borrowers qualified for the loans. They also
provided the down payment money necessary to purchase the properties while
concealing the actual source of funds as a gift. All of the properties went into
foreclosure and were subsequently resold by HUD. Benjamin and Ostes
Hernandez originated in excess of $1,000,000 in fraudulent loans. This investiga-
tion was conducted by the OIG.

    Shirley Ann Jackson pled guilty in federal district court in Los Angeles to
three counts of conspiracy, wire fraud, and identity fraud, and Calethia Bridgett
McNair pled guilty to one count of conspiracy. The two conspired with and
assisted at least five other co-conspirators to recruit purchasers for the fraudu-
lent acquisition of single family properties at prices considerably above their fair
market values. The properties, which had FHA insured mortgages, were valued at
more than $1,000,000. This was a joint investigation by OIG and the FBI.

    Following an investigation by the FBI and OIG, Lita Hernandez was sentenced
for her involvement in a single family loan origination fraud scheme. She was
sentenced to 1 year in prison and 3 years supervised release, and was ordered to
pay $951,553 in restitution and a $200 special assessment fee. In December 1999,
Hernandez pled guilty to two counts of conspiracy and submitting false statements
about strawbuyers in order to obtain FHA insured mortgages.
    As a result of the same investigation, Ismael Diaz, owner of D&D Funding, a
Los Angeles area mortgage company, was charged by the U.S. Attorney with
three counts of making and causing false statements to HUD in conjunction with
the submission of applications for federally insured single family residential
mortgages. On the same date, Diaz entered a guilty plea in federal district court
admitting his involvement in a single family loan origination fraud scheme.

     Following a joint FBI/OIG investigation, real estate investor Clifton Anderson
Hinds pled guilty to 21 counts of mail fraud and false statements. Hinds owned and
operated companies known as United Funding Group, H&H Investments, and
Noetic Investments through which he recruited potential strawbuyers to help him
obtain FHA insured mortgage loans and invest in properties. Through his compa-
nies, Hinds purchased distressed properties in the Los Angeles area and arranged
for fictitious sales of the properties to the strawbuyers at inflated prices. He then
used the information obtained from the strawbuyers to prepare loan applications,
real estate purchase contracts, deeds of trust, and other loan documents to obtain
mortgages in their names. Hinds used profits from the proceeds of the fraudulent
real estate transactions to continue the scheme. He and his companies caused at
least $10 million of loans to go into default at a loss to the government of between
$600,000 and $1 million.
     In the same case, Darryl Aaron Woods was sentenced to 34 months incar-
ceration and 3 years probation, and was ordered to pay $187,754 in restitution and
a $300 special assessment following his conviction on 2 counts of mail fraud and 1
count of aiding and abetting. Woods owned and operated real estate investment
companies known as Westchester Investments and White Sands Incorporated
through which he, like Hinds, directed a scheme to defraud commercial lending
institutions and FHA. He purchased distressed properties using the identities and
personal information of others to prepare loan applications, real estate purchase
contracts, deeds of trust, and other documents. The lending institutions relied on
the false information to extend loans that were subsequently insured by FHA. The
profits from the proceeds of the fraudulent real estate transactions allowed the
scheme to continue and flourish.

     Palemon Sanchez, a real estate investor in Los Angeles, pled guilty to nine
counts of conspiracy, wire fraud, false statements, and aiding and abetting in
conjunction with a scheme involving the purchase and resale of single family
properties with FHA insured mortgages. Salvador Silva also pled guilty to one
count each of conspiracy and mail fraud. Silva was a real estate salesperson who
conspired with Sanchez and others. Sanchez, Silva, and others purchased proper-
ties in their own names or in the names of friends or relatives, and then assisted
buyers in obtaining FHA insured mortgages. When potential buyers could not
qualify for the mortgages, the co-conspirators assisted them by finding
strawbuyers to serve as co-signers for the loans. Sanchez, Silva, and others also
caused fraudulent mortgage applications to be submitted; these applications
included false employment documents, credit references, and letters concerning
the purported relationships of the strawbuyers and the property buyers. The
scheme encompassed 130 FHA loans with a loss to the government of $6.1 mil-
lion. Silva is currently incarcerated, pending his sentencing in November 2001.
The investigation was conducted jointly by the FBI and OIG.

    Alfonso Cervantes pled guilty to multiple counts of conspiracy, mail fraud,
false statements, money laundering, and tax evasion, while Lillian Figueroa and
Terry Flores pled guilty to multiple counts relating to a scheme to defraud HUDs
Single Family Insurance Program. Flores was subsequently sentenced to 3 years
probation. In addition, Cesar Borego pled guilty to 1 count of mail fraud and was
sentenced to 3 years probation, fined $100, and ordered to pay $104,107 in restitu-
tion, while notary public Xochitl Rivas was sentenced to 3 years probation, fined
$200, and ordered to pay $170,969 in restitution. Rivas pled guilty in July 2001 to
one count of mail fraud.
    From 1997 through 1999, Cervantes and his co-conspirators used companies,
including HQ Investments, AC Investments, A-Investments, First Home Realty, Top
Realty, and A&B Property Management, to perpetrate a fraud scheme directed at
commercial lending institutions and FHA. The defendants purchased distressed
properties in the Los Angeles area and arranged for sales of those properties to
strawbuyers at inflated prices ranging from $125,500 to $310,000. They recruited
strawbuyers whom they paid for the use of their identities, which were then
                       altered to reflect fictitious ages. Cervantes notarized false documents, paid
                       document vendors to create or obtain false W-2 forms and pay stubs in the names
                       of the strawbuyers, and submitted fraudulent applications and documents to
                       lending institutions. Rivas also fraudulently notarized documents certifying that
                       the strawbuyers signed documents in her presence when, in fact, they did not. The
                       defendants then directed third parties to purchase cashiers checks for use as
                       down payments on behalf of the strawbuyers, and then represented that the
                       strawbuyers or their relatives were the sources of the funds. In order to promote
                       and continue the scheme, Cervantes, Figueroa, and Flores used the proceeds
                       from the individual property sales to fund subsequent property flips to additional
                       fictitious strawbuyers. The scheme caused at least $7 million in FHA insured
                       single family loans to go into default at a loss to HUD of between $3.5 and $5
                       million. This was a joint FBI/OIG investigation.

                            Daniel Robert Perez pled no contest to one felony count of grand theft in
                       superior court of the County of Los Angeles. Perez was ordered to pay $1,500 in
                       restitution to the victim in this scam involving a single family residence assigned
                       to HUDs inventory. Perez gained access to the property, placed a rental ad in a
                       local newspaper, and accepted a monetary payment per a fraudulent rental
                       agreement with the victim. The victim became aware of the fraudulent scheme
                       prior to inhabiting the residence. This was a joint investigation by the Los Angeles
                       County Sheriffs Department and OIG.

                           The manager and two individuals who had been on the payroll of the Ameri-
                       can Development Company (ADC) were indicted by a federal grand jury on August
                       23. The indictment was unsealed on September 10, following the arrests of the
                       ADC manager in Las Vegas, NV, and his brother, one of the ADC employees, in
                       Twenty-Nine Palms, CA. The three individuals were charged with mail fraud,
                       conspiracy, theft of funds from a government program, and aiding and abetting.
                       The investigation, conducted jointly by OIG and the FBI, disclosed that the 3
                       individuals allegedly engaged in a scheme to improperly divert nearly $1 million
                       from approximately 10 multifamily housing complexes in the greater Los Angeles
                       area that were insured and/or subsidized by HUD. They did so by charging the
                       projects for construction and/or security work that was either not performed or
                       was performed at sites other than the HUD developments.

                           A 1999 vehicle belonging to the owners of a real estate company recently
                       indicted was civilly seized. The vehicle, valued at $20,000 and registered to
                       Continental Investments in San Bernardino, was seized based on a seizure
                       warrant from a federal magistrate in the Central District of California. The
                       president and vice president of Continental Investments were previously indicted
                       on charges of false statements, wire fraud, and money laundering in an alleged
                       scheme to defraud FHA. This investigation was conducted by OIG and the FBI.

District of Columbia       Lawrence Walker, a former District of Columbia Metropolitan Police De-
                       partment vice detective, was sentenced to 6 months electronic monitoring and 5
                       years supervised probation, and was ordered to pay $25,000 in restitution to HUD
                       and a $100 special assessment fee. Walker pled guilty in September 2000 to
                       making a false statement. In 1997, he purchased a property under the Officer
                       Next Door Program but never moved into the property. This was an OIG investiga-
                       tion.

Northern District     As a result of their involvement in a 20-person property flipping scheme in
       of Illinois Chicago, 1 person was sentenced, 16 pled guilty, and 2 were convicted following
                       an investigation by OIG and the FBI.
                            Brian Parr, also known as Ahmad Martins, was sentenced in federal district
                       court to 40 months incarceration and 3 years supervised release, and was ordered
                       to pay $4.5 million in restitution to HUD and various private lending institutions.
                       Parrs incarceration will be served concurrently with his sentence for similar
                       crimes that he committed in Minnesota. Parr served as the flipper, or the indi-
                       vidual who bought and sold properties on the same day with no money ever
                       changing hands. In turn, he collected in excess of $1 million in proceeds that he
                       either used personally or to pay off other individuals in the scheme. Parr also paid
                       off appraisers for submitting fraudulent appraisals, typically $1,000 per appraisal.
                            Tamira Smyth, also known as Tamira Russo, a loan officer, pled guilty to mail
                       fraud. Smyth admitted to her participation in a scheme involving 69 fraudulent
                       FHA insured loans which resulted in a $5.8 million net loss to HUD and conven-
                       tional lenders. Her involvement, along with Brian Parr, included direct knowledge
                       of fraudulent appraisals; originating loans or assisting buyers in qualifying with no
                       money down; knowledge of false financial information on loan applications; and,
                       after closing, paying off other co-defendants whom she recruited as strawbuyers.
                       Individually, Smyth also admitted purchasing a false identity through the Illinois
                       Secretary of State and assisting others in this practice in order to qualify for
                       loans.
                            Curtis Jackson, a mortgagor/recruiter, pled guilty to wire fraud. The loss
                       attributed to him for his part in the scheme is estimated at $231,000. Loan officer
                       Nancy Zimmerman pled guilty to mail fraud; the loss attributed to Zimmermans
                       actions is $664,000. Brenda Wince, a mortgagor, pled guilty to wire fraud; the
                       loss to HUD is $269,000. Broker Edward Scott Ellis pled guilty to submitting false
                       statements to HUD; the loss attributed to Ellis is $158,000.
                            Allison McGowan, Marlon Jackson, and Darryl Lattimore, real estate
                       agents, Melva Crittenden-Wynn, an appraiser, Keith Sloan and Sandra
                       Lesniewski, paralegals, Nicole Williams, a loan processor, and Jerry Williams,
                       Andre Somerset, Albert Gray, and Valarae Washington, all mortgagors, also pled
                       guilty to their involvement in the scheme.
                            Robert Voltl, an attorney, and Reginald Owens, an appraiser, were found
                       guilty on all counts of wire fraud and mail fraud following a 2-week trial. Voltl
                       falsified commitment documents to indicate the first sale of a flip transaction
                       had taken place and to falsify buyers down payments. Owens falsified a series of
                       appraisals on the second sale of the flip transaction.

                            In Chicago, a former loan officer, who is under investigation for FHA loan
                       fraud, was indicted along with two other individuals on state charges for trying to
                       sell a property to which they did not have title. The loan officer, who was acting as
                       the attorney, and the other defendants, who were acting as the sellers representa-
                       tive and as the strawbuyer, allegedly attempted to sell a property, which was free
and clear of a mortgage, in order to make a profit of $533,000 in cash. The actual
owner of the property was unaware of the attempted transaction. In total, the
defendants were each charged with one count of aggravated financial identity theft
and eight counts of forgery. Two of the defendants were also charged with an
additional count of possessing and displaying a fraudulent drivers license. This
investigation was conducted by OIG and the Chicago Police Department.

     In 1995, Frank Clay was found guilty of HUD fraud and mail fraud and was
sentenced in Chicago to 4 years incarceration plus probation. On May 16, 2001,
Clay had his probation revoked and was sentenced to an additional 18 months
incarceration. The revocation was handed down after a follow-up investigation by
OIG and the Postal Inspection Service revealed the following violations: engaging
in new criminal conduct; failing to disclose his prior convictions to employers and
clients; opening new lines of credit without prior approval from his probation
officer; and failing numerous drug tests. Clay allegedly reached out to distressed
homeowners with either FHA or conventionally insured loans and illegally charged
them $1,500 for his assistance in filing bankruptcy. In other cases, he allegedly
had homeowners sign quit claim deeds, thus transferring the interest and equity in
their properties over to Clay. Lastly, Clay allegedly provided false information on
his own personal bankruptcy.

     Mortgagor Eric Duncan, who was previously indicted and pled guilty, was
sentenced to 18 months in prison and 5 years supervised release, and ordered to
pay $36,077 in restitution. Duncan, along with his wife, was involved in a counter-
feiting/phony identification scheme in Chicago which allowed him to cash fraudu-
lent checks and obtain false identification in order to obtain credit cards and an
FHA insured loan. The investigation was conducted by OIG and the Secret Service.


    Following the December 2000 indictment of 11 individuals for their part in a
tenant/landlord integrity investigation, 4 people pled guilty and were sentenced in
DuPage County. Joyce Reeves was sentenced to 24 months probation, restitution
of $5,875, and 180 hours of community service, while Tasha Hamblin was sen-
tenced to 24 months probation, restitution of $26,746, and 120 hours of community
service. Jeannie Benson pled guilty and was sentenced to 2 years probation and
100 hours of community service, and ordered to pay $19,935 in restitution to the
DuPage County Housing Authority. Benson sub-leased her Section 8 unit to a
family member so she could live in a different complex. Margo Benson pled
guilty and was sentenced to 3 months incarceration and 2 years probation, and
was ordered to pay $7,587 in restitution to the DuPage County Housing Authority.
Benson failed to report both her and her husbands income to the Authority. Her
sentencing brings the total restitution in this case to $87,000. Cases are still
pending for five defendants. This investigation was conducted by OIG and the
DuPage County State Attorneys Office.

    In Chicago, Wilma Corks and Eugene Hardney pled guilty following their
April 2001 indictment which alleged that they stole an identity, falsified employ-
ment and bank deposit information, and provided a counterfeit cashiers check in
the amount of $25,425 at a closing. The two stole the identity and Social Security
number of one of the individuals mothers, who was in a nursing home, in order to
clean up their credit. In addition, they provided false employment and fraudulent
bank account information, along with the counterfeit check, at closing on their
purchase of an FHA insured home. Sentencing is scheduled for November 2001.
This was an OIG/Secret Service investigation.

    Seven individuals were charged in a 27-count indictment alleging that they
participated in a scheme to obtain short-term rehabilitation balloon mortgages for
properties in disrepair on Chicagos south side and refinance them with HUD
Section 203(k) Rehabilitation Home Mortgage Insurance Program mortgages.
The 203(k) mortgages allegedly contained fraudulent information, including the
source of the buyers down payments. In addition, investors were allegedly enticed
into purchasing these 203(k) properties through the promise of receiving a cash
payment from one of the persons indicted after the closings. Following the clos-
ings, false certifications and fraudulent lien waivers were then allegedly provided
to obtain escrow checks for work on the properties that was never completed. The
total exposure to HUD on the 50-60 203(k) loans was in excess of $5 million. This
investigation was conducted by the FBI, OIG, and IRS Criminal Investigation
Division.

     The president of a real estate corporation in Chicago and 6 real estate agents
from the same company were charged in a 14-count indictment with 1 or more
counts each of mail fraud, submitting false statements to HUD, and misdemeanor
false statements to HUD. The president and the employees allegedly purchased
run down properties, completed partial rehabilitation, and then sold the properties
to unqualified buyers by providing their down payments through a fraudulent gift
letter scheme, making it appear that the buyers received the down payment funds
from relatives. The scheme purportedly took place between 1990 and 1998 and
encompassed 30 properties with $3.2 million in FHA insured mortgages. Total
losses to HUD may exceed $600,000. OIG and the FBI conducted this investigation.

    FBI and OIG Agents seized a vehicle and bank accounts worth in excess of
$100,000 from a real estate investor simultaneous to the search of her Chicago
residence. Subsequently, $107,000 was officially forfeited to the Department of
Justice. In addition, $47,000 was officially forfeited from the investor following
the sale of her property. Liens were also filed by the U.S. Attorneys Office on
real estate owned by the investor to protect approximately $400,000 in equity in
the properties. All of this property was allegedly obtained in a scheme during
which the investor, doing business as Share Development, acquired approximately
100 homes in need of rehabilitation in 1996 and 1997. Some of the properties were
allegedly acquired in violation of Departmental rules from a HUD approved
nonprofit known as the Northeast Austin Organization (NAO), after NAO pur-
chased the properties at a 30 percent discount under HUDs Direct Sales Pro-
gram. Other properties were acquired from non-HUD sources. The investor then
allegedly falsely sold these homes to buyers through the use of false employment
information and fraudulent second mortgage take backs. Following the closings
on these properties, most of the loans went into default or had their foreclosure
sales put on hold with what appear to be fraudulent bankruptcy filings.
                           Renee Pierce, Section 8 tenant and FHA insured single family mortgagor in
                       Zion, pled guilty to one count of lying to HUD. Pierce admitted to illegally accept-
                       ing Section 8 rental benefits for approximately 2 years when she in fact had
                       purchased an FHA insured property and had occupied the single family residence
                       during the same period. This was a joint OIG/FBI investigation.

                           Four tenants were each indicted on one count of state benefits fraud and one
                       count of forgery for their statements made on Section 8 recertification forms in
                       Cook County. The allegations against the four individuals include using a ficti-
                       tious name and Social Security number to collect assistance under a different
                       identity, using a fraudulent name and Social Security number to purchase a single
                       family house while residing in Section 8 housing, recertifying in two Section 8
                       units simultaneously, and allowing Section 8 assistance to be paid on behalf of a
                       unit that the individual had not occupied in over 5 years. This was an OIG investi-
                       gation.
                           As a follow-up to the four indictments, a fifth individual, a Section 8 landlord,
                       was indicted in Chicago on one felony count of state benefits fraud. The landlord
                       allegedly rented to a market rate tenant while simultaneously collecting Section 8
                       benefits on behalf of his mother, who either lived with him or at another one of his
                       rental properties instead of in the Section 8 residence. This was an OIG investiga-
                       tion.

                            In Chicago, a loan officer and his wife, a closing agent, were indicted on two
                       counts of mail fraud and one count of wire fraud. The two allegedly applied for a
                       refinance loan for a home they never actually owned. Specifically, they allegedly
                       falsified deeds and verifications of income and employment in order to refinance
                       a property to which they did not have title. This was an OIG/FBI investigation.

District of Maryland        In Baltimore, the U.S. Attorneys Office announced the unsealing of charges
                       against 16 defendants for participating in a scheme to furnish false income,
                       credit, and source of funds information to enable individuals to obtain at least 58
                       FHA insured mortgages for which they were not qualified. To date, 48 of the
                       mortgages have gone into foreclosure, resulting in payments of $3.9 million in
                       claims on the FHA insurance fund. One additional defendant was charged the
                       following day.
                            The main player in the scheme is a local real estate agent/property speculator
                       who allegedly obtained over $1.4 million in profits from homes that he either
                       purchased or listed for sale and then sold to unqualified buyers or to strawbuyers,
                       who were posing as mortgagors for investment properties that the agent/specula-
                       tor would continue to manage and control after the sales.
                            As a result of these indictments, six strawpurchasers pled guilty in federal
                       court. Defendant Mary Ann Kintop admitted purchasing 15 homes by using 8
                       different identities, including 2 of her minor children. Defendants Donna Hart,
                       Chester Johnson, and Sandra Johnson each admitted purchasing three homes
                       under false pretenses, and defendants Sharon Sirbaugh and Robert Eshelman
                       admitted purchasing two homes each. The broker would furnish these individuals
                       with false documents concerning employment and assets available to close, and in
                       several cases paid them between $500 and $700 for the use of the false identities.
    OIG Agents and U.S. Postal Inspectors also arrested a Baltimore City man
for his involvement with the agent/speculator. The defendant had eluded arrest
since being charged in federal court, along with the 15 others involved in the
scheme.
    This investigation was conducted by the OIG and the Postal Inspection Service
with assistance from the Quality Assurance Division of the HUD Homeownership
Center.

     Andrew Michael Bogdan, a property speculator and Section 8 landlord, pled
guilty in federal court to conspiracy to commit wire fraud and to make false
statements in connection with a property flipping and mortgage fraud scheme that
began in 1997 and centered on the Patterson Park area of Baltimore City. Bogdan
sold properties to buyers at inflated prices with the aid of falsified documents and
inflated appraisals. He also bought about 68 rental properties in his name and
additional houses in his name and the names of others, and used falsified docu-
ments to obtain loans that exceeded the prices he paid for the houses. The loss to
the government is over $1.6 million. The Assistant U.S. Attorney advised that she
will be asking for additional prison time based on the harm done to the Baltimore
community by Bogdan. This was an OIG/FBI investigation.

    Mortgage broker Carl Schulz, a key figure in a multiple defendant property
flipping scheme, was sentenced in federal court to 33 months incarceration and 5
years probation, and ordered to pay $1.5 million in restitution to mortgage lenders
and investors who were defrauded through the resale of houses with falsely
inflated mortgages. Marcia McNeil, a title company owner and a former em-
ployee of Schulz, was sentenced to 33 months in prison and ordered to pay
$288,000 in restitution for her role in the scheme. Schulz and McNeil bought
about 61 houses in low-income areas of Baltimore and flipped them at greatly
inflated values to investors/purchasers for use as rental properties. They recruited
investors to buy packages of houses at much higher prices, promising to sell the
properties for little or no down payment and also paying the buyers settlement
expenses. Fraudulent documents, including appraisals, were given to the lenders
in order to secure the mortgage loans. This was a joint OIG/FBI investigation.

    Kwabena Manful, a property speculator and flipper in Greenbelt, was
sentenced to 8 months incarceration and 1 year probation, and ordered to pay
$18,000 in restitution for his role in submitting false statements in connection with
FHA insured mortgages. From March 1998 through early 2000, Manful pur-
chased and resold 14 properties to individuals who obtained FHA insured loans
with his assistance. Manful purchased the properties, made minor improvements,
and then sold the properties within a short time to third parties at a profit. Manful
assisted third-party buyers by creating false documents to support the loans. With
the assistance of others, he created false loan documentation, including verifica-
tions of employment, W-2s, and pay stubs, which were submitted to mortgage
lenders in support of the loans. He also created false gift letters, purporting to
show a sum of money designated as gifts to the buyers from relatives, when in fact
the money was supplied by Manful. Loss to the government as a result of this
fraud was approximately $250,000.
    In the same case, speculator Richard Boetang pled guilty in federal court to
making false statements in connection with approximately 17 property transac-
tions involving FHA insured mortgages. Boetang admitted that he created or
helped to create false employment information and gift letters on behalf of numer-
ous mortgagors to qualify them for FHA mortgages to purchase homes in which
Boetang had an interest. The loss to the FHA insurance fund from foreclosures on
these mortgages is approximately $1.5 million. This was a joint investigation by
OIG and the FBI.


     In Greenbelt, David D. Nuyen, the owner of 15 rental properties in the
District of Columbia and Maryland, pled guilty to 1 count of obstruction of justice
and 4 counts of submitting false documents to HUD in order to conceal his failure
to notify tenants of the presence and hazards associated with lead-based paint.
This was the first criminal prosecution in the nation relating to lead hazard
warnings required under the Lead Hazard Reduction Act of 1992. Nuyen sought to
obstruct HUDs investigation and to conceal his failure to properly notify tenants of
the presence of any lead-based paint hazards by giving HUD lead paint disclosure
forms for his tenants that were false and misleading. Nuyen directed resident
building managers to have tenants sign and backdate the lead disclosure forms. He
also backdated his own signature and tenants signatures representing that all
available lead paint information had been provided to the tenants. Nuyen presented
lead hazard notification forms to HUD representing that he had notified tenants
that he had no specific information regarding certain apartments, when he had
actually been issued housing deficiency notices. As part of his plea agreement,
Nuyen also pled guilty to one count of violating the Toxic Substance Control Act.
He failed to provide the required lead hazard pamphlet and lead paint disclosure
form even after learning of and obstructing HUDs investigation. Sentencing has
been scheduled for November 2001. This investigation was conducted by the OIG,
FBI, and EPA Criminal Investigations Division.
     In a related case, on the same day Nuyen, as a real estate broker and mort-
gage lender, pled guilty to one count of submitting false documents to HUD in
order to conceal the fact that he was under investigation. Nuyen was charged with
making materially false statements to HUD as part of his effort to become a loan
originator. He knew and deliberately failed to disclose material information on his
application that HUD was conducting an investigation regarding his compliance
with the Lead Hazard Reduction Act and that the Department of Justice planned
to file a civil lawsuit against him. This was an OIG/FBI investigation.

    In Greenbelt, Jean Alond Jean-Pierre and his wife, Norma Diaz, were
sentenced for their role in using HUD real estate owned (REO) properties in order
to defraud mortgage lenders. Jean-Pierre was sentenced to 27 months incarcera-
tion and 3 years probation, and ordered to pay $449,838 in restitution. Diaz was
sentenced to 6 months home detention to be followed by 5 years probation. A joint
investigation by OIG and the FBI found that Jean-Pierre and Diaz purchased nine
REO properties, and then falsified documents related to the purchase of the
properties. Most of these documents were appraisals and deeds. The two used the
false documentation to fraudulently secure residential mortgage refinance loans
totaling $700,000. The loans are currently in default.
    In Greenbelt, Daren Ware was sentenced in federal court to 8 months in
prison and 3 years supervised probation for his involvement in a mortgage fraud
scheme that resulted in a $140,000 loss to HUD. Ware and his wife falsified
documents to obtain a $130,000 FHA insured loan to purchase a home. The home
was purchased in the name of their 13-year-old son. Ware and his wife falsified
documents to portray their son as the wifes 24-year-old brother. The fictitious
documents included a power of attorney that authorized them to purchase the
home on the brothers behalf while he was allegedly conducting business out of
the country. The home subsequently went into foreclosure and HUD had to pay the
insurance claim. This investigation was conducted by OIG, the Postal Inspection
Service, and the FBI.

    A real estate agent in Greenbelt was charged in federal court with making
false statements in connection with the sale of her personal residence to a
strawbuyer. An investigation by OIG and the Postal Inspection Service disclosed
that the defendants mortgage was going into foreclosure, so she solicited a
strawbuyer and created false income statements and gift letters which enabled the
strawbuyer to qualify for an FHA mortgage. Loss to the FHA insurance fund on the
mortgage that subsequently defaulted is $138,000.

     Walter Duersch, a man described as one of the early property flippers in
Baltimore, was sentenced to 3 years probation due to poor health. Duersch
admitted from his wheelchair that through corporations and aided by appraisers,
settlement attorneys, and mortgage brokers, he bought low-cost houses, made
modest cosmetic repairs, and then sold the homes for contract prices that were
substantially in excess of the actual value. On some occasions, the prices for
which Duersch sold the homes were as much as two to three times the true value
of the properties. Duersch also admitted that he used falsified documents and
inflated appraisals, often flipping houses to buyers with modest incomes and
flawed credit who ended up defaulting on their loans. Duersch was a collaborator
and partner with Robert Beeman, who flipped more than 100 Baltimore proper-
ties. Beeman pled guilty last year and is currently serving a 3-year sentence. This
was a Postal Inspection Service investigation with assistance from the OIG.

    Stacey Oneal Sims, a former Prince Georges County Police Officer, was
sentenced to 5 years probation and ordered to pay $39,234 in restitution for
making a false statement to HUD in connection with his participation in the
Officer Next Door (OND) Program. This program encourages law enforcement
officers to live in economically distressed communities. In January 1999, Sims
purchased a Forrestville property for 50 percent of its value. The OND Program
stipulates that the Police Officer must reside in the property for at least 3 years.
However, Sims leased the property to a third party approximately 8 months after
purchasing it. In December 1999, Sims returned a letter to HUD falsely certifying
that he resided in the property when in fact he did not. Sims resigned from the
Police Department following his indictment. This was an OIG investigation.
    Contractor Raymond Koutz was sentenced to 1 year incarceration and 3 years
probation, and ordered to pay $418,411 in restitution for his role in submitting false
monthly operating reports with the United States Trustees Office for the District
of Maryland. Koutz received payments from the Housing Authority of Baltimore
City totaling over $400,000 for construction work. These funds were not deposited
with the court but in a separate bank account which Koutz used for cash with-
drawals and to pay his second mortgage. Koutz filed false operating reports
declaring that the court account was his only bank account when in fact he had
another open account. This was a joint OIG/FBI investigation.

     Anthony Deal, a former tax return preparer and sales associate with Deal
Real Estate, Inc., in Baltimore, pled guilty to eight counts of conspiracy to com-
mit bank fraud and failure to file tax returns. Deal admitted that he failed to file
his personal income tax returns for the years 1995 through 1997 and prepared
false income tax returns for his clients for the years 1994 through 1998. He was
also involved in about $5 million worth of sales of FHA insured properties, of
which at least 36 transactions were supported by false W-2s, pay stubs, gift
letters, and verifications of employment. By the time of Deals November 2001
sentencing, it is estimated that the loss to the government from these transactions
will exceed $1 million. This investigation was conducted by OIG and the IRS
Criminal Investigation Division.

    George A. Schiaffino and William Dennis White, both property speculators in
Baltimore, pled guilty in federal court to submitting false statements. The two
were involved in a scheme to obtain government insured mortgages for buyers of
flipped houses. Schiaffino also pled guilty for Kayhouse Realty, Inc., a real estate
company that he owns, which traded under the name of Century 21 Kayhouse
Realty until its assets were sold last year. Schiaffino and White submitted false
information including credit reports, rental history, pay stubs, gift letters, employ-
ment documentation, and W-2s to qualify otherwise unqualified individuals on at
least 88 FHA transactions. The loss to the government is approximately $700,000.
This was a joint OIG/FBI investigation.

    College Park real estate agent Rose Wright pled guilty in federal court to two
counts of making false statements, forging documents, and passing false docu-
ments in order to influence HUD. Wright, whose home was going into foreclosure,
solicited a strawbuyer to purchase the home on her behalf and save it from
foreclosure. She created false employment information, including W-2s, wage
and tax statements, pay stubs, and gift letters, purporting that the homebuyer was
employed and had received gift monies from relatives to purchase the home. The
fraudulent documents were submitted to a lending institution in order to obtain a
$138,855 FHA insured mortgage. Once again, Wright defaulted on the mortgage
payments, and was in the process of soliciting another strawbuyer when OIG
Agents discovered the scheme. The home subsequently went into foreclosure,
resulting in a $144,000 insurance claim paid by HUD. OIG, the Postal Inspection
Service, and the FBI conducted this investigation.

    Scott B. Dower, a former vice president of Adler Services Group, pled guilty,
and businessman Harvey Adler was convicted for their roles in submitting false
and inflated bills to the Housing Authority of Baltimore City for maintenance and
repair work on several public housing properties. Dower caused the company to
submit invoices for repair and maintenance work on gas and oil fired furnaces
that was never performed and inflated the cost of the parts. He also directed
technicians to install parts that were not needed and to inflate the number of hours
they worked by two or more times. Adler routinely overbilled for government
contract work that his heating and air conditioning repair business performed at
City housing properties. This was a joint investigation by OIG and the FBI.

    Donald P. Harman, a property speculator in Greenbelt who provided
homebuyers with fictitious documents to obtain approximately 20 FHA insured
mortgages, pled guilty in federal court to conspiracy for his role in a property
flipping and mortgage fraud scheme. Harman and two other individuals were
previously indicted on nine counts of false statements relating to HUD loans and
conspiracy. Harman was the owner and operator of Morningside Associates, Inc.,
and Kensington Associates, Inc., which purchased FHA distressed properties that
were then sold at inflated prices. He provided buyers with fictitious W-2s, wage
and tax statements, verification of employment forms, and gift funds. The loss to
the government because of this fraudulent activity totaled $600,000. This investi-
gation was conducted by the OIG, the FBI, and the Postal Inspection Service.

    Ruby F. Frye, an employee of Special Properties Incorporated (SPI), pled
guilty to one count of submitting false transactions to HUD. In November 1996,
HUD entered into a Real Estate Asset Manager contract with SPI. SPI was respon-
sible for maintaining HUD defaulted properties in Montgomery County, while
Frye was responsible for preparing and submitting invoices to the HUD Office in
Washington, D.C., for work performed by SPIs subcontractors on the HUD
properties. Frye submitted the false invoices in order for SPI to obtain additional
profits from the contract. The invoices included Fryes certification that work
completed for all properties listed was done in a satisfactory manner and in
accordance with the terms of the contract. The approximate loss to the govern-
ment was $176,000. This investigation was conducted by the OIG District of
Maryland and District of Columbia Housing Fraud Initiative Offices and the FBI.

    Two officers at a local construction company were charged in federal court
with bankruptcy fraud. A joint investigation by the OIG, FBI, and the U.S.
Trustees Office found that the officers allegedly filed false reports with the
bankruptcy court in an attempt to conceal over $200,000 in revenues obtained
through contract work with the Housing Authority of Baltimore City.
    A property speculator, who started in the real estate business as a Section 8
landlord, was charged with mail fraud in connection with an alleged property
flipping scheme that targeted investors and defrauded lenders. Over a 3-1/2 year
period, the speculator, operating B&S Management Inc., allegedly conducted a
scheme to buy low-cost properties in Baltimore and quickly sell them to inves-
tors. The contract sales prices were substantially in excess of the actual value of
the properties, often two to three times their value. Buyers were told that they
would have to put up little or no cash and would get cash back at settlement. The
speculator used inflated appraisals and other false information to obtain mort-
gages for the buyers that exceeded the value of the houses. The mortgages were
overvalued by $2.5 million. The loss to lenders is estimated at $5 million. This
was a joint OIG/FBI investigation.

    Two Section 8 recipients at the Housing Authority of Baltimore City (HABC)
were arrested and charged in state court with theft by deception. Based on infor-
mation initially provided by the HABC Police, an OIG investigation found that the
defendants allegedly created fraudulent HABC Section 8 vouchers and related
documentation through the use of copy machines and whiteout, and then sold the
false documents to unsuspecting victims for between $500 and $750. The defen-
dants allegedly represented to their victims that they were HABC employees who
would expedite the processing of Section 8 applications for a fee. Many of the
victims used the false documents to obtain rental housing from unsuspecting
landlords, only to learn later that they were not qualified for assistance. It is
estimated that the defendants obtained at least $16,000 through their scheme over
an 18-month period.

    In Baltimore, a $93,000 settlement agreement was reached in a civil suit
involving a loan officer and a home seller for their role in providing fraudulent
documents to qualify a homebuyer for an FHA insured mortgage. The home seller
had one of his employees purchase his property for $135,900 with an FHA mort-
gage. An agreement was reached between the home seller and employee that the
employee would provide inflated income information to qualify for the mortgage
and the home seller would provide the employee with $10,000 for use as a down
payment. No disclosures were made by the loan officer, the seller, or the em-
ployee about the inflated income or the $10,000. The mortgage went into default,
resulting in the payment of a $150,846 claim. The property eventually sold for
$97,600, resulting in a loss to HUD of $53,246. This was an OIG investigation.

    Over the last several months, a proactive initiative by the OIG, local police,
and officials of the Baltimore County Section 8 Office has resulted in the pending
or actual eviction of over 70 subsidized tenant households who are violating
pertinent leasehold, housing quality standards, and other provisions at the HUD
assisted Kingsley Park Apartments. Kingsley Park is a 309-unit Section 8 project
spread over a 3-block area that is notorious for violent crime and drug trafficking.
Officers and Agents used surveillance, tenant interviews, surprise inspections,
and reviews of police incident reports to develop evidence of illegal tenancies,
improper disclosure of household income and family composition, tenancy by
violent convicted felons, and related leasehold and housing quality standards
violations. The operation found that a large percentage of the crime in or around
                   Kingsley Park was being committed by non-reported household members. The
                   information was processed by the County Section 8 Office; eviction proceedings
                   have begun where deemed appropriate.

Eastern District       John Stolarenko, former president of Eastwood Mortgage Bankers in East
   of New York     Meadow, NY, was sentenced to 10 months incarceration and 3 years probation,
                   and ordered to pay $1,000,000 in forfeiture and $5,968,283 in restitution to HUD.
                   Stolarenko previously pled guilty to bank fraud for his involvement in a conspiracy
                   to defraud two banks and HUD.
                       Stolarenko and his co-conspirators engaged in a property flipping scheme
                   during which they purchased properties at distressed prices, flipped them to paid
                   strawbuyers at highly inflated prices, and then collected the proceeds from the
                   second sale. The majority of the flips happened on the same day the properties
                   were initially purchased. Carlos Sanchez, a licensed mortgage broker and one of
                   Stolarenkos co-conspirators, was responsible for the origination of at least 87
                   flipped fraudulent properties that were insured by FHA in 1995 and 1996. Of
                   those, only one mortgage is current and only three mortgages have had their
                   insurance terminated. To date, 3 loans are in default, 22 loans are in foreclosure,
                   and 58 loans have already had claims paid by HUD totaling over $10.72 million. Of
                   the 58 properties conveyed to HUD after claims were paid, HUD has resold 42
                   properties for a net loss of $4,383,844. Based on these numbers, we project an
                   estimated net loss on all properties (excluding active and terminated loans) of over
                   $8,536,424. Sanchez was sentenced in March 2001 to 46 months incarceration
                   and 5 years probation. A money judgment for $700,000 was ordered as forfeiture
                   and $4,234,655 was ordered as restitution. This was a joint OIG/FBI investigation.

                        Following a joint investigation by OIG and the New York City Department of
                   Investigation, Rabbi Efroim Stein and Rabbi Jacob Bronner were sentenced
                   pursuant to their February 2001 guilty plea to one count of conspiracy to defraud
                   HUD. Both rabbis received 33 months incarceration and 2 years probation, and
                   were ordered to pay a total of $325,000 in restitution, which was paid in full prior
                   to their sentencing. The rabbis owned and operated a nonprofit company called
                   Project Social Care in New York, NY. The company received a $2.5 million
                   Special Purpose Grant in 1995 to create a counseling program tailored to meet
                   the needs of elderly Holocaust survivors, helping them deal directly with the
                   Holocaust experience. The pair paid monies to organizations and then had
                   monies kicked back to themselves. In addition, the rabbis paid for nonexistent
                   goods and services from companies that also kicked the money back to them.

                        The OIG, U.S. Attorneys Office, Eastern District of New York, and the
                   Manhattan District Attorneys Office conducted a lengthy investigation of fraud
                   associated with HUDS Section 203(k) Rehabilitation Home Mortgage Insurance
                   Program that involved lenders, attorneys, appraisers, loan officers, and numerous
                   nonprofit organizations, primarily on Long Island. Several indictments, convic-
                   tions, and sentencings have resulted from the investigation, including the follow-
                   ing.
                        Walter Engelhardt, an air traffic controller with the Federal Aviation Admin-
                   istration, pled guilty in Supreme Court of the State of New York to criminal
                   facilitation in the fourth degree. In addition to the state plea, Engelhardt paid
                          $27,000 to the U.S. Attorneys Office, Eastern District of New York, which was
                          derived from proceeds traceable to loan and credit application fraud. In 1998,
                          Engelhardt acted as the signatory on 35 Section 203(k) loans obtained by Family
                          Preservation Center, a nonprofit organization. Engelhardt, who had no connection
                          or affiliation with Family Preservation Center, received $27,000 for being the
                          signatory on the loans.
                              The director of St. Stephens Baptist Church, based in Las Vegas, NV, surren-
                          dered to the OIG at U.S. District Court, Eastern District of New York. The
                          director was charged with making false statements to HUD.

                               Long Island real estate investor John Fetkovich pled guilty to charges of
                          conspiring to defraud HUD in connection with a $1.2 million Section 203(k)
                          Rehabilitation Home Mortgage Insurance Program fraud scheme. Fetkovich used
                          intermediaries to acquire and flip properties to his wife at falsely inflated prices.
                          In addition, he falsified his wifes income and asset information, and provided
                          203(k) completion certifications to HUD for work that was not done. All 11 proper-
                          ties involved in the scheme have either been foreclosed or are currently in fore-
                          closure. HUD losses are expected to exceed $1 million. This was an OIG investiga-
                          tion.

                              Nathaniel Ham, former commissioner and chairman of the Huntington
                          Housing Authority, repaid the Authoritys Mortgage BanKing Corporation
                          $72,530. The funds were taken by Ham, with the assistance of another commis-
                          sioner, as an alleged loan from the Mortgage BanKing Corporation, without
                          Authority approval. The funds were then used to pay Hams personal expenses,
                          including real estate property taxes and college tuition for his son. This was a joint
                          investigation by the OIG, U.S. Attorneys Office, and the New York State Attorney
                          Generals Office.

                               Following an investigation by OIG and the FBI into public corruption and fraud
                          in the Newburgh Housing Authority, two former employees, two contractors, and
                          the Authoritys executive director were arrested in conjunction with charges filed
                          in the Southern District of New York. Another former employee also named in the
                          felony complaints surrendered to OIG and FBI Agents. The complaints alleged that
                          the executive director engaged in a kickback scheme involving a contract, worth
                          $7,100, for work to be performed at the Authority. The executive director alleg-
                          edly received a $3,500 kickback on the contract. Other complaints filed with the
                          Southern District alleged that two of the former Authority employees and one of
                          the contractors also conspired and engaged in a scheme to defraud and embezzle
                          government funds. Also filed in the Southern District was a complaint which
                          alleged that the former assistant to the executive director conspired with a former
                          landlord who participated in the Section 8 Program. The assistant, who at the
                          time resided with the landlord, provided the landlord with Section 8 funds to
                          which he was not entitled.

Northern District of    Following an investigation by OIG and the FBI, Cathy Massingill, a former
              Texas  Lancaster Housing Authority employee, was sentenced to 6 months home con-
                          finement and 5 years supervised release, and ordered to pay $92,490 in restitution
                          to HUD. In April 2001, Massingill and Sharon Morris, the former executive
director of the Authority, each pled guilty to theft. From 1992 to 1999, Massingill
and Morris stole over $300,000 in HUD Section 8 funds from the Authority. In
order to conceal their scheme, they altered tenant income forms to lower tenants
reported income and show that their rents were 100 percent subsidized by the
Authority; had these tenants pay rent to them and then paid the landlord with
checks written from the HUD funded account; provided the tenants with rent
receipts and threatened to evict tenants for non-payment; and split the tenant rents
50/50 after cashing tenant checks or depositing the checks in their personal bank
accounts. The stolen money was spent on personal expenses, including numerous
credit card balances.

    Under the Officer Next Door Program (ONDP), HUD sells homes in desig-
nated revitalization areas to law enforcement Officers at a 50 percent discount.
The Officers are required to reside in the home as their principal residence for 3
years from the date of closing in exchange for this discount. During this reporting
period, two individuals were sentenced and one was indicted for violating the
provisions of the program.
    Jorge A. Ramirez, a former Dallas Area Rapid Transit Police Officer, was
sentenced on one count of submitting false statements. Ramirez was ordered to
serve 18 months in prison and to pay $45,016 in restitution. The sentencing was
the result of a joint OIG/FBI investigation which disclosed that in March 2000,
Ramirez purchased a property through the ONDP and instead of living in the
property, rented the residence to relatives while living in a rent-free apartment as
a Courtesy Officer at a local apartment complex.
    Christopher Jenks, a former Dallas Independent School District Police
Officer, was sentenced to 180 days home confinement and 5 years supervised
release, and ordered to pay $35,990 in restitution for submitting false statements
to HUD. Jenks purchased a HUD property through the ONDP. He never lived in the
property, but rented it out while he lived as a Courtesy Officer in a rent-free
apartment at a local apartment complex.
    A federal grand jury in Fort Worth returned a three-count indictment against
a reserve Police Officer who also was an equipment coordinator for the Fort
Worth Police Department. The indictment charged the individual with two counts
of submitting false statements to HUD and one count of submitting a false state-
ment to a financial institution. The individual allegedly received a $37,000 dis-
count to purchase a home under the ONDP. Instead of residing in the property for 3
years, the individual allegedly continued to reside in his original, more expensive
residence. The Officer moved in to the ONDP property almost 2 years after the
purchase when advised he was under investigation. All of these investigations
were conducted jointly by the OIG and the FBI.

    Borrower Teresa Carter was sentenced for submitting false statements on an
application to purchase an FHA insured home. Carter submitted numerous false
statements, including false employment information and a statement representing
that she was her minor daughter, on a loan application in an effort to conceal past
credit problems which would have otherwise precluded her from obtaining the
loan. She was placed on 3 years supervised release and ordered to perform 100
hours of community service.
    Earl Williams, Jr., and Gayla Williams pled guilty to conspiracy to defraud
HUD on the origination of an FHA insured mortgage. Earl and Gayla Williams,
who had already lost one home through foreclosure, applied for an FHA insured
mortgage using the name and Social Security number of their 12-year old daugh-
ter. Their mortgage application contained false employment information as well
as a phony gift letter. The mortgage on the home is being foreclosed.
     A federal grand jury returned a two-count indictment against a former loan
processor charging wire fraud. The individual was allegedly responsible for
processing false documents to originate FHA loans.
     These pleas and the indictment are the result of an OIG/FBI investigation into
the activities of Infinity National Mortgage of Dallas. To date, the investigation
has determined that Infinity took advantage of its direct endorsement status and
approved over $11 million in now defaulted and/or foreclosed FHA mortgages in
which numerous false statements were made.

    In Dallas, Rodney Dale Waggoner, Jr., the owner of Texas Real-Tax, Inc.,
pled guilty to one count of submitting false statements. Waggoner participated in a
scheme to defraud HUD through the use of inflated values on tax certificates. An
investigation by OIG and the FBI disclosed that Waggoner conspired with three
HUD closing attorneys to falsify thousands of tax certificates. As part of the
scheme, Waggoner sold tax certificates to the HUD closing attorneys at approxi-
mately $20 per certificate, but reflected that the certificates were sold for $43.
The attorneys would then submit false certificates to HUD and were reimbursed
the full amount of $43. One of the attorneys is currently serving 2 years in a
federal correctional facility for defrauding HUD out of $561,000.

    Renita Raynes, the former executive director of the Knox City Housing
Authority, pled guilty to third degree felony charges of forgery, theft by a public
servant, and tampering with government records. Raynes was sentenced to 5
years probation, ordered to perform 500 hours of community service, and ordered
to pay $11,148 in restitution and a $309 court fine. The plea and sentencing were
the result of a joint investigation by the OIG, the Knox City Police Department, the
Knox County District Attorneys Office, and Texas Rangers which disclosed that
Raynes used her position to steal funds from the Authority. She prepared payroll
checks, forged signatures, and cashed the checks; stole training funds; falsified
rent receipts; and provided false monthly reports to the Authoritys board mem-
bers to cover up the thefts.

    The owner of Equity Mortgage Assistance (EMA) in Dallas was indicted by a
federal grand jury on one count of conspiracy to commit mail fraud and five
counts of money laundering. On the same day, another individual was indicted on
one count of harboring a fugitive. This individual allegedly harbored the owner of
EMA from law enforcement although he knew there was an arrest warrant for the
owner.
    These indictments stemmed from an OIG investigation which disclosed that,
from about July 1997 until March 2000, the two individuals used the U.S. mail to
defraud distressed single family homeowners by persuading them to contact EMA
to prevent foreclosure on their homes. EMA had obtained monthly foreclosure lists
and mailed advertisements to these distressed homeowners representing that for
$300, EMA could stop foreclosure on their homes without the homeowners filing
for bankruptcy. When the homeowners contacted EMA, EMA requested that they
provide to EMA the equivalent of two mortgage payments representing good
faith. For $300, EMA led the homeowners to believe that EMA would negotiate
with the various mortgage companies to have late payments and other fees rolled
to the end of the mortgages. EMA instructed homeowners to make future mort-
gage payments to EMA in the form of cash, a cashiers check, or money order
only. Since EMA failed to make any payments to the mortgage companies, the
properties were foreclosed, some of which had FHA insured loans. The loss is
approximately $550,000, $220,000 of which relates to FHA loans. Other allega-
tions included a scheme to conceal ownership and source of funds involving the
purchase of a 1999 vehicle. One of the perpetrators wrote a check from the EMA
account for over $20,000, which was deposited in another of the perpetrators
personal bank accounts, after which a check was written to a local automobile
dealer for the purchase of the vehicle.
This page intentionally left blank.
Chapter 3
    Audits
                           In addition to evaluating HUDs management and reform challenges, conduct-
                       ing audit work in support of the Housing Fraud Initiative, and commenting on
                       regulations and legislative proposals, the OIGs Office of Audit continued to
                       monitor HUD programs and operations through audits. During this reporting
                       period, the Office of Audit issued 9 reports and 7 audit-related memoranda on
                       internal HUD operations, and 23 reports and 24 audit-related memoranda on
                       grantees and program participants. (See Appendix 1 for a listing of the audit
                       reports and memoranda issued.) Collections amounted to $6.2 million, with
                       another $51 million in management decisions on audits with questioned costs.
                       Investigative recoveries (out of courts settlements, court ordered fines, penalties,
                       and restitution) totaled $1.3 million.



                Single Family Housing Programs

                           Single Family Housing Programs provide mortgage insurance that enables
                       individuals to finance the purchase, rehabilitation, and/or construction of a home.
                       During this reporting period, we conducted nationwide audits of the Single Family
                       Insurance and Property Disposition Programs including the Affordable Housing
                       Program, and reviewed various loan origination activities.

Single Family               As part of our effort to look at FHA Single Family Insurance Program activi-
                       ties, the OIG conducted the following audits:
Insurance
Program                    An OIG nationwide audit of HUDs Officer Next Door and Teacher Next Door
                       (OND/TND) Property Disposition Programs disclosed that the programs are at
                       high risk of abuse by homebuyers, and that HUD had not established adequate
                       management controls over the programs. The audit identified that: (1) 23 of 108
           Property    homebuyers in our sample abused the OND Program by not fulfilling occupancy
         Disposition   requirements and thus received unearned discounts of nearly $735,000; (2)
                       achievement of OND and TND Program goals and objectives was not assessed; (3)
                       homes were sold outside of revitalization areas and therefore were improperly
                       discounted by about $1.2 million; (4) a tracking and referral process for suspected
                       program violators is needed; and (5) key records related to program activity were
                       not preserved and properly archived.
                           The most significant recommendations include the following:

                       Ø Establish a monitoring plan to detect and deter program abuse and ensure that
                         participants reside in their OND/TND homes for the required 3-year occu-
                         pancy term. For participants who purchase their homes on or after August 2,
                         1999, they should not acquire additional residential real property.

                       Ø Modify directives to redefine the 3-year residency period as beginning on the
                         date the program participant moves into the house.

                       Ø Assess whether OND/TND Program achievements justify the higher costs
                         associated with OND/TND Program sales.
Ø To ensure appropriate boundaries and consistency among the Homeownership
  Centers (HOCs), establish minimum standards for evaluating and documenting
  designated revitalization areas. For example, HOCs should physically observe
  revitalization areas and determine appropriate boundary lines.

Ø Review existing revitalization areas to ensure they are adequately supported
  and qualify under present directives for establishment as revitalization areas.

Ø Establish a centralized tracking system or logging procedure to ensure that
  suspected violations are documented, actions are taken to confirm, clear, or
  refer the suspected violations, and cases are referred to the OIG Office of
  Investigation when appropriate.

    HUD officials response to the final audit report highlighted corrective actions
they are planning or have initiated. (Report No. 2001-AT-0001)

     The OIG reviewed the Philadelphia, PA HOC and found that it needs to
strengthen its Management and Marketing (M&M) contractor monitoring and
follow-up procedures to ensure that significant and recurring performance defi-
ciencies identified in prior audits and by third party contract monitors are re-
ported and more closely monitored and tracked. Voucher processing and file
maintenance controls also need improvement to minimize the processing of
duplicative pass-through and incorrectly computed fixed-fee payments. Weak
voucher processing controls resulted in potentially duplicative pass-through
payments totaling over $937,000. Further, automated system limitations resulted
in incorrect payments for fixed-fee vacant lot transactions and inappropriate
manual fee adjustments when properties were listed and closed within the same
month.
     Our review also showed that better use and analyses of relevant Single Family
Acquired Asset Management System (SAMS) data would likely improve the HOCs
M&M contractor oversight capability. Application of these techniques should
improve the HOCs ability to detect non-performance of key contract require-
ments, quantify the effect, and identify and measure performance trends so that
vulnerabilities can be better assessed, and limited monitoring resources more
appropriately directed. Our analyses of the data, comparisons of appraisal values
and sales prices, and limited testing of owner/occupant sales, indicated that HUD
should be concerned about the quality of single family real estate owned apprais-
als and the high potential for special sales program abuse.
     Our internal work followed three external M&M contractor audit reports
issued to the HOC. Because our review included analyses of nationwide SAMS data,
some of the single family disposition trends we identified appear to have universal
applicability throughout the country. Accordingly, although our recommendations
are addressed only to the Philadelphia HOC, they may improve single family
disposition activities at the Santa Ana, Denver, and Atlanta HOCs. As such, HUD
Headquarters should consider implementing the recommendations at all HOCs.
The audit made several recommendations including:

Ø Completing a detailed risk assessment of problem areas identified as a result
  of implementing M&M contractor monitoring procedures and using the results
  as a guide.
                         Ø Providing training to staff assigned M&M contractor monitoring.

                         Ø Improving voucher review and approval procedures to minimize the payment
                           of duplicate line items.

                         Ø Reviewing the list of 671 potentially duplicative pass-through line items valued
                           at $937,280, performing detailed eligibility validations of the charges, and
                           seeking reimbursement from the applicable contractor. (Report No. 2001-
                           PH-0803)

Affordable Housing    In purchasing real estate owned properties, The Rain Foundation in Titusville,
           Program FL, did not properly control and manage its Affordable Housing Program. The
                         Foundation was not independent and did not pass on benefits of discounts it re-
                         ceived from HUD. The Foundation allowed a consultant and venture partners to
                         influence and control most of the properties purchased from HUD. This arrange-
                         ment created a conflict of interest and defeated HUDs objective of increasing
                         opportunities for affordable homeownership to low- and moderate-income per-
                         sons. The Foundation and/or the venture partners received excessive profits from
                         the resale of the properties. For the 6 properties we reviewed, the Foundation
                         received discounts of nearly $46,000 from HUD. However, it discounted the
                         properties a total of about $7,800 below fair market value, while turning a profit
                         for itself and its partners of $65,000. Also, the Foundation sold two properties to
                         ineligible buyers, was unable to properly account for property repairs, and sub-
                         mitted inaccurate information to HUD during its recertification process.
                              During our audit, HUD issued a 1-year removal action against the Foundation.
                         HUD found similar problems including use of joint venture agreements, conflicts
                         of interest, and failure to pass on discounts to homeowners. Since HUD has
                         removed the Foundation from the Single Family Insurance Program, we made no
                         further recommendations for corrective action. (Report No. 2001-AT-1806)

                              Autographed Book Give-Away for Inner-City Youths, Inc., (ABG) in Orlando,
                         FL, did not properly control and manage its Affordable Housing Program. ABG
                         allowed venture partners to influence and control most of the properties purchased
                         from HUD. This arrangement created a conflict of interest and defeated HUDs
                         objective of increasing opportunities for affordable homeownership to low- and
                         moderate-income persons. ABG sold homes to ineligible purchasers, sold homes
                         at excessive prices, allowed properties to be sold at predatory loan rates, failed to
                         maintain adequate accounting records, and needed to improve the quality of its
                         renovation work. In addition to its failure to meet HUDs program objectives, we
                         question ABGs charitable intent. The executive director used the nonprofit to pay
                         over $97,000 in personal expenses. Use of a nonprofit for personal benefit violates
                         HUDs eligibility criteria for participation in its programs.
                              The audit recommended that HUD require ABG to reimburse HUD about
                         $23,000 for the discounts it received on 3 properties it sold to unqualified buyers,
                         and pay down the mortgages for the 30 percent discounted properties sold in
                         excess of 110 percent of net development cost. ABG should also assist homebuyers
                         with mortgage rates over 17 percent to obtain refinancing at reasonable prevail-
                         ing rates, and correct or pay for the rehabilitation deficiencies identified by the
                         audit. (Report No. 2001-AT-1808)
     In Denver, CO, Brothers Redevelopment, a nonprofit organization approved
by HUD to participate in the Single Family Insurance Programs, did not adminis-
ter or carry out its Affordable Housing Program as approved by HUD or in
conformity with HUD requirements. In addition, intended savings realized from
the discount purchase of properties from HUD were not passed on to low- and
moderate-income homebuyers. Specifically, Brothers Redevelopment allowed an
independent contract developer to administer and control all aspects of its Afford-
able Housing Program. The contract developer operated the program under a
verbal agreement with Brothers Redevelopment. The contract developer had a
vested interest in the program in that it received 40 percent of the profits realized
from the sale of the properties. In addition, the contract developer secured
financing for the acquisition and rehabilitation of the properties from an identity of
interest lender who also realized 20 percent of the profits from the property sales.
Furthermore, Brothers Redevelopment received 40 percent of the net profits from
the resale of the properties. In actual practice, the contract developer used
Brothers Redevelopment as a strawbuyer for a fee and functioned as an investor of
HUD acquired properties.
     The audit recommended that the Denver Homeownership Center suspend
Brothers Redevelopment from further participation in FHA Single Family Insur-
ance Programs, and determine what the actual net development cost is for each
30 percent property purchased and rehabilitated by Brothers Redevelopment.
Based on the actual net development cost, the Homeownership Center should then
calculate the excess profits and compensate homebuyers. (Report No. 2001-DE-
1002)

    An OIG audit of the Denver, CO Homeownership Centers (HOC) review,
approval, and monitoring processes of nonprofit organizations participation in
FHA Single Family Insurance Programs found that improvements are needed in
the HOCs procedures and controls in three areas:

Ø Previously approved nonprofit agencies were granted approval to participate in
  the Single Family Programs when their recertification packages did not fully
  comply with HUD requirements.

Ø New nonprofit agencies were granted approval to participate in HUDs pro-
  grams when their certification packages did not fully comply with HUD
  requirements.

Ø The required annual reports from the nonprofit agencies that had purchased
  30 percent discounted properties during the preceding year did not include
  data on all acquired properties or were not being received.

    In February 2000, responsibility for reviewing, approving, and monitoring
nonprofit organizations in HUDs Single Family Insurance Programs was trans-
ferred from the Real Estate Owned Division to the Program Support Division
within the Denver HOC. HUD then required all previously approved nonprofit
organizations, as well as any new nonprofit organizations, to submit within 45 days
new certification packages to HUD for review and approval for the HUD program.
HUD had to complete the review of about 160 certification packages in a 90-day
period. According to HOC officials, this situation resulted in a very heavy
workload that had to be conducted in a very limited timeframe. As a result, some
areas of the certification package reviews may have been deficient. However,
considering both the limited timeframes and guidance, HOC staff did a good job of
reviewing the certification packages. Our audit made several recommendations to
improve the Denver HOC review process. (Report No. 2001-DE-0801)

    In Irving, TX, the OIG audited Community Housing Funds purchase of real
estate owned properties. Community Housing Fund (CHF) was formed in 1992 to
work with low-income families to help them purchase their own homes. Our audit
concluded CHF did not meet HUDs Affordable Housing Programs objectives, and
received excess profits from the resale of properties obtained under the program.
Specifically, CHF amassed a real estate portfolio of over 400 properties; did not
maintain a program to move tenants to homeownership; sold property to investors
and an employee; received profits in excess of 110 percent of its net development
costs; calculated net development costs incorrectly; could not support its net
development costs; and maintained a conflict-of-interest relationship with its
repair/rehabilitation contractor. In addition, CHF could not provide support for
information it reported to HUD in its annual report for its net development costs,
and maintained no invoices of services or rehabilitation provided.
    The audit recommended that the Director, Denver Homeownership Center,
remove CHF from participating in the nonprofit Affordable Housing Program for
noncompliance with affordable housing objectives. We also made a series of
recommendations intended to require CHF to support its net development costs;
and require CHF to pay down the mortgages for properties sold in excess of 110
percent of development costs that it cannot support. (Report No. 2001-FW-1807)

     Family Home Providers, Inc., (FHP) in Cumming, GA, did not comply with
HUDs Single Family Property Disposition Program requirements. For the 5
properties we reviewed, FHP passed along about $28,000 of the $65,000 in dis-
counts it received from HUD, thus depriving low- and moderate-income
homebuyers of the programs intended benefits. We also identified at least
$147,000 in sales commissions FHPs president paid to his own realty firm from
September 1997 through November 2000 on 20 properties FHP purchased from
HUD, and $20,000 in profits he paid to a business in which he and his wife were
once officers. These transactions violated conflict of interest prohibitions. We also
observed poor quality workmanship on four houses sold by FHP. In addition to its
failure to meet HUDs program objectives, we question FHPs charitable intent.
From 1998-2000, FHPs president obtained personal benefit (aside from salary
and realty commissions) from the nonprofits operations. Those acts violated
HUDs eligibility criteria for participation in its programs.
     The audit recommended that the Director of the Atlanta Homeownership
Center require FHP to pay down the mortgages for the 30 percent discounted
properties it sold for prices that exceeded 110 percent of the net development cost,
and correct the rehabilitation deficiencies identified in the audit at no cost to the
purchaser or current occupant of the homes. (Report No. 2001-AT-1807)

   In response to a complaint, the OIG reviewed Golden Home Mortgage in
Concord, CA. Our review disclosed that neither Golden Home Mortgage nor its
                       sponsors, SCME Mortgage Bankers and Western Sunrise Mortgage, doing busi-
                       ness as Crossland Mortgage, prevented nonprofit mortgagors from exceeding
                       HUDs limitation on resale prices for properties purchased from HUD at a 30
                       percent discount. HUDs purpose for giving the discounts was that the nonprofits
                       that purchased the properties pass the discounts on to low- and moderate-income
                       homebuyers. The homebuyers, however, paid an average of $10,500 more for their
                       homes than HUD intended. This also increased HUDs mortgage insurance risk
                       and the homebuyers liability an average of $10,800. The price and mortgage
                       increases also resulted in higher fees for Golden Home and its associates. The
                       audit recommended that HUD take appropriate action on the issues presented in
                       the audit. (Report No. 2001-SF-1806)

Loan Origination     An OIG review of the Buffalo, NY Branch Office of National City Mortgage
       Activities Company concluded that for 7 of the 33 loans reviewed, National did not adhere to
                       prudent lending practices during the underwriting process. Each of the seven loans
                       had at least one significant processing deficiency and four were in default. The
                       specific processing deficiencies were earnest money was not verified; minimum
                       investments were not provided; income was overstated; sources of gift funds were
                       not verified; loan ratios exceeded HUD/FHA standards; and funds from an unse-
                       cured loan were used as an earnest money deposit. As a result, mortgages were
                       approved for unqualified borrowers, causing FHA to assume an unnecessary
                       insurance risk. The audit included recommendations that HUD require National to
                       indemnify HUD/FHA against future losses on five of the seven loans. (Report No.
                       2001-NY-1004)

                            Because of its high default rate experienced in St. Louis, MO, the OIG audited
                       First Community Resources, Inc., a loan correspondent since August 1995. First
                       Community improperly originated four of the five FHA insured loans we reviewed.
                       The four loans were originated under HUDs Section 203(b) Program. First
                       Community did not ensure a gift letter was included in a loan file, verify a co-
                       borrowers employment history, verify that borrowers had sufficient funds to close
                       their loans, or adequately disclose the source of a down payment. In addition,
                       First Community does not have an adequate quality control plan. Because HUD
                       relied on First Communitys loan origination process, HUD assumed abnormally
                       high risks when it insured the 4 loans for $293,000. One of the loans went into
                       foreclosure with a loss to HUD of nearly $24,000. The audit recommended that
                       the Director of the Denver Homeownership Center take appropriate action based
                       on the audit results. (Report No. 2001-KC-1005)
               Public and Indian Housing Programs

                             HUD provides grants and subsidies to approximately 4,200 housing authorities
                         (HAs) nationwide. About 3,200 HAs manage public housing units and another
                         1,000 HAs, with no public housing, manage units under Section 8 Programs.
                         (Many HAs administer both public housing and Section 8 Programs.) HUD also
                         provides assistance directly to HAs resident organizations to encourage increased
                         resident management of public housing developments and to promote the forma-
                         tion and development of resident management entities and resident skills. Pro-
                         grams administered by HAs are designed to enable low-income families, the
                         elderly, and persons with disabilities to obtain and reside in housing that is safe,
                         decent, sanitary, and in good repair.
                             During this reporting period, we reviewed various HUD activities including the
                         Creative Wellness Program, troubled agency recovery centers, tenant-based rent
                         reasonableness controls, and the Native American Housing Assistance and Self-
                         Determination Act. We also reviewed the general administration of some HAs, as
                         well as activity under the HOPE VI, Vacancy Reduction, Low-Income and Section
                         8 Programs.

HUD Activities                In Washington, DC, the Office of Public and Indian Housing (PIH) did not
                         adequately justify its decision to award, without competition, over $1.1 million in
                         Public Housing Drug Elimination Program discretionary funds to the National
                         Institute for Medical Options (NIMO) for a wellness program. An OIG audit of the
     Creative Wellness   Creative Wellness Program, funded through an interagency agreement with the
              Program    Department of Health and Human Services (HHS) and a cooperative agreement
                         with HUD, found that the program did not adequately address issues pertaining to
                         substance abuse, domestic violence, or violent crime as required by the inter-
                         agency and cooperative agreements. These conditions occurred because the
                         Deputy Assistant Secretary (DAS) for Public and Assisted Housing Delivery did
                         not act with impartiality and misused her position in awarding funds for wellness
                         activities. Specifically, the DAS personally arranged for NIMO to be the recipient
                         of an interagency agreement with HHS and a subsequent follow-on cooperative
                         agreement with PIH. As a result, drug elimination funds totaling over $1.1 million
                         were used to fund activities that did not have a measurable effect on substance
                         abuse prevention or intervention, or the associated side effects, such as crime,
                         plaguing public housing.
                              The audit also found that NIMO commingled personal funds with cooperative
                         agreement funds, submitted vouchers in excess of actual costs, and procured
                         consultant services and equipment without following proper procurement proce-
                         dures. PIH did not properly establish funding in HUDs Line of Credit Control
                         System, and did not provide the monitoring and oversight one would expect for a
                         first time recipient of federal funds. As a result, NIMO expended over $98,000 on
                         ineligible and unsupported items.
                              The audit recommended that the Deputy Secretary take appropriate adminis-
                         trative and disciplinary actions against the DAS for her apparent misuse of her
                         position and loss of impartiality in making awards to NIMO. The audit also made a
                      series of recommendations to the Acting General Deputy Assistant Secretary for
                      Public and Indian Housing for improving internal controls over interagency and
                      cooperative agreements, the procurement process, and the recovery of unsup-
                      ported costs. (Report No. 2001-AO-0003)

Troubled Agency      An OIG audit of the Memphis, TN Troubled Agency Recovery Center (TARC)
Recovery Centers found the TARCs operations were generally inefficient and ineffective. A 1999
                      OIG survey of the Memphis and Cleveland TARCs found similar deficiencies. The
                      TARC did not provide adequate oversight to PHAs, and did not take aggressive
                      actions against PHAs that failed to show adequate improvement or to comply with
                      requirements. TARC management did not establish operating policies and proce-
                      dures needed for an adequate management control system. We found it particu-
                      larly troubling that the TARC did not have any success in improving the historically
                      troubled Memphis Housing Authority (MHA). In fact, the MHAs performance
                      declined after being assigned to the TARC. Also, despite 2 years of TARC oversight,
                      the Housing Authority of St. James Parish, LA, also failed to show improvement.
                      Neither Authority was referred to HUDs Enforcement Center for further action.
                           The TARC was also unable to fully and effectively utilize its staff. HUD
                      expected the TARCs workload to be greater as a result of referrals through the
                      new Public Housing Assessment System (PHAS). The Congress, however, placed a
                      moratorium on implementation of PHAS. As a result, the anticipated inventory did
                      not materialize. The location of out-stationed staff also hampered the TARCS
                      ability to efficiently service its inventory and did not permit adequate supervision.
                      Thus, the TARC did not make significant progress toward accomplishing its
                      mission. In fact, as of November 30, 2000, it had recovered and returned to its
                      respective Hub/PC (Program Center) offices only eight troubled PHAs.
                           A recent management change at the TARC has improved operations. Under
                      the leadership of the new TARC Director, not only has the TARC increased produc-
                      tivity, it has taken several measures to improve operations. Also, the Office of
                      Trouble Agency Recovery, which oversees the TARC, recently contracted with
                      Andersen Consulting to develop a processing system to improve the TARCs
                      operations.
                           In addition to the measures already being taken, the audit recommended that
                      the TARC begin taking swift and aggressive action against noncompliant PHAs,
                      including the MHA; perform an analysis to determine the number of staff needed
                      to manage the existing workload and formally detail or reassign remaining staff to
                      local HUD offices; discontinue hiring staff at out-stationed locations; and imple-
                      ment supervisory controls over remaining out-stationed staff. (Report No. 2001-
                      AT-0002)

   Tenant-based     The OIG conducted a nationwide audit of HUDs controls regarding the
 Section 8 Rent determination of rent reasonableness for housing units assisted by the tenant-based
 Reasonableness Section 8 Program. The audit disclosed that HUDs rent reasonableness regula-
                      tions require more than the federal statute requires, and do not appear to provide
                      a significant benefit. As a result, PHAs are expending valuable administrative
                      resources on rent reasonableness which could be used to improve controls for the
                      calculation of tenant rents.
                           Our review of tenant files at four PHAs found that none of these PHAs made
                      rent reasonableness determinations that were in full conformance with HUDs
                              requirements. PHAs did not always include required items such as unit type,
                              quality, age, housing services, maintenance, and utilities. Instead, the PHAs relied
                              on the professional knowledge and skills of their staffs and used less cumbersome
                              alternative methods, including negotiations with landlords, to establish reasonable
                              rents for Section 8 assisted units. Although the PHAs did not completely follow
                              HUDs requirements, Section 8 rents were generally reasonable for 140 of 141
                              units tested.
                                  The audit recommended that HUDs Office of Public Housing: (1) simplify
                              and standardize the rent reasonableness requirements; (2) evaluate proposed
                              revisions to the requirements; and (3) provide detailed guidance on the minimum
                              amount of documentation required to support the rent reasonableness determina-
                              tion. (Report No. 2001-SE-103-0802)

       Native American     The OIG conducted a nationwide audit of the Native American Housing
Housing Assistance and Assistance and Self-Determination Act of 1996 (NAHASDA) to determine if
 Self-Determination Act NAHASDA recipient performance is consistent with the Indian Housing Plan (IHP)
                              and if Tribal Organizations effectively and efficiently provide affordable housing.
                              We performed on-site visits at 17 Tribal Organizations within 4 of the 6 Office of
                              Native American Programs (ONAP) regions and found that NAHASDA grant
                              recipients have generally implemented their IHPs. However, the audit disclosed
                              significant concerns that HUD needs to address, including:

                              Ø Ensuring an accurate allocation of NAHASDA Indian Housing Block Grant
                                funds.
                              Ø Resolving incompatible federal admission requirements.
                              Ø Determining if umbrella member Tribes should benefit equally from their
                                NAHASDA Indian Housing Block Grant.
                              Ø Assisting Tribal Organizations in becoming familiar with new requirements
                                under NAHASDA.
                              Ø Ensuring that Tribal Organizations obtain timely Single Audit Act reports and
                                implement uniform accounting standards.

                                  The report included a series of recommendations to address the reported
                              problems. (Report No. 2001-SE-107-0002)

General                            The OIG reviewed HUDs actions regarding the takeover of the Beaumont, TX
                              Housing Authority. A complainant alleged that the Authority was being singled out
Administration                for political reasons. We were unable to substantiate this complaint. HUD as-
                              sumed control of the Authority in late 2000 after finding it in substantial default of
                              its Annual Contributions Contract. Since the takeover occurred, HUD contracted
                              with Price Waterhouse Coopers (PWC) to conduct a comprehensive review. PWC
                              confirmed that substantial problems existed in the Authoritys Homeownership
                              and Section 8 Programs. These two issues alone support HUDs finding of substan-
                              tial default. However, HUDs lack of monitoring at the Authority contributed to or
                              exacerbated some of the existing problems. In HUDs defense, however, the
                              Authoritys high Public Housing Management Assessment Program scores placed
                              the Authority low on HUDs monitoring schedule. Further, once HUD became
                              aware of problems at the Authority, HUD took action that ultimately resulted in
                              HUDs declaring the Authority in substantial default. (Report No. 2001-FW-1808)
    In West Chester, PA, the OIG reviewed the Office of Public Housing, Penn-
sylvania State Office, and Troubled Agency Recovery Center assessments of
operations at the Housing Authority of the County of Chester (HACC). We also
reviewed KPMG Consultings draft assessment of HACCs private development
problems. We found that HACC is in substantial default of its Consolidated Annual
Contribution Contracts (ACC). Specifically, HACC pledged assets covered under its
ACC as collateral for loans for its private developments. HACC defaulted on a
$500,000 loan, and a local bank seized a $400,000 certificate of deposit. It
appears other collateralized loans may be in jeopardy. Also, HACC used Section 8
funds to pay interest and principal on a $4 million bond issue in June 2001. Fur-
thermore, under its present structure, it appears that HACC no longer has the
financial resources to meet its immediate and long-term debt obligations.
    HUD became aware of the financial problems of HACC when the Office of
Public Housing, Pennsylvania State Office, met with representatives of HACC in
October 2000. HACC requested the meeting to discuss its declining Public Hous-
ing and Section 8 reserves and a shortfall in HOPE VI funds. A HUD technical
review was performed in October 2000 and the results were discussed with the
HACC in November 2000. At that time, HACC was advised to immediately stop
funding the private development company with Public Housing and Section 8
funds.
    Based on our review, we recommended that the Director, Office of Public
Housing, Pennsylvania State Office, take immediate action in declaring the HACC
in substantial default of its contracts, and take necessary actions to cure the
substantial default. (Report No. 2001-PH-1803)

     The OIG audited the Housing Authority of New Orleans, LA (HANO) to
ascertain the current status of HANOs management structure. For the past 5
years, HANO has operated under a 2-year Cooperative Endeavor Agreement to
correct long-standing problems, particularly with respect to the poor condition of
its housing stock. During this time, the Congress enacted the Quality Housing and
Work Responsibility Act of 1998 (also known as the Public Housing Reform Act)
that required HUD to create an Advisory Council which would help determine
HANOs future.
     HUD has continued the Cooperative Endeavor Agreement beyond its planned
and contractual life because HANO continues to have major problems in carrying
out its primary mission. Because of the poor condition of its housing stock, the
most recent Cooperative Recovery Plan stated that HANO was potentially
troubled. HANO continues to have problems completing a modernization pro-
gram at its 10 large conventional developments, and does not have the capacity to:
(1) stabilize and renovate its viable developments; (2) demolish and dispose of
units not meeting Section 202 requirements; (3) relocate residents during mod-
ernizations; and (4) construct suitable permanent housing. HANOs long-term
success depends on having an effective Section 8 department, which HUD staff
stated has been substandard for the past 3 years.
     HUD procrastinated in establishing the required Advisory Council, and, as a
result, effectively delayed the Advisory Councils findings and recommendations.
Six years ago, the OIG urged the Secretary to take over HANO and contract out the
management of its properties to as many as 12 companies. We have amended our
primary recommendation made 6 years ago, and are now urging the Secretary to
take over HANO and divide the Authority into smaller housing authorities. This
would allow the smaller housing authorities to focus on the problems affecting
specific sites.
    The audit also made a series of recommendations to address the long-standing
problems at HANO. (Report No. 2001-FW-0001)

    An OIG audit of the Housing Authority of the City of Pittsburgh, PA, found
that the Authority is not properly procuring goods and services according to
federal procurement requirements or its own procurement policy. We identified
procurement deficiencies in all 15 procurement contracts, valued at $8.4 million,
that we reviewed. Specifically, contract files did not detail the history of procure-
ments as required; contracts were awarded without independent cost estimates
and without evidence of competition; and a number of contracts had change order
modifications with significant cost increases and additional work items not within
the original contract. Further, we found the Authoritys procurement policies in
place during our review did not have any procedures regarding the use of change
orders or the award of single source procurements. As a result, the Authority
spent $4.5 million on contracts that, based on the documentation provided, could
not be supported as eligible.
    The Authority could not adequately support Line of Credit Control System
(LOCCS) draws made under its Comprehensive Grant Program, as required. We
judgmentally selected 6 LOCCS draws totaling over $13 million and requested that
the Authority provide us with documentation that fully supported each draw. We
generally found the Authoritys book and records were unauditable. Neither the
Authoritys financial management system nor its personnel were able to provide
adequate documentation that fully supported each draw in a timely manner to
permit a complete review of the records. For records that were provided, the
Authority could not provide adequate supporting documentation for over $3 mil-
lion.
    The Authoritys Finance Department did not have controls in place that were
effective in controlling cash disbursements. We found that a number of disburse-
ments were not processed consistently with normal business practices. These
deficiencies occurred because the Authority did not develop and implement a
comprehensive policies and procedures manual for the Finance Department as
was repeatedly recommended by the Authoritys Independent Public Accountant.
As a result of these deficiencies, the Authority is placing HUD funds at unneces-
sary risk, as there is no assurance that funds have been used as intended, includ-
ing nearly $400,000 of unsupported expenditures we found relating to these
internal control weaknesses.
    We recommended the Authority repay, from non-federal funds, the ineligible
and unsupported costs cited unless the Authority provides supporting documenta-
tion. We also made a series of recommendations designed to improve Authority
operations. (Report No. 2001-PH-1005)

    The OIG reviewed six procurements made by the Jefferson Parish, LA
Housing Authority between 1996 and 2000. For all six contracts reviewed, we
found that the Authority violated its procurement policies and federal require-
ments. Of the six contracts, the Authority could not provide evidence of competi-
tion for five contracts. In addition:
                    Ø In one instance, it appears that the Authority overpaid for services.
                    Ø Due to poor procurement practices and the involvement of the board of
                      commissioners, the Authority may have paid for services not performed. The
                      poor procurement practices included a lack of competition and cost analysis.
                    Ø The Authority may not have received a benefit from the contracted services.
                    Ø The Authority violated it procurement policy when the board chairman
                      executed contracts without board approval.
                    Ø The board chairman used his position and support on the board to: (1) sole-
                      source contracts; and (2) bypass the Authority, the board, and HUD for
                      approval.

                        The audit recommended that HUD require the Authority to take various
                    actions to improve its procurement practices. In addition, HUD should take
                    administrative sanctions against the chairman for his actions on these contracts
                    and protect the Authority from similar future decisions of the chairman, and
                    determine if other board members actions and involvement in these contracts
                    warrant administrative sanctions. (Report No. 2001-FW-1809)

                        In Fairbanks, AK, the OIG conducted a limited review of the Interior Re-
                    gional Housing Authoritys (IRHA) management of a rehabilitation project at the
                    Native Village of Fort Yukon. We found that IRHA did not have adequate manage-
                    ment systems to administer a housing rehabilitation project assisted with
                    NAHASDA funds in accordance with federal regulations. Specifically, IRHA had
                    weak management controls and did not: (1) have a formal process by which all
                    parties would approve changes to the original work; (2) adequately supervise
                    foremen at the project; and (3) have an accounting system that assigned costs to
                    individual houses. Consequently, the project had nearly $386,000 in cost overruns.
                    In addition, IRHA did not know the extent of the work being done in Fort Yukon or
                    have up-to-date information about how much this work cost.
                        The audit recommended that HUDs Alaska Office of Native American
                    Programs determine the disposition of the $386,000 in cost overruns. (Report No.
                    2001-SE-107-1801)

Public Housing          An OIG audit of the Detroit, MI Housing Commission found that the
                    Commissions former and current executive directors failed to follow federal
Programs            requirements, State of Michigan law, and the Commissions own requirements
                    regarding the administration of the HOPE VI Program. The Commission used or
                    approved for payment over $18 million in HUD funds (HOPE VI, Development, and
                    Comprehensive Grant Program) to pay for construction work that was improperly
                    performed or not provided; construction and professional services that were not
         HOPE VI    supported with detailed work specifications; sewer construction work that the City
          Program   of Detroit should have provided at no cost to the Commission; and unreasonable
                    and unnecessary expenses, or expenses without documentation to support that they
                    benefited two of the Commissions HOPE VI projects. Specifically, the Commis-
                    sion:

                    Ø Did not follow the Annual Contributions Contract, HUDs regulations, and the
                      HOPE VI grant agreement to ensure units at the Villages at Parkside II and IV
                             were decent, safe, and sanitary after revitalization. The Commission used
                             nearly $700,000 of HUD funds to pay for revitalization work that was improp-
                             erly performed or that was not provided.

                         Ø Did not follow the Annual Contributions Contract, HUDs regulations, and its
                           own Revitalization Plan to ensure units at the Jeffries Homes project were
                           decent, safe, and sanitary after modernization. The Commission used nearly
                           $62,000 of funds to pay for modernization work that was improperly per-
                           formed or was not provided.

                         Ø Did not maintain an effective system of controls over its contracting process.
                           The Commission improperly used HUD funds or inappropriately approved for
                           payment over $13 million for construction or professional services. The
                           Commission also failed to obtain HUDs prior approval, as required by the
                           HOPE VI grant agreement, for 20 change orders, and lacked documentation to
                           support that HOPE VI construction or professional services contracts were
                           awarded through full and open competition or in an efficient and effective
                           manner.

                         Ø Did not maintain sufficient control over HUD funds for the Villages at
                           Parkside HOPE VI project. The Commission lacked documentation to show
                           that nearly $2.3 million of HUD funds benefited this project or were reason-
                           able and necessary expenses.

                         Ø Did not follow the HOPE VI grant agreements, HUD regulations, Office of
                           Management and Budget Circular A-87, and State of Michigan law regarding
                           the use of funds for the Jeffries Homes project. The Commission lacked
                           documentation to show that over $2 million of HOPE VI funds paid benefited
                           the project or were reasonable and necessary expenses.

                             The audit recommended that HUD: (1) declare the Housing Commission in
                         default and take action to place the administration of the Commissions HOPE VI
                         Program under a third party; or (2) petition for the appointment of a receiver for
                         the HOPE VI Program. (Report No. 2001-CH-1007)

Vacancy Reduction     In response to a citizens complaint, the OIG reviewed the administration of
         Program  the Vacancy Reduction Program (VRP). The VRP focuses on the rehabilitation of
                         vacant units, and the identification and correction of site and management defi-
                         ciencies to achieve and sustain occupancy at PHAs. To be eligible to participate in
                         the VRP, PHAs have to meet one of the following requirements: (1) must have a
                         vacancy rate that exceeds 15.9 percent as of March 30, 1993; (2) must be desig-
                         nated as a troubled agency; or (3) must have been placed under receivership.
                             The complainant alleged that the Director of the Community Safety and
                         Conservation Division (CSCD) used Drug Elimination Program funds to pay Aspen
                         Systems Corporation (Aspen) for VRP activities. Aspen was under HUD contract to
                         provide services authorized under legislation through a Public Housing Drug
                         Elimination Program Support Center.
                             We found that the Director inappropriately used program funds to pay for VRP
                         activities that Aspen performed. This occurred because neither the Director of
                        CSCD nor the government technical representative ensured that Aspens contract
                        was properly funded. As a result, $1,187 of program funds were inappropriately
                        used and a potential contract funding violation may have occurred. We also
                        determined that HUDs Office of Public and Indian Housing (PIH) did not provide
                        adequate oversight of the VRP.
                             We extended our review to address the adequacy of PIHs oversight procedures
                        for the administration of the VRP to ensure compliance with program and statu-
                        tory requirements, and found that PIH did not conduct periodic budgetary reviews
                        to ensure that VRP funds were effectively used. Specifically, PIH did not reconcile
                        the nearly $203,000,000 set-aside for VRP with the amounts awarded under the
                        Notice of Funding Availability to ensure that the full authorized amount was
                        awarded to PHAs and other modernization programs. In addition: (1) PIH did not
                        ensure that the status of VRP funds was timely updated in the Line of Credit
                        Control System; (2) although HUD established March 30, 2000, as the timeframe
                        by which all FY 1997 and prior fiscal years VRP funds had to be obligated, HUDs
                        Puerto Rico Public Housing staff allowed the Virgin Islands Housing Authority to
                        obligate and expend funds over 4 months after the established deadline; (3)
                        although progress reviews were required by law, PIH did not conduct progress
                        reviews of PHAs in accordance with the programs authorizing statute; and (4) PIH
                        did not ensure adequate oversight of the administration of the VRP because the
                        management roles and responsibilities were not clearly defined.
                             The audit recommended a series of actions for the Deputy Assistant Secre-
                        tary for Public and Assisted Housing Delivery to ascertain that procurement
                        actions are properly funded before services are performed and that the appropri-
                        ate funding source is used. (Report No. 2001-AO-0803)

Low-Income and              An OIG audit found that, in administering its Low-Income Public Housing and
                        Section 8 Programs, the Weymouth, MA Housing Authority has not developed an
Section 8               equitable method of allocating costs between federal and state programs. In
Programs                addition, the Authority allocated costs to a vacant federal project in 1999. The
                        improper allocation resulted in federal programs being overcharged by about
                        $78,000. The Authority also needs to strengthen its Section 8 procedures for
                        determining rent reasonableness, documenting the third party verification pro-
                        cess, and conducting annual reexaminations in a timely manner.
                            We recommended that the Authority establish and implement an equitable
                        cost allocation plan and reimburse the appropriate federal programs for any
                        amounts determined to be improperly allocated; provide evidence that it is
                        determining rent reasonableness, performing third party verifications and con-
                        ducting annual recertifications; and reimburse the federal programs for ineligible
                        payments. (Report No. 2001-BO-1004)

         Financial     During a review of HUD Section 8 payments, we determined that there was a
       Management significant backlog of unprocessed settlements for contract administrators on the
            Center 270 Massachusetts projects managed by the Financial Management Center
                        (FMC). Our review of unprocessed settlements disclosed that they are not being
                        reviewed in a timely manner. As of December 31, 2000, there was a backlog of
                        289 unprocessed settlements for 122 projects covering the years 1998-2000. Most
                        of these settlements have been outstanding for several years. Consequently, HUD
                        has not collected approximately $3 million that was due HUD for net over-ad
                  vances. The cost of money or interest incurred by HUD on the receivables is
                  approximately $239,000.
                       The Department of the Treasury borrowed funds to cover the HUD uncollected
                  over-advances. The government has absorbed the interest to date, because FMC
                  did not require interest reimbursements from the projects. The interest expenses
                  relate only to the unprocessed settlements as of December 31, 2000. HUD also
                  incurred interest expenses on the backlog of unprocessed settlements for the 148
                  projects that were reviewed and approved by FMC during 1999 and 2000, which we
                  did not review.
                       The audit recommended that FMC immediately implement corrective action,
                  while completing in-depth reviews of unprocessed settlements to reimburse HUD
                  for interest earned on any over-advances. (Report No. 2001-BO-0801)


      Community Planning and Development Programs
                       The Office of Community Planning and Development (CPD) seeks to develop
                  viable communities by promoting integrated approaches that provide decent
                  housing, a suitable living environment, and expanded economic opportunities for
                  low- and moderate-income persons. The primary means towards this end is the
                  development of partnerships among all levels of government and the private sector.
                  CPD seeks to encourage empowerment of local residents by helping to give them a
                  voice in the future of their neighborhoods; stimulate the creation of community
                  based organizations; and enhance the management skills of existing organizations
                  so they can achieve greater production capacity. During this reporting period, the
                  OIG reviewed grantees administration of the Community Development Block
                  Grant (CDBG), HOME, and Section 108 Programs; the Continuum of Care and the
                  Supportive Housing Programs; and subrecipient selection, monitoring, and
                  reporting at a citys Department of Housing and Community Development.
                       The CDBG Program provides annual grants to entitled communities to carry
                  out a wide range of activities directed toward neighborhood revitalization, eco-
                  nomic development, and improved facilities and services. The purpose of the
                  HOME Program is to expand the supply of decent, safe, sanitary, and affordable
                  housing, primarily rental housing for low- and very low-income families, through
                  eligible forms of assistance, such as loans, loan guarantees, equity investments,
                  interest subsidies, and other assistance approved by HUD. Section 108 Loan
                  Guarantees finance the acquisition or rehabilitation of real property owned by an
                  eligible public entity, finance housing rehabilitation, and provide for economic
                  development. The Continuum of Care Program is designed to fight against
                  homelessness by linking key housing services and expediting movement toward
                  housing for the homeless. The Supportive Housing Program provides grants to
                  develop supportive housing and services that will enable homeless people to live
                  as independently as possible.

CDBG, HOME,           The OIG audited the City of San Antonio, TXs CDBG Section 108 Loan
                  Program to determine whether the City and its subrecipient, the Greater Kelly
and Section 108   Development Authority, expended loan funds for eligible activities. We found that
Programs          the City spent over $17 million of the approved $38.7 million in program funds
                  without ensuring compliance with the Housing and Community Development Act
of 1974, as amended, or HUD CDBG regulations. Although required by regulations,
City staff did not obtain a commitment from an assisted business, Boeing Com-
pany, to provide jobs to low- and moderate-income persons, did not adequately
monitor program activities, and cannot show that the Section 108 Program ben-
efits assisted predominantly low- and moderate-income persons. Available job
creation reports are unreliable and show the latest low- and moderate-income job
creation levels to be only about 26 percent, instead of the required 51 percent. In
addition, the City did not formally review and evaluate the Authoritys procure-
ment procedures before authorizing the payment of contract costs totaling nearly
$300,000.
     We believe City staff may have ignored, or did not become familiar with,
CDBG requirements because top administration officials guaranteed the award
of Section 108 funds to San Antonio for the redevelopment of Kelly Air Force
Base. City staff told us they had not performed comprehensive reviews to deter-
mine compliance with job creation and procurement requirements. In November
1997, the former Vice President visited San Antonio and announced that HUD was
going to provide over $35 million in loans to the City to attract new business to
soften the blow of closing Kelly Air Force Base. The former Vice President and
former HUD Secretary announced the Section 108 loan award on April 14, 1998.
We believe the low- and moderate-income and procurement requirements apply
regardless of the interest of high level officials.
     The audit made a series of recommendations to ensure that Section 108 Loan
Program funding results in the employment of the required level of low- and
moderate-income persons, and that the Boeing agreement is sufficient to ensure
compliance with job creation requirements. Recommendations were also made to
address the procurement deficiencies. (Report No. 2001-FW-1004)

     An OIG audit of the City of Philadelphia, PAs CDBG and Section 108 funding
of the Urban Education Development Research and Retreat Center (UEDRARC)
rehabilitation project, administered through its delegate agency, the Philadelphia
Industrial Development Corporation (PIDC), found that although the UEDRARC
project did meet a national objective consistent with HUDs CDBG criteria, the
project was never financially viable. PIDC disregarded its own loan policies and
procedures, as well as HUD requirements, in funding this high risk project. In
addition, the City of Philadelphia and PIDC neither provided the necessary over-
sight to ensure performance goals were achieved, nor monitored UEDRARCs use
of funds for compliance with loan requirements.
     Since UEDRARC began operations in 1993, it has not been able to generate
sufficient rental income to cover its long-term debt and operating expenses. In
fact, all loans PIDC provided to UEDRARC, totaling $5.4 million, quickly became
delinquent and 2 of the loans were used to repay several delinquent loans. At the
end of our review, UEDRARCs 3 outstanding loans, totaling $4.65 million, were
either delinquent or defaulted. Under its present financial structure, it is doubtful
UEDRARC will be able to repay these loans and sustain its operations for the long
term. Further, PIDC: (1) did not apply approximately $1.5 million in credits to the
CDBG Program for state reimbursements of contractor invoices, originally paid
with HUD funds; and (2) used an $800,000 Section 108 loan for ineligible purposes.
Finally, we found UEDRARC used over $600,000 of its funds to pay for questionable
expenses.
    The audit recommended: (1) implementation of written up-to-date policies
and procedures for the approval, award, and administration of loans; (2) determi-
nation of the eligibility of $600,000 in questionable expenses; (3) calculation of the
amount of state funds that should have been treated as CDBG credits, and returning
that amount, from non-federal funds, to the line of credit; and (4) repayment of
the $800,000, used to repay a delinquent CDBG loan, to the Section 108 account.
(Report No. 2001-PH-1006)

    In response to a citizen complaint, the OIG audited the City of Hattiesburg,
MSs Community Planning and Development Programs and found that the City
did not: (1) ensure funded activities met CDBG national objectives; (2) properly
administer its rehabilitation program; (3) follow proper procurement and con-
tracting procedures; (4) follow proper payroll administration procedures; and (5)
establish and maintain basic operating systems for proper management of its
CDBG and HOME Programs.
    Specifically, the City spent over $240,000 of CDBG funds on activities that did
not address a national objective, including a road improvement project and 5
grants to improve downtown commercial buildings. The City also failed to ensure
that the rehabilitated houses in its program complied with HUD and local health,
safety, and building standards, and selected one house that was not feasible for its
housing programs. For the 20 houses inspected, we identified 54 work items that
the contractors did not complete and 71 work items that the contractors completed
in an unacceptable manner. We also identified 84 code or HUD housing quality
standards violations.
    The City improperly procured over $2.9 million of goods and services without
adequately documenting the procurements. The contract deficiencies included
improperly soliciting and awarding contracts, awarding sole source procurements,
not performing independent cost estimates or cost and price analyses, and repeat-
edly selecting the same contractor.
    The audit recommended that HUD require the City to reimburse the CDBG
Program for all ineligible and unsupported costs, and develop and implement
controls and procedures to ensure proper administration of its programs. Also,
the City should correct all deficiencies and housing quality standards violations
and submit a corrective action plan to correct the deficiencies identified by HUD
during its reviews. (Report No. 2001-AT-1006)

     In response to a citizen complaint, the OIG reviewed the Indian Community
Development Block Grant and Indian Housing Block Grant funded housing activi-
ties of the Los Coyotes Band of Mission Indians (Tribe) in Warner Springs, CA.
We found that the Tribe did not effectively manage its procurement and contract
administration process. Contractors were obtained without competition, procure-
ment actions were not adequately planned, and effective payment controls were
not adopted, resulting in overbilling and cost overruns.
     The audit recommended that HUD require the Tribe to implement appropriate
policies and procedures which will provide for proper procurement management
and which set out responsibility for accounting and recordkeeping, including
appropriate internal controls, and refund the ineligible costs charged to the
program. (Report No. 2001-SF-1805)
                              We reviewed the State of Connecticuts HOME Investment Partnerships
                          Program (HOME Program), administered by the Department of Economic and
                          Community Development (DECD). Our review disclosed concerns with the rental
                          housing monitoring requirements that ensure funds are used in compliance with
                          program requirements, including written agreements, rent affordability, tenant
                          income eligibility, utility allowances, and property inspection standards.
                              HUD previously identified these monitoring issues in a report dated Septem-
                          ber 2, 1999. The report disclosed that on-site inspections were not being per-
                          formed and state recipients had not submitted annual performance reports as
                          required. In a response to the HUD report, DECD advised that on-site inspections
                          would be performed and state recipients would be notified and required to submit
                          yearly status reports. In a monitoring report dated June 28, 2001, the Connecticut
                          State Office again issued a finding regarding untimely on-site inspections and a
                          concern with yearly monitoring of state block grant grantees.
                              We recommended that HUD require DECD to: (1) identify all HOME projects
                          in which annual performance monitoring and on-site inspection is outstanding; (2)
                          develop and implement a plan to complete outstanding monitoring reviews, includ-
                          ing estimated dates for completion on each project; and (3) develop written
                          procedures to ensure annual performance monitoring and on-site inspections are
                          conducted in accordance with HUD regulations. (Report No. 2001-BO-1006)

Continuum of Care/     The OIG is conducting a nationwide review of HUDs Continuum of Care
Supportive Housing Program.  The Continuum of Care approach is a community based process of
          Programs identifying the needs of the homeless and building a comprehensive and coordi-
                          nated housing and service delivery system to address those needs. The Continuum
                          is an organization of local governments, not-for-profit, and for-profit organizations
                          that assist in the compilation of a consolidated application for grant funds. The
                          Continuum of Care includes three programs that are competitively funded: the
                          Supportive Housing Program, the Shelter Plus Care Program, and the Section 8
                          Moderate Rehabilitation Program. As part of our review, we selected a sampling
                          of grantees in order to evaluate the Continuum of Care. The results of eight of our
                          audits are reported below. Our work is continuing.

                              The OIG audited the 1998 Supportive Housing Program (SHP) grant awarded to
                          the County of Orange, CA, Housing and Community Development Department
                          (Orange County). All grant activities were carried out by the Mercy House
                          Coalition (Coalition) as a subgrantee of Orange County. Orange County and the
                          Coalition did not operate some aspects of the SHP in accordance with the approved
                          application and other federal requirements. Specifically, we identified instances
                          where the Coalition admitted ineligible participants and participants whose
                          eligibility was not adequately documented, did not accomplish some program
                          goals or did not maintain adequate evidence of goal accomplishment, and failed to
                          comply with HUD requirements pertaining to client tracking, habitability inspec-
                          tions, and rent reasonableness determinations. Also, both Orange County and the
                          Coalition charged unsupported and ineligible salary costs to the grant. Orange
                          County and the Coalition spent nearly $300,000 of HUD funds on costs that did not
                          benefit or may not have benefited the intended program participants.
                              The audit recommended, among other things, that HUD require Orange
                          County to provide support and justification for all unsupported costs, reimburse
HUD for all ineligible charges to the grant, and ensure that the Coalition maintains
adequate documentation of habitability inspections, rent reasonableness determi-
nations, and client tracking in the future. (Report No. 2001-SF-1804)

     An audit of a 1996 Shelter Plus Care grant awarded to the City of Philadel-
phia, PA, and its sponsor, the Tenants Rental Assistance Corporation (TRAC),
found that, due to a lack of adequate guidance and oversight, the City did not
ensure TRAC implemented the grant according to its grant agreement and appli-
cable federal regulations. Specifically, the City did not ensure that TRAC: (1)
actually provided or documented that matching supportive services had been
provided to program participants; (2) only provided assistance to eligible partici-
pants; (3) accurately reported the results of its grant activities; and (4) maintained
full or near full capacity in funding 25 units that were available under the grant
agreement. Due to this lack of oversight, the effectiveness of the grant in provid-
ing rental assistance and supportive services for hard-to-serve homeless persons
with disabilities and their families was dramatically diminished under the grant
period. As of June 25, 2001, 4-1/4 years into its 5-year grant period, TRAC had
drawn down only $330,000 of its $900,000 grant; $33,000 of these expenditures
were being used to provide rental assistance to 2 participants that we determined
to be ineligible.
     We also noted that the management controls used by both the City and TRAC
may not adequately protect grant funds from fraud, waste, or abuse. Specifically,
we found that: (1) funds were mistakenly drawn from this Shelter Plus Care grant
to pay expenses incurred under a different Shelter Plus Care grant; (2) the
administrative cost rate for the housing counselor was not supported and time
sheets were improperly completed; and (3) key duties at TRAC were not properly
segregated.
     We recommended that HUD suspend payments under this Shelter Plus Care
grant until such time as the City is able to demonstrate it has taken appropriate
corrective actions to more effectively administer its program and better protect
grant funds from potential fraud, waste, or abuse. Further, we recommended that
the City repay the $331,000 it drew down as of June 25, 2001, unless it provides
adequate documentation to support its claimed level of supportive services match.
(Report No. 2001-PH-1802)

     In Philadelphia, PA, an audit of two Resources for Human Development
(RHD) 1997 Supportive Housing renewal grants found that, contrary to federal
regulations and requirements, RHD exceeded HUD approved budgets for supportive
service and administrative costs by over $216,000, and incorrectly posted the
excess supportive service and administrative costs to program operations. In
addition, RHD incurred over $124,000 of ineligible costs. The audit also found that
RHD made drawdowns from the grant without determining the cash requirements
of the program and filed inaccurate information in its Annual Progress Reports.
     The audit recommended repayment of over $340,000 in ineligible expendi-
tures. In addition, HUD should provide RHD with required technical assistance.
(Report No. 2001-PH-1004)

   We audited two Supportive Housing Program grants awarded to the City of
Seattle, WA, as part of the Seattle-King County Continuum of Care Strategy and
found that the City had management control deficiencies and did not always
comply with HUD requirements. Specifically, the City:

Ø Did not adequately monitor subgrantees. Consequently, project sponsors and
  providers charged the grants $97,000 in ineligible costs that were not related
  to administering and providing supportive services, and $70,000 in other
  unsupported costs.

Ø Assisted 33 (out of 129 reviewed) ineligible individuals.

Ø Charged questionable administrative funds of over $72,000 to pay for question-
  able indirect costs that were not directly related to program activities.

Ø Did not provide adequate evidence of measurable results. The City did not
  provide information on all its performance measures, and did not have support
  for some of the data reported to HUD.

   The audit recommended, among other things: (1) reimbursing Supportive
Housing Program grants for the ineligible amounts; (2) providing supporting
documentation or reimbursing the appropriate grants for the unsupported
amounts; (3) implementing appropriate controls; and (4) implementing a financial
monitoring plan. (Report No. 2001-SE-251-1001)

     The OIG audited the 1997 Supportive Housing Grant awarded to Harris
County, TX. The County implemented its grant activities through its subgrantee,
the University of Texas, Houston Recovery Campus (Campus). The audit found
that the Campus could not support information contained in its Annual Progress
Report. For example, the Campus reported a 79 percent successful graduation
rate even though its files indicated a 26 percent rate. Further, the Campus did not
capture necessary housing data, and did not provide its participants with decent,
safe, and sanitary housing. In addition, the Campus charged HUD unreasonable
rents. When a HUD contractor expressed concerns about rent reasonableness, the
County responded with unrealistic comparable units. The Campus also charged
participants a flat rental rate of $85 per month without regard to participants
monthly income. Further, the County did not draw down its funds timely due to
reconciliation and documentation problems.
     The audit made a series of recommendations to improve support for reported
results. (Report No. 2001-FW-1805)

     An audit of the Dallas, TX Homeless Consortium found that the Continuum of
Care applications filed by the Consortium contain inaccurate information and
overstate its achievements. Contrary to what the Consortium stated it would do, it
did not establish a tracking system that would monitor participants, nor did it
distribute monthly reports, highlighting individual client referrals and progress, to
its members. The peer review process, used to determine the priority order of the
projects contained in the consolidated application, was ineffective and may have
allowed unsuccessful programs to receive higher priority than was appropriate.
We also have concerns that in its role as lead agency of the Consortium, the City
                              of Dallas did not provide the organization with the leadership and guidance
                              necessary for the Consortium to become successful.
                                   The audit recommended, among other things, that HUD work closely with the
                              Consortium to ensure that the strategy accurately represents the efforts and plans
                              of the Consortium. (Report No. 2001-FW-1006)

                                   The OIG audited the 1998 Supportive Housing Program of Harmony House,
                              Inc., in Harrison, AR. We found that the executive director of Harmony House
                              used $114,000 of program funds and other Harmony House funds for ineligible
                              vehicle purchases, ineligible consulting/contract fees and other costs, and unsup-
                              ported transfers from program funds. The audit also found that of the 1,738 days
                              that Harmony House and the Housing Council paid rent on scattered site housing,
                              the units were only occupied 1,049 days, or 60 percent.
                                   The audit recommended repayment of all ineligible costs and documentation
                              or repayment from non-federal funds of all unsupported costs. HUD should also
                              reevaluate the demand for transitional housing in the area served by Harmony
                              House, and require Harmony House to provide documentation to support housing
                              data in future annual reports. (Report No. 2001-FW-1005)

                                   The OIG audited the Supportive Housing Program grant awarded to Travelers
                              and Immigrants Aid/Chicago Connections (Travelers) in Chicago, IL, and found
                              that Travelers charged HUD over $20,000 in unallowable expenses. The grant
                              agreement allowed Travelers to charge 25 percent of the former program
                              directors salary to the HUD funded program. Instead, Travelers charged 75
                              percent of his salary to the program, and was unable to provide any documenta-
                              tion to support the allocation. Travelers also incorrectly charged HUD for vacation
                              pay of an employee not assigned to the program, and for telephone charges and
                              meals not related to the program.
                                   The audit recommended that the Director, CPD, Illinois State Office, assure
                              that Travelers furnishes HUD with documentation to support the unsupported
                              expenses or repays HUD for the unsupported amount. In addition, Travelers should
                              strengthen controls over its monitoring of financial data contained in both the
                              accounting and payroll systems to ensure the accuracy of payroll and other ex-
                              penses charged to HUD. (Report No. 2001-CH-1008)

Review of Subrecipient     The OIG audited the Department of Housing and Community Development of
 Selection, Monitoring the City of Kansas City, MO. The audit was a joint effort between the local OIG
         and Reporting Office and the City Auditors Office. The audit found that the City does not have a
                              formal process for selecting subrecipients, does not adequately monitor
                              subrecipients, and does not provide adequate information to the City Council.
                              Because the City does not have a formal selection process, HUD, the Mayor, the
                              City Council, and the public lack assurance that federal grants are awarded
                              according to applicable regulations and guidelines. Moreover, the Citys selection
                              process lacks accountability and does not offer the City any defense against
                              occurrences or allegations of favoritism or improper influence. This process can
                              lead to a public perception that awards are arbitrary or unjust.
                                  The City awarded more than $85 million in HUD funds from 1998 through
                              2001, and yet City housing officials do not have a formal process to evaluate
                              applications for HUD funds. Specifically, City housing officials do not document
                  their evaluation process, reasons for selecting or rejecting applicants, or justifica-
                  tion for the amounts recommended for award to the selected subrecipients.
                  City housing officials did not adequately monitor the subrecipients that received
                  HUD funds. Officials do not have policies and procedures to ensure adequate
                  monitoring of subrecipients and proper action by City officials if performance
                  standards are not met. HUD has continually expressed similar concerns to City
                  housing officials since early 1997. Although these officials have taken action in
                  recent years aimed at oversight improvements, the efforts were limited and
                  oversight is still not adequate.
                      The audit recommended a formal selection process for awarding federal
                  grants to subrecipients, written policies and procedures for oversight of
                  subrecipients, adequate, standardized information packages for the City Council
                  and City Administrators, and standardized periodic reporting to the City Council
                  to keep Council members updated on subrecipient progress throughout the con-
                  tract year. (Report No. 2001-KC-1004)



              Multifamily Housing Programs

                      In addition to multifamily housing developments with HUD held or HUD
                  insured mortgages, the Department owns multifamily projects acquired through
                  defaulted mortgages, subsidizes rents for low-income households, finances the
                  construction or rehabilitation of rental housing, and provides support services for
                  the elderly and handicapped. In addition to efforts to address equity skimming
                  during this period, the OIG reviewed HUDs procedures for notifying the IRS of
                  foreclosures, multifamily project owner and management agent operations, and a
                  hospitals administration of three Special Purpose Grants.

Equity Skimming        Equity skimming is the willful misuse of any part of the rents, assets, pro-
                  ceeds, income or other funds derived from a multifamily project covered by an
                  FHA insured or held mortgage. The use of project assets or income for other than
                  reasonable operating expenses and necessary repairs, or for the payment of
                  unauthorized distributions to the owner, constitutes a violation of the Regulatory
                  Agreement between the owner and HUD and plays a significant part in the realiza-
                  tion of losses to the FHA insurance fund. Equity skimming deprives projects of
                  needed funds for repairs and maintenance. This, in turn, contributes to the finan-
                  cial and physical deterioration of projects and the resultant substandard living
                  conditions for the families who depend on the Federal Government to provide
                  housing.

                      The Department of Justice, District of New Jersey, and HUDs Enforcement
                  Center reached a settlement agreement with the owner of Northgate 1, a HUD
                  subsidized project in Camden, NJ. The owner agreed to make approximately $1
                  million of repairs to the project, including replacement of windows and appliances
                  and repair of the elevators, by mid-2002. The settlement stemmed from a 1998
                  OIG review of the projects books and records which disclosed that, from 1988
                  through 1996, the owner improperly withdrew over $1 million of project funds. In
                    addition, inspections conducted as part of the review found a need to replace
                    windows at a cost of $600,000.
                        In 1998, the owner paid off its HUD insured first mortgage and refinanced the
                    projects mortgage with conventional financing. However, HUD continued to
                    subsidize 310 project units through a Section 8 housing assistance payment con-
                    tract. In 1998, HUDs Real Estate Assessment Center conducted an inspection of
                    the project and concluded that it did not meet housing quality standards, and
                    therefore, gave it a failing grade.

                         HUD and the U.S. Attorneys Office for the Southern District of Ohio ex-
                    ecuted a settlement agreement with former officials of Apex Management
                    Company, Dayton, OH, effective June 21, 2001. Under the terms of the settle-
                    ment, Apex Managements former president and manager, without any admission
                    of wrongdoing, agreed to pay HUD $50,000. Also as part of the settlement, Apexs
                    former president and manager agreed not to participate in any HUD funded
                    program for 8 years and agreed not to participate as a contractor in any Federal
                    Government contract or in any federally sponsored program for 3 years.
                         These actions resulted from an OIG audit which found that Apex Manage-
                    ment, the former management agent of the Crescent Square and Grand Apart-
                    ments multifamily projects, improperly disbursed over $224,000 of project funds
                    for ineligible or unsupported costs and ineligible distributions over 4 years, in
                    violation of the Regulatory Agreement. In addition, the audit disclosed that Apex
                    submitted false 1993 and 1994 certified financial reports to HUD for the projects;
                    did not maintain the projects in decent, safe, and sanitary condition; and failed to
                    maintain sufficient funds to cover the projects security deposits owed to tenants.
                    As a result, maintenance was deferred, allowing the projects to deteriorate, and
                    the projects defaulted on their HUD insured mortgages.

                        The OIG reviewed the use of project funds at Oak Tree Park Apartments in
                    Overland, MO, and found that the project owners, G&K Properties, violated the
                    Regulatory Agreement by not depositing tenant rental payments and disbursing
                    project funds for ineligible expenses relating to construction of the project.
                    The audit recommended that HUD officials take appropriate steps to recover
                    nearly $165,000 in project funds that were used for ineligible expenses and take
                    appropriate administrative actions against G&K Properties for their mismanage-
                    ment of Oak Tree Park funds. (Report No. 2001-KC-1803)

HUDs                    An OIG review of HUDs procedures for notifying the Internal Revenue Service
                    (IRS) of multifamily mortgage foreclosures disclosed that HUD needs to improve
Procedures for      the guidance and oversight of the contractor performing this function. The foreclo-
                    sure of a defaulted loan by HUD represents the forgiveness of debt, a taxable event
Notifying the IRS   that should be reported to the IRS with the filing of Forms 1099-A, Acquisition or
of Foreclosures     Abandonment of Secured Property, and 1099-C, Cancellation of Debt. In addition
                    to the balance of the mortgage, HUD may report other funds advanced by HUD on
                    behalf of the owner, including costs such as payments for interest, taxes, and
                    repairs. HUD awarded a contract to DP Services, Inc., to provide mortgage loan
                    and property management services for HUD held multifamily mortgages, includ-
                    ing filing Forms 1099 with the IRS.
                        The audit made a series of recommendations, including providing specific
                   guidance to the contractor for the proper filing of Forms 1099-A and 1099-C;
                   ensuring that complete and accurate documentation is maintained in the property
                   files; requiring the contractor to request a correct taxpayer identification number
                   from each debtor; and providing oversight of the contractor. (Report No. 2001-
                   HQ-1801)

Owner and               At the request of the Director of the HUD Office of Multifamily Housing in
                   Kansas City, the OIG audited One McKnight Place, a multifamily project in St.
Management         Louis, MO, and found that the project prematurely distributed nearly $909,000 in
Agent Operations   surplus cash to its owners. One McKnight Place generated sufficient surplus cash
                   to cover the amount of the premature distribution. However, surplus cash cannot
                   be distributed until it has been substantiated by a surplus cash calculation. Since
                   all cash had been distributed per the most recent surplus cash calculation, the
                   excess distribution was in violation of the Regulatory Agreement.
                        One McKnight Place used nearly $32,000 from its reserve for replacement
                   account for items that were routine maintenance costs of the project, rather than
                   capital expenses; for items that were also charged to tenants; and for items that
                   were not expenses of the project. HUD directives state that reserve for replace-
                   ment funds are not intended to cover routine maintenance costs.
                        One McKnight Place received a management fee that exceeded the amount
                   allowed by its management agreement. The owners of One McKnight Place also
                   paid project funds for other than reasonable and necessary operating and mainte-
                   nance expenses of the project.
                        The audit recommended ensuring that One McKnight Place makes future
                   distributions out of surplus cash only, establishes and implements procedures to
                   ensure future requests for use of reserve funds are properly prepared, repays the
                   reserve funds for excessive withdrawals, executes a management agreement
                   stating the duties to be performed and the appropriate fees to be paid, and ac-
                   counts for its funds in such a way that it can be shown that all non-project ex-
                   penses are paid from surplus cash. (Report No. 2001-KC-1002)

                       At the request of the Director, New York Multifamily Hub, the OIG audited
                   the books and records of Belmax Management Corporation (agent) in Brooklyn,
                   NY, and found that the agent did not always comply with HUD regulations and
                   requirements pertaining to the use of project funds. For example, the agent used
                   project funds to pay for various services and items that we consider ineligible and/
                   or questionable, including preparation of the partnerships tax returns; general
                   consulting services; additional garbage and trash removal; preparation of 10-day
                   rent delinquency notices; and miscellaneous work by employees. The costs
                   associated with these services and items totaled $189,000.
                       The agent did not always follow HUD regulations when obtaining services and
                   awarding repair contracts to contractors. The agent: (1) entered into a question-
                   able exterminating service arrangement without first soliciting bids and/or
                   obtaining written cost estimates; (2) awarded a contract to a contractor who was
                   not the lowest bidder; and (3) did not provide evidence to substantiate that com-
                   petitive bids were solicited prior to awarding a contract. As a result, the agent
                   could not ensure that all transactions were at arms length and that the services
                   obtained were at the most reasonable and economical prices. In addition, we
                  found that the agent incorrectly computed its management fee, resulting in the
                  collection of nearly $46,000 in excessive management fees.
                      The audit recommended that the agent/owners reimburse the projects for
                  those items considered to be ineligible and submit supporting documentation for
                  those disbursements considered to be unsupported and/or questionable. All
                  disbursed amounts that are determined to be ineligible should be repaid to the
                  applicable projects with non-project funds. (Report No. 2001-NY-1002)

                       Foster and Associates (Foster), a management agent in Kalispell, MT, has
                  not administered two multifamily projects, Clark Fork Manor and Whitefish
                  Manor, in full compliance with the Regulatory Agreements and HUD require-
                  ments. An OIG audit found that Foster has not properly executed the required
                  management agreements; ensured that the required accounting records were
                  properly established and used in the operations of the projects; or taken sufficient
                  actions to ensure the annual financial audits were properly performed for the
                  projects.
                       Although Foster has been collecting management agent fees for the two
                  projects, these fees have been paid without the proper execution of the required
                  written management agreements. Foster officials have also been serving as full
                  time employees of the projects and receiving salaries. For Clark Fork Manor,
                  Foster received nearly $154,000 in management agent fees for the 30-month
                  period ending June 30, 2001. During this same period, a Foster official, as the
                  project administrator, received nearly $142,000 in salaries. For Whitefish Manor,
                  Foster received over $11,000 in management fees for the 21-month period ending
                  January 31, 2001. A Foster official, as project manager, also received over
                  $51,000 in salaries for this same period. Receiving both management agent fees
                  and full time salaries violates HUD requirements.
                       In addition to Foster not fulfilling its responsibilities, the boards of directors
                  for the two projects did not take adequate actions to meet their overall responsi-
                  bilities to ensure that the projects were operated in conformity with HUD require-
                  ments. This included ensuring that the management agent was providing the
                  required services to the projects.
                       The audit recommended that the boards of directors determine the type of
                  management organization required to properly administer each project, either an
                  independent fee agent or project administrator, but not both at the same time.
                  (Report No. 2001-DE-1003)

Special Purpose       In response to a request from HUDs Director of the Cleveland Multifamily
                  Program Center, the OIG audited three Special Purpose Grants totaling $3.25
Grants            million awarded to the Alliance Community Hospital in Alliance, OH. We found
                  that the Hospital generally administered two of the three grants correctly, but did
                  not use funds from the third grant efficiently and effectively and failed to comply
                  with the grant agreement. Specifically, the Hospital improperly used nearly
                  $88,000 in grant funds to pay the salary and fringe benefits expenses of the
                  hospitals vice president of strategic management when these expenses were not
                  permitted by the grant agreement; used $6,000 in grant funds to pay part of two
                  employees salaries and fringe benefits for time they spent working on non-grant
                  activities; and used $5,500 in grant funds to pay an employees salary and fringe
                  benefits without supporting documentation.
                        We also found that the hospital received $21,000 in program income from
                    businesses participating in its Corporate Health Alliance activity funded by one of
                    the grants when the income was not used to support the grant; failed to use sound
                    management principles when it did not charge itself nearly $11,000 in grant
                    services provided to its employees; and used over $8,900 in grant funds for public
                    relations items that did not specifically promote its grant activities, and training
                    and travel expenses for individuals who were not employed by the hospital.
                    The audit recommended reimbursement of the Special Purpose Grant for the
                    questioned disbursements and program income, and assurance that the hospital
                    implements procedures and controls to correct the weaknesses cited in the
                    report. (Report No. 2001-CH-1006)



                    Other Significant Audits

Use of                  In response to an anonymous complaint, we completed a limited review of the
                    Deputy Chief Financial Officers (CFO) use of contractors. Contractors were
Contractors by      performing both inherently governmental functions and personal services that
the Deputy Chief    consisted of drafting Congressional testimony and correspondence, and respond-
                    ing to OIG and General Accounting Office audit reports. We found that contractor
Financial Officer   employees were performing functions that had been performed by HUD staff
                    before downsizing, retirements, and other personnel changes.
                        We also found that PricewaterhouseCoopers (PWC) prepared statements of
                    work (SOWs) at the request of the then Deputy CFO. Neither the Deputy CFO nor
                    PWC disclosed PWCs participation in preparing the SOWs or the resulting organiza-
                    tional conflict of interest.
                        We recommended that the Deputy Secretary take appropriate administrative
                    and disciplinary actions against the Deputy CFO for her role in requesting PWC to
                    violate the Federal Acquisition Regulations, and review whether the Chief Pro-
                    curement Officer (CPO) acted appropriately in deciding to allow PWC to
                    recompete for the Funds Control contract. We also recommended that the CPO
                    develop additional procedures for contracting staff, exclude PWC from
                    recompetition, and require Government Technical Representatives and Govern-
                    ment Technical Monitors to report inappropriate contracting actions. (Report No.
                    2001-AO-0002)

Government              The OIG performed a nationwide audit to evaluate HUDs compliance with the
                    Government Performance and Results Act of 1993 (GPRA) and found that HUD has
Performance and     made significant improvements in its GPRA planning since its first attempt. Both
Results Act         the National Academy of Public Administration (NAPA) and the General Account-
                    ing Office (GAO) stated that HUDs 2000 Annual Performance Plan was an im-
                    provement over HUDs previous plan. Further, GAO stated that HUD continued to
                    refine its performance goals and measures in its 2001 Annual Performance Plan.
                        We found that additional improvements are needed to comply with the re-
                    quirements of GPRA. Specifically:
                   Ø HUDs Strategic and Annual Performance Plans presented an incomplete
                     view of the agency.

                   Ø HUD did not use its Strategic and Annual Performance Plans as strategic
                     tools to manage its program growth and staffing reductions.

                   Ø HUDs expanding international program activities were not fully reported or
                     measured in its GPRA plans and reports.

                   Ø Because HUD did not establish baselines, it could not measure or report on
                     results for 30 percent of the indicators in its Annual Performance Plan.

                   Ø HUDs strategic planning process lacked substantive, ongoing, and docu-
                     mented consultations.

                       We made a series of recommendations to assist HUD in refocusing its strate-
                   gic planning. (Report No. 2001-FW-0002)

HUDs                   In accordance with the requirements of the Government Information Security
                   Reform Act, the OIG performed its annual evaluation of HUDs security program
Information        and practices and found that the security monitoring program still needs strength-
Security Program   ening, the information security program lacks executive level leadership and
                   direction, and previously reported weaknesses in management, operational, and
and Practices      technical controls remain uncorrected. As a result, the absence of an effective
                   entity-wide security program, proactive leadership from the Office of the Chief
                   Information Officer (OCIO), and adequate management, operational, and techni-
                   cal controls may lead to insufficient protection of sensitive or critical resources
                   and compromise the integrity, confidentiality, reliability, and availability of infor-
                   mation maintained in HUDs systems.
                        HUD has a long history of weak security practices, going back to a 1994 GAO
                   review. In October 2000, OIG issued an audit report which disclosed that many of
                   the security weaknesses reported by GAO remained uncorrected. Subsequent to
                   the issuance of our October 2000 report, the Secretary transferred responsibility
                   and accountability for information security from the Office of Administration to
                   the OCIO. The OCIO has a draft plan for establishing and maintaining an effective,
                   comprehensive information technology security program at HUD. Our review
                   found improvements in information security. Also, during FY 2001, the OCIO
                   initiated the planning and program development for an entity-wide security
                   awareness and training program.
                        Despite these improvements, the Department has still not placed adequate
                   emphasis on information security. As a result, we recommended that the Chief
                   Information Officer: (1) provide adequate resources and authority to the Critical
                   Infrastructure Assurance Officer to enable successful implementation of the
                   entity-wide security program plan as outlined; (2) provide guidance, direction,
                   and oversight to program area senior security managers on the performance of
                   security assessments and establish procedures to review the results for complete-
                   ness and accuracy that include specific tests designed to evaluate the effectiveness
                   of security controls; and (3) proactively monitor and oversee the Departments
                   security program and ensure that security weaknesses noted during independent
                  and internal reviews of program specific systems are effectively corrected.
                  (Report No. 2001-DP-0802)

HUDs System          An OIG audit of HUDs system development efforts for the Real Estate Assess-
                  ment Center (REAC) found that both efficiency and effectiveness of the system
Development       development process have to be improved. The procedures for procuring contrac-
Efforts for the   tual services for system development do not ensure that the best value is being
                  obtained. A potential of $1.06 million in maximum savings was possible if the best
Real Estate       qualified and lower cost contractor had been fully utilized. REACs project man-
Assessment        agement of the system development efforts also needs improvement. Some sys-
                  tems did not meet users needs and additional requests for project funding were
Center            necessary. Controls over security, including physical access to the REAC offices,
                  personnel and contractor background investigations, and software access and
                  integrity controls also need to be increased.
                      We found that the procurement problems were caused by HUDs over-reliance
                  on the General Services Administration list of approved contractors and its belief
                  that detailed contractor price and rate comparisons and verifications were not
                  necessary. Project management problems were caused by late and inadequate
                  reviews of contractor planning documents, especially the systems functional
                  requirements, and by inadequate use of project management software tools to
                  monitor and question contractor progress and costs. Potential problems with
                  physical and software security over existing REAC systems can be prevented by
                  better enforcement of security policies and procedures.
                      The audit made recommendations to the REAC Director, the Chief Procure-
                  ment Officer, and the Chief Information Officer to improve system development
                  operations at REAC. (Report No. 2001-DP-0004)

Real Estate           The Real Estate Management System (REMS) was designed to address weak-
                  nesses in disparate and decentralized systems used to manage and value HUDs
Management        vast multifamily housing portfolio. In the past, Multifamily Housing (MFH) servic-
System            ing sites and HUBs relied on a collection of local databases and the Field Office
                  Multifamily National System to track their individual property portfolios. How-
                  ever, these systems were not integrated and the data available were unreliable.
                  Information in REMS is a critical asset and necessary for supporting MFHs overall
                  program mission. Developed and implemented in FY 1998, REMS reportedly
                  enabled the Department to successfully value and manage its vast multifamily
                  housing portfolio using one system for the first time.
                      An OIG audit of REMS determined that although REMS is a significant improve-
                  ment over past MFH system development efforts, application controls need
                  strengthening. We found that MFH has not established adequate controls over the
                  REMS application. Specifically, MFH has not: (1) implemented data input controls
                  or performed data entry reviews in a timely manner; (2) documented operational
                  procedures or provided end users with adequate training; or (3) formalized its
                  change control procedures. As a result, REMS data are incomplete and/or errone-
                  ous, users are unable to utilize the system consistently or to its fullest potential,
                  and users have had to reenter data after system modifications.
                      After completion of our audit field work, MFH implemented its Data Quality
                  Information System (DQIS), an application that tracks REMS data quality. HUD
                  Headquarters, HUBs, and servicing site staff wishing to view reports on REMS
data quality will use DQIS. Based on our limited review of the DQIS plans and
stated objectives, MFH is clearly taking a proactive approach to addressing its
known data quality problems. We made a series of recommendations to the
Deputy Assistant Secretary for MFH to prevent recurrence of the problems found
during the audit. (Report No. 2001-DP-0003)
Chapter 4
            Investigations
                       In addition to Housing Fraud Initiative responsibilities, the Office of Investi-
                  gation investigates all types of potential wrongdoing in HUDs programs and
                  activities. This Chapter presents results from: (1) white collar investigations
                  relating to HUDs Multifamily, Public and Indian Housing, Single Family, and
                  Community Planning and Development Programs; (2) other significant white
                  collar investigations; and (3) investigations relating to violent crime and drug
                  trafficking in HUDs Public and Assisted Housing Programs.




              Multifamily Housing Programs
                      In addition to multifamily housing developments with HUD held or HUD
                  insured mortgages, the Department owns multifamily projects acquired through
                  defaulted mortgages, subsidizes rents for low-income households, finances the
                  construction or rehabilitation of rental housing, and provides support services for
                  the elderly and handicapped. During this reporting period, OIG investigations
                  disclosed criminal equity skimming under Operation Safe Home, as well as false
                  statements, criminal contempt, and accepting bribes.

Equity Skimming        Equity skimming is the willful misuse of any part of the rents, assets, pro-
                  ceeds, income or other funds derived from a multifamily project covered by an
                  FHA insured or held mortgage. The use of project assets or income for other than
                  reasonable operating expenses and necessary repairs, or for the payment of
                  unauthorized distributions to the owner, constitutes a violation of the Regulatory
                  Agreement between the owner and HUD and plays a significant part in the real-
                  ization of losses to the FHA insurance fund. Equity skimming deprives projects of
                  needed funds for repairs and maintenance. This, in turn, contributes to the
                  financial and physical deterioration of projects and the resultant substandard
                  living conditions for the families who depend on the Federal Government to
                  provide housing. The following reflects equity skimming activity during this
                  reporting period.

                      Nemat Maleksalehi, also known as Matt Madison, the owner of three
                  multifamily projects located in Pittsburgh, CA, Gillette, WY, and Lafayette, LA,
                  along with Housing Network, the management agent for the three projects, pled
                  guilty in San Jose, CA, to money laundering, mail fraud, conspiracy to defraud
                  the United States, making a false statement to HUD, and aiding and abetting.
                  Maleksalehi was initially indicted in February 2000 on charges relating to the
                  diversion of funds from a multifamily project insured and subsidized by HUD. He
                  was subsequently charged in related investigations in the Western District of
                  Louisiana on May 9, 2001, and in the District of Wyoming on June 26, 2001.
                  Maleksalehi submitted false invoices, tenant records, financial records, and other
                  documents at all three projects, causing HUD to send him monthly housing
                  subsidies and to release reserve funds which were to be used for major mainte-
                  nance on the projects. He then converted the funds to his own personal benefit.
                  As part of a global plea agreement, Maleksalehi paid $1,406,255 in restitution.
                  He also paid a $400 special assessment fee to the Northern District of California.
                    This investigation was conducted by OIG Agents in Oakland, CA, Fort Worth, TX,
                    and Denver, CO, and the IRS Criminal Investigation Division in San Jose.

Other Significant       Spoleta Construction and Development Corporation in Rochester, NY, was
                    sentenced to 3 years probation and ordered to pay $116,000 in restitution to North
Investigations      Park Nursing Home, Inc., a $425,000 fine, and a $200 court assessment fee. In
                    August 1999, Spoleta pled guilty to one count of filing a false statement with HUD.
                    Spoleta submitted to HUD a fraudulent contractors certificate of actual cost in
                    connection with the construction of the Edna Tina Wilson Living Center, a feder-
                    ally insured nursing home. This was a joint investigation by the OIG, FBI, Depart-
                    ment of Labor, and the U.S. Attorneys Office.

                         The U.S. Attorney for the Northern District of California filed a one-count
                    information against an insurance broker for criminal contempt. The broker owned
                    and operated an insurance services firm in Santa Rosa, CA, and insured approxi-
                    mately 50 multifamily HUD insured or subsidized properties for the Eugene
                    Burger Management Company (EBMC). In addition, the insurance broker pro-
                    vided workers compensation coverage for approximately 50 HUD related proper-
                    ties. On January 22, 2001, during a trial relating to EMBC and its owner, the
                    presiding federal judge ordered the insurance broker not to speak with a particu-
                    lar government witness. On February 27, 2001, the charges against the EBMC
                    owner were dismissed with prejudice after it was learned that the insurance
                    broker spoke with the witness in an attempt to conceal his own scheme to divert
                    money from the HUD insured and/or subsidized properties for which he handled
                    the insurance. This investigation was conducted by the FBI, IRS Criminal Investiga-
                    tion Division, and the OIG Offices of Investigation and Audit.

                        Margaret Walters, a former asset manager in the HUD Jacksonville, FL
                    Office, pled guilty to receiving items of value such as jewelry, dinners, a ceiling
                    fan, a computer monitor, show tickets, and a wireless telephone from a manage-
                    ment agent that she was responsible for monitoring. This was an OIG investiga-
                    tion.


             Public and Indian Housing Programs
                        HUD provides grants and subsidies to approximately 4,200 housing authorities
                    (HAs) nationwide. About 3,200 HAs manage public housing units and another
                    1,000 HAs, with no public housing, manage units under Section 8 Programs.
                    (Many HAs administer both public housing and Section 8 Programs.) HUD also
                    provides assistance directly to HAs resident organizations to encourage increased
                    resident management of public housing developments and to promote the forma-
                    tion and development of resident management entities and resident skills. Pro-
                    grams administered by HAs are designed to enable low-income families, the
                    elderly, and persons with disabilities to obtain and reside in housing that is safe,
                    decent, sanitary, and in good repair.
                       During this reporting period, the OIG discovered instances of fraud, false
                  statements, conspiracy, theft, and bribery involving Public and Indian Housing
                  Programs.

Fraud in Public        Audley Evans, the former executive director of the Tampa, FL Housing
                  Authority (THA), and Clyde Chapman, a contractor doing business with the
Housing           Authority, were sentenced in federal court. Evans was sentenced to 41 months in
Administration    prison and 2 years supervised probation, and ordered to pay $209,294 in restitu-
                  tion to the THA. Chapman was sentenced to 18 months in prison and 1 year
                  supervised probation, and fined $5,000. Evans and Chapman were previously
                  convicted of conspiracy, bribery, accepting gratuities, and false statements. A jury
                  found Chapman guilty of paying Evans over $200,000 in gratuities and bribes in
                  exchange for over $21 million in contracts with the THA. Evans was also convicted
                  on six counts of making false statements to HUD. Two other contractors who
                  previously pled guilty to paying bribes to Evans are awaiting sentencing.
                       Bill Williams, Jr., a contractor who was previously convicted of paying bribes
                  to get contracts with the THA, was sentenced to 41 months incarceration and 2
                  years supervised release, and ordered to pay $9,000 in restitution to the THAand a
                  $50 court assessment. Williams testified that he paid Audley Evans over $100,000
                  in return for $3.2 million in contracts.
                       Angelo DePaul, former deputy director of planning and development at THA,
                  who worked under Evans, was sentenced to 2 years probation, fined $2,000, and
                  ordered to pay a $100 assessment fee. DePaul previously waived indictment and
                  pled guilty to one count of misprision of a felony and one count making false
                  statements concerning illegal activities at the THA. This investigation, which
                  followed a 1998 OIG audit, was conducted by the FBI, IRS Criminal Investigation
                  Division, Department of Justice, U.S. Attorneys Office, and the OIG Offices of
                  Audit and Investigation.
                       In the same case, as a result of an investigation by OIG and the Hillsborough
                  County Sheriffs Department, five individuals were arrested and charged under
                  Florida Statute with organized fraud for their involvement in the theft of several
                  THA Section 8 checks, which were forged and then cashed. Carolyn Griffin,
                  Cornelia Smith, Amos Dexter, Jr., and Jason Grooms pled guilty and the remain-
                  ing defendant is scheduled for trial.

                       Edward Farrow, the former financial director of the Wilmington, DE Hous-
                  ing Authority, and three personal friends, Douglas Robinson, Zachary Rollins, and
                  April Battle-Lathem, were sentenced in U.S. District Court for their participation
                  in a scheme to steal over $50,000 in federal funds from the Authority. In previous
                  guilty pleas, the four admitted that Farrow issued his three friends Authority
                  checks for contracting work that was never performed. Robinson, Rollins, and
                  Battle-Lathem negotiated the checks, retaining a portion of the proceeds for
                  themselves and returning most of the money to Farrow, which he used to pay
                  personal expenses. Farrow was sentenced to 18 months in prison and ordered to
                  repay $53,905 to the Authoritys bonding company. Robinson and Rollins, who
                  were not Authority employees, each received 8 months incarceration and were
                  ordered to pay an aggregate of $53,905 in restitution. Battle-Lathem was sen-
                  tenced to 3 years probation and ordered to pay $9,500 in restitution. This was a
                  joint OIG/FBI investigation.
     In McRae, GA, Mark Joiner, the former regional administrator of the
Georgia Housing and Finance Authority (GHFA), and Craig Selph, a Section 8
landlord, were sentenced in federal district court for making false statements to
HUD. Joiner was sentenced to 12 months imprisonment and 1 year supervised
release, and fined $5,800. Selph was sentenced to 36 months supervised release,
fined $10,000, and ordered to pay $85,854 in restitution. A federal grand jury
previously returned a 29-count indictment against the two charging Joiner and
Selph with conspiracy, mail fraud, false statements, HUD fraud, and submitting
false claims to HUD. The indictment reflected that Joiner knowingly approved
false Section 8 applications submitted by Selph. Selph received $425,000 in
Section 8 benefits to which he was not entitled. The investigation was conducted
by the FBI and OIG.

    Lonnie Smith, the former executive director of the Tuskegee, AL Housing
Authority, was sentenced in federal court to 33 months in prison and 3 years
supervised release, and ordered to pay $1,059,000 in restitution. Smith was
previously indicted by a federal grand jury on 8 counts of embezzling $1,059,000
from the Authority for personal use. He was also charged with one count of
money laundering. Smith used the embezzled funds to finance personal busi-
nesses, vehicles, trips, and gifts to girlfriends. This was an OIG investigation.

    Kerry L. Sims, former executive director of the Housing Authority of the
Town of Homer, LA, was sentenced to 1 year and 1 day in prison and 3 years
supervised release, and ordered to pay $86,488 in restitution and a $100 special
assessment fee. Sims pled guilty to one count of theft or bribery. The sentencing
was the result of a joint investigation by OIG and the FBI which disclosed that Sims
diverted $86,488 in Authority funds he was not authorized to receive. James S.
Williams, a former maintenance supervisor, has already been sentenced for
accepting payment for work which was never performed at the Authority. Will-
iams gave Sims a portion of the money he received for the work he never per-
formed.

     In Little Rock, AR, Tina Jones, an employee of the Helena Housing Author-
ity, was sentenced for theft of property in an amount greater than $2,500. Jones
received a 3-year suspended jail term, was placed on 1 year supervised probation,
and was ordered to pay $42,310 in restitution to the Authority and perform 50
hours of community service. The sentencing followed a joint investigation by OIG
and the Arkansas State Police Criminal Investigation Division. Jones admitted
taking rent monies from residents, providing handwritten instead of computer
generated receipts, and posting credit memos in computer records to offset rental
amounts.

    Alan Brown, former deputy director of the Philadelphia, PA Housing Devel-
opment Corporation (PHDC), a HUD funded quasi City agency, was sentenced to 5
years probation and ordered to pay $23,000 in restitution to the PHDC. Brown was
charged with theft of services, theft by deception, theft by failure, forgery, and
criminal solicitation of public records. Brown used his position for personal gain
by paying for renovations to his personal residence with PHDC funds, and using
PHDC employees to perform personal work while they were on official time. He
also admitted to filing fraudulent documentation with HUD in order to obtain
reimbursement for construction projects where work was never performed.
Lastly, he admitted to accepting material from City vendors and contractors for
use on his personal residence. Brown admitted that during his 4-year tenure, he
defrauded PHDC of more than $20,000 by rigging the contract bid process to
ensure that his friends were awarded PHDC contracts. The sentencing stems from
a 2-year joint investigation by the HUD and City of Philadelphia OIGs and the
Philadelphia Police Department Internal Investigations Unit.

     In Kansas City, MO, Nancy Foster was sentenced on charges of theft from an
agency receiving federal funds. She was sentenced to 6 months home detention
and 48 months probation, and ordered to pay $8,815 in restitution. She had volun-
tarily repaid the Fulton Housing Authority $21,429 prior to sentencing. Foster, the
Authoritys former resident initiative coordinator, stole $30,244 from the Author-
ity by collecting rent from tenants and keeping the money for herself. She at-
tempted to conceal the theft by recording the tenant receipts in the Authoritys
books and records, but she failed to record non-tenant receipts in the same
amounts. This was an OIG investigation.

    In Charleston, WV, Jeffrey A. Brickett, former executive director of the
City of Williamson Housing Authority, was sentenced to 10 months in a halfway
house and an additional 31 months supervised release for falsifying and concealing
Authority records from an audit. Brickett was indicted and pled guilty to obstruc-
tion of a federal audit. Between 1997 and 1999, Brickett used his position to
channel $25,699 from Public Housing Drug Elimination Grant Program funds for
memberships to the Dynabody Health and Fitness Club. Brickett failed to disclose
his ownership interest in the gym to HUD, and inflated the number of actual
Authority residents using the facility. Brickett has already repaid the grant funds.
OIG and the FBI conducted this investigation.

     In San Juan, PR, Arturo Paz-Guzman, Richard Castillas, and José Cobian
pled guilty to extortion, aiding and abetting, unlawfully obstructing, delaying and
attempting to obstruct, and delaying and affecting commerce and the movement of
articles and commodities in commerce by extortion. Andres Barbeito-Cambiella
and Robert S. Prann-Laborda pled guilty to extortion. These five individuals
included three former employees of the Department of Liquidation for CRUV
(OLACRUV), the predecessor of the Puerto Rico Public Housing Authority
(PRPHA), and two contractors. The individuals conspired to pay more than
$500,000 in kickbacks in exchange for OLACRUV contracts. The OLACRUV employ-
ees used their influence to award contracts for the renovation and construction of
housing units at the OLACRUV. This investigation was conducted by the FBI and the
OIG Offices of Investigation and Audit.


    Mark Fulmer, a rehabilitation specialist with the Rochester, NY Housing
Authority, pled guilty to one count of bribery concerning programs receiving
federal funds. Between 1993 and 1999, Fulmer solicited and received approxi-
mately $90,000 in kickbacks from contractors. This was a joint FBI and OIG
investigation.
    Joni Lynn Estrada-Pena pled guilty to one count of theft of federal program
funds. While employed at the Littleton and Aurora, CO Housing Authorities,
Estrada-Pena stole $78,559 in Authority funds. This was an OIG investigation.

    Erricka Humphrey, an account assistant who worked in the finance depart-
ment of the St. Louis, MO County Housing Authority, pled guilty to three counts
of embezzlement. Humphrey set up a vendor account in the name of a friend and
wrote checks payable to her friend. The friend cashed the checks and split the
proceeds with Humphrey. The checks were drawn on the Authoritys Section 8
account. This was an OIG investigation.

    In Pine Ridge, SD, three individuals from the Oglala Sioux Tribe were
indicted on one count of conspiracy and four counts of theft. The three embezzled
housing funds from the Tribe by providing no-cost housing for family members
and altering income statements in order to provide assistance to those who would
not normally be entitled. This investigation was conducted by the HUD and Depart-
ment of Veterans Affairs OIGs and the FBI.

    The former president and the former vice president of the Waimanalo Hous-
ing Resident Association (WHRA) in Honolulu, HI, were indicted on two counts
each of theft of federal program funds. An investigation by OIG disclosed that the
two embezzled WHRA funds from a Tenant Opportunity Program (TOP) grant. The
TOP was established to allow HUD to provide financial assistance to the resident
associations of public housing projects. The ultimate goal was to promote self-
help initiatives to enable the residents to create a positive living environment and
increase resident satisfaction in public housing communities. From September
1995 through September 2000, the former officers allegedly embezzled a total of
$48,750.

    The owner of a local roofing contractor was charged in federal court with
paying at least $106,000 in kickbacks to LuAnn Wade, the former property man-
ager of Stuart Gardens Apartments, a HUD assisted complex in Newport News,
VA. An investigation by OIG and the FBI found that the contractor and Wade
conspired to steal federal funds by significantly inflating the cost of ceiling repairs
to be performed at Stuart Gardens from 1997 to 1999, and then subcontracted the
actual work to another firm, splitting about $250,000 in inflated profits. The
defendant and Wade attempted to hide the kickbacks by laundering them through
several bank accounts. Wade was previously convicted and sentenced.

    The former executive director of the Ferriday, LA Housing Authority was
indicted on four counts of theft or bribery concerning programs receiving federal
funds. The indictment is the result of a joint investigation by OIG and the Louisiana
Office of the Legislative Auditor which determined that while he served as the
executive director, the individual established a private nonprofit organization
through which Housing Authority funds were diverted for personal use. The
individual was also found to have misappropriated additional Authority funds. The
approximate loss is $160,000.
                     The former project manager for the Ft. Pierce, FL Housing Authority was
                 indicted by a Florida State grand jury for embezzling $23,000 in rent receipts
                 from the Authority. This was a Ft. Pierce Police and OIG investigation.

                     A former San Antonio, TX Housing Authority management aide was in-
                 dicted by the Bexar County District Attorneys Office for the misapplication of
                 fiduciary property. The indictment is result of an OIG investigation which found
                 that the aide allegedly stole $6,658 from the residents of the Villa Veramendi
                 Apartments by accepting rental deposits and then failing to turn over the funds to
                 the complex. No further proceedings have been scheduled at this time.

Other                As a result of a 2-year investigation in Newark, NJ, by the West African Task
                 Force (WATF), Ralph Dhlamini, Abosede Adekanmbi, Kehinde Abass, Chris
Investigations   Agho, Tunde Shittu, Osawaru Ekomwen, Ato Evans, Cornelius Okungbowa, Ebe
                 Agho, Abiodum O. Thompson, Ifeolu Olasogba, Chris Onokoya, and Mary Adjei-
                 Robinson, also known as Mary Adeji, were sentenced to a total of 42 years
                 probation and nearly 4-1/2 years home confinement. In addition, the defendants
                 were ordered to pay a total of $198,446 in restitution to HUD. All of the defendants
                 were arrested in 1999 and charged with theft of government funds.
                     Kehinde Ayinde, also known as Kenny Ayres, was convicted of conspiracy to
                 commit mail fraud in connection with federally subsidized housing, identity
                 document fraud, mail fraud in connection with credit cards, transfer of false
                 identity documents, and possession with intent to transfer five or more identity
                 documents. Ayinde worked at a storefront business known as P&C Printing and
                 Convenience Center, later known as Power Electronics of Irvington, NJ. This
                 business specialized in producing false documents for almost every type of fraudu-
                 lent activity until it was shut down by members of the West African Task Force
                 (WATF) in February 1999. The WATF is a multi-agency entity including the OIG,
                 FBI, INS, IRS Criminal Investigation Division, the U.S. Attorneys Office, Postal
                 Inspection Service, and the Secret Service, tasked by the Department of the
                 Treasury to investigate instances of widespread fraud. Ayinde was remanded to
                 the custody of the U.S. Marshals after the jury rendered its verdict.

                      Evelina Jones, an eligibility specialist with the Westchester County Depart-
                 ment of Social Services in White Plains, NY, was sentenced to 6 months home
                 detention and 3 years supervised release, and was ordered to pay $25,840 in
                 restitution to HUD and a $100 special assessment. In addition, Jones was ordered
                 to forfeit a $5,400 savings account to HUD as the start of her restitution payment
                 plan. Jones was arrested by OIG Agents at her place of employment on charges
                 that she concealed her employment and true household income from 1989 through
                 1999 in order to obtain nearly $30,000 in Section 8 rental assistance payments for
                 which she was ineligible. She also falsely reported that she was unemployed in
                 1999, and that from 1990 through 1998 she was employed as a part-time salesper-
                 son. As a Westchester County civil servant, her annual income is over $46,000.
                 Part of her duties include determining and approving the eligibility of persons to
                 receive public assistance, food stamps, and Section 8 rental assistance. Jones pled
                 guilty to one count of submitting false statements.

                     In Dallas, TX, Armenter R. Johnson was sentenced on one count of submit-
                 ting false statements and was ordered to serve 180 days home confinement,
placed on 5 years supervised release, and ordered to pay $23,967 in restitution.
The sentencing is the result of an investigation by the FBI and OIG which found that
from March 1995 until March 1998, Johnson provided false information to HUD
and the Arlington Housing Authority regarding her family income. In addition,
she provided false employment verification documents to the Grand Prairie
Housing Authority.

    Mitchell Bell was sentenced in federal court to 5 months home detention and
5 years probation, and ordered to pay $21,612 in restitution to HUD. Bell and co-
defendant Leanne Moore were indicted for making false statements, which
resulted in their being paid more than $21,000 each in rental assistance from the
Lakewood, CO Housing Authority. Moore was sentenced to 6 months home
detention and 5 years probation, and ordered to pay $21,612 in restitution to HUD.
This was an OIG investigation.

    Sharon Bohannon pled guilty to making false statements to HUD. In her
position as manager of Atchley Apartments, a HUD subsidized apartment complex
in Knoxville, TN, Bohannon falsely reported tenant rent payments to HUD. She
collected higher rent payments than she reported, and kept the extra money for
herself. Bohannon was sentenced to 6 months home detention and 5 years proba-
tion, and ordered to pay $20,200 in restitution. This was a joint investigation by
OIG and the FBI.


     Minneapolis, MN Section 8 landlord James H. Robinson was sentenced to 1
year supervised release and ordered to pay $19,400 in restitution. Robinson
previously pled guilty to occupying the same unit as his Section 8 tenant. He gave
the local housing authority a fictitious address to which housing assistance pay-
ments were sent, thereby hiding the fact that he resided with the tenant. This was
an OIG investigation.

     In Brooklyn, NY, Elizabeth Lorenzo, a former New York City Police De-
partment (NYPD) Officer, was sentenced to 6 months home confinement, 5 years
probation, $11,000 in restitution to HUD, and a special court assessment fee of
$325. She was convicted on four counts of submitting false claims to the govern-
ment. Lorenzo was a co-defendant in this case, along with her husband, Louis
Lorenzo, a New York City Housing Authority caretaker, who pled guilty to one
count of submitting false claims to the government. Louis Lorenzo was sentenced
to 6 months home confinement, 5 years probation, and $11,550 in restitution to
HUD. The two defendants conspired to conceal Elizabeth Lorenzos income as a
Police Officer by submitting false documents in order to benefit from subsidy
payments. Neither of the Lorenzos would have been eligible for assistance pay-
ments if they had truthfully disclosed Elizabeth Lorenzos salary.
     This investigation was initiated after a complaint was filed with the NYPDs
Internal Affairs Bureau. The investigation was conducted by OIG, the New York
City Housing Authority OIG and NYPDs Brooklyn South Investigation Unit.

     Patricia Raynes, the former resident manager of a Section 8 assisted apart-
ment complex in Everett, WA, was sentenced to 15 days imprisonment, 105 days
of home detention with electronic monitoring, 3 years supervised release, $10,721
in restitution, and a $100 special assessment fee. Raynes, who was convicted on
charges of felony theft of public funds, embezzled tenant rent receipts and utility
subsidy payments. This was an OIG investigation.

     In Colorado State Court, Sylvester Licano pled guilty to one count of false
statements and was sentenced to 48 months supervised probation, 90 days work
release, and 60 hours of community service, and was ordered to pay $9,606 in
restitution. Licano submitted false statements in order to receive more than
$7,500 in rental assistance to which he was not entitled from the Lamar, CO
Housing Authority. This was an OIG investigation.
     Elaine Sanders, a resident of the Housing Authority of Port Arthur, TX, was
sentenced for submitting false statements. She was placed on 5 years supervised
release, ordered to pay $8,998 in restitution and a $50 special assessment fee, and
ordered to perform 200 hours of community service. The sentencing is the result
of an OIG investigation which found that Sanders made false statements to the
Authority in order to receive a reduced rent on her public housing unit.

    Melissa Rae Perry, a former Section 8 rental assistance recipient in Sacra-
mento, CA, was sentenced to 36 months probation and 20 hours of community
service, and ordered to pay $8,142 in restitution and a $25 special assessment.
Perry pled guilty to one count of making false statements to obtain housing assis-
tance. In 1995, Perry qualified for Section 8 assistance, but in the years 1996,
1997, and 1998, her income was such that she no longer qualified for full assis-
tance. Perry, who worked as a flight attendant, falsified her annual income
verification forms and forged the signatures of her supervisors in order to con-
tinue to receive assistance. This was an OIG investigation.

    Demetrio Perez, a Section 8 landlord who was also a prominent public
official in the Miami, FL area, pled guilty to five counts including conspiracy to
commit mail fraud, mail fraud, and making false statements. Perez agreed to pay
$210,000 in restitution. An investigation by the OIG, FBI, and the Miami-Dade
Police Department disclosed that Perez had overcharged Section 8 tenants living
in his properties.

     In San Juan, PR, Juan Irizarry Valentin, a supervisory public housing
specialist in the HUD Caribbean Office, pled guilty to bribery, theft of government
funds, and extortion, and shall forfeit to the government all property, including a
306-acre farm and a motor vehicle, derived from or traceable to proceeds related
to the charges. Juan Valentin arranged to have the management company hire his
brother Samuel for $15,000 per month. Samuel Valentin then gave over $226,000
to Juan, which he used to purchase the farm. Samuel Valentin Toro, a former
employee of a management company, previously pled guilty to conspiracy and
theft of HUD funds and agreed to pay $180,386 in restitution. The owner of the
management company was indicted by a federal grand jury on charges of con-
spiracy to defraud, embezzlement, bribery, and money laundering. The manage-
ment company had been awarded a $30 million contract to manage several Puerto
Rico Public Housing Authority (PRPHA) developments. Juan Valentin was respon-
sible for monitoring PRPHA privatization contracts. He received over $195,000 in
kickbacks, through Valentin Toro, from the management company between April
1999 and January 2001. Juan Valentin purchased the farm and a four track vehicle
with the kickback money. This investigation was conducted by the FBI and the OIG
Offices of Investigation and Audit.

    In a separate investigation in San Juan, PR, a former management agent was
indicted by a federal grand jury and charged with conspiracy to interfere with
commerce by extortion induced by economic fear, and knowingly and willfully
conducting and attempting to conduct financial transactions affecting interstate
and foreign commerce. The management agent allegedly conspired with Freddy
Valentin, a former Senator of the Commonwealth of Puerto Rico, to obtain
management contracts with the PRPHA. The indictment reflects that the defendant
paid Valentin $129,000 in exchange for Valentins assistance in obtaining the
management agent contract with the PRPHA.

    John Pallis, also known as Ioannis Pallis of Queens, NY, pled guilty to de-
frauding HUD and/or the Social Security Administration (SSA). Pallis, a mechani-
cal engineer employed at John F. Kennedy International Airport, was arrested on
March 21, 2001, by HUD and SSA Special Agents at his place of employment.
While employed from 1992 through 1999 at one company, Pallis concealed his
income and employment from SSA by using a Social Security number issued to
him under his Greek name. He collected SSA disability payments under his
American name and a different Social Security number. Pallis resided in a HUD
subsidized assisted housing development, concealing his income and employment
from the management agent and HUD from 1994 through 1999 by using one of the
Social Security numbers and his Greek name. Pallis, who actually earns over
$50,000 per year, obtained a total of $69,397 in SSA disability payments and
$45,375 in HUD Section 8 rent subsidy assistance by not only using false Social
Security numbers and submitting false statements, but also by submitting false
claims to the United States regarding the extent of his injuries allegedly suffered
in 1991. Loss to the government is estimated at $114,772.

    In Oakland, CA, Jimmy E. White, a Section 8 resident who lived at the HUD
subsidized multifamily housing complex known as Apollo Housing, pled guilty in
federal court on one count of making false statements to HUD. White
underreported his annual income on his initial and subsequent Section 8 recertifi-
cations to HUD and to Apollo Housings management by failing to disclose his
receipt of federal workers compensation benefits. White had received more than
$140,000 in workers compensation benefits since 1991. Since 1992, HUD has paid
more than $48,000 in Section 8 subsidies on behalf of White. The investigation
was conducted by HUD OIG based on a referral from the Department of Labor
OIG.

     Norman J. Gallant pled guilty to two counts of mail fraud, one count of Social
Security fraud, and one count of tax evasion. Gallant, a Section 8 recipient in
Springfield, MA, used a trust to conceal his ownership of the condominium in
which he resided as well as other assets. He also received Medicaid payments for
a fictitious personal care attendant, fraudulently obtained Social Security disabil-
ity benefits, and evaded payment of federal income taxes on the proceeds of his
criminal activity. This was a joint investigation by the HUD, Social Security
Administration, and Department of Health and Human Services OIGs and the IRS
Criminal Investigation Division.
    A one-count amended bill of information was filed against a property owner
doing business as Housing Network, Inc., owner of the Acadian Manor Apart-
ments, a 140-unit Section 8 assisted property in Lafayette, LA. The owner is
charged with conspiracy. The information was filed as the result of a joint investi-
gation by OIG and the FBI which disclosed that the property owner devised a
scheme to obtain Section 8 benefits from HUD to which he was not entitled, and to
control and discriminate by race and age against potential Section 8 residents of
Acadian Manor. The loss to the government is $220,658.

    The Alameda County District Attorneys Office filed a felony complaint in
Alameda Superior Court charging a Section 8 resident with welfare, disability,
food stamp, and housing fraud. The resident was charged with 7 counts of perjury,
theft of property in excess of $400, and providing false statements to the Social
Security Administration, the Alameda County Human Services Agency, and the
Oakland, CA Housing Authority concerning her disability and income. The
individual, who claimed to be disabled and unemployed, was working and earning
income from 1998 to 2000. In 2001, she applied for and received workers com-
pensation benefits. However, she failed to disclose her employment earnings or
her workers compensation benefits to the appropriate federal and local agencies.
She received more than $61,000 in benefits to which she was not entitled. The
HUD and Social Security Administration OIGs and the Alameda County District
Attorneys Office conducted this investigation.

    A federal grand jury indicted two sisters on three counts each of submitting
false statements by failing to report their actual income to the Columbia, MO
Housing Authority, and one count each of conspiracy for falsifying a letter to the
Authority. In addition, one sister was charged with one count, and the other with
two counts, of student aid fraud for falsifying certifications to the Department of
Education. The loss to the government as a result of these alleged frauds is
approximately $36,500. This investigation was conducted by the HUD and Depart-
ment of Education OIGs.

    In Beverly, MA, a criminal complaint was filed in state district court charg-
ing a Section 8 tenant with 5 counts of larceny by deception involving over $2,000.
The complaint resulted from an OIG investigation which found that the tenant
allegedly received more than $34,000 in Section 8 rental subsidies to which she
was not entitled by failing to report her husbands income and that fact that he was
part of her household. The husbands income, if reported, would have excluded the
tenant from receiving any rental subsidy.

    A Baltimore County, MD grand jury charged a rental assistance recipient
with falsifying official documents to obtain approximately $12,000 in excess
assistance. An investigation by OIG and the Baltimore County Police disclosed that
the defendant failed to report income from unemployment compensation. The
investigation was initiated after newspaper articles related how the recipient, who
was reporting minimal income, had been detained by airport authorities after
returning from an overseas trip.

    In Martinez, CA, two Section 8 residents were charged with 1 count of
welfare fraud, 12 counts of perjury, and 1 count of grand theft. An investigation by
OIG and the Contra Costa County District Attorneys Office found that the resi-
dents allegedly failed to report income from a gardening service business they
began in 1990 from which they earned between $6,000 and $9,000 per month,
while at the same time receiving welfare and housing benefits. From April 1996
until April 2001, over $58,000 in housing assistance payments were paid on their
behalf.

     In Brooklyn, NY, a New York City Human Resource Administration (HRA)
caseworker was indicted by the Supreme Court of the State of New York on 13
counts of grand larceny, welfare fraud, offering a false instrument for filing, and
issuing a false financial statement. The caseworker allegedly received $29,550 in
public assistance and rent subsidies to which she was not entitled while working
full time with the HRA and as a private sector association counselor. The case-
worker failed to disclose her employment and actual income on three tenant
certifications filed with HUD. As a result, she illegally obtained $7,246 in HUD
rent subsidies. The caseworker voluntarily surrendered for arrest.
     This was a joint investigation by the New York City Department of Investiga-
tion, Office of the Inspector General, and OIG. The investigation stemmed from
an anonymous complaint.

    In St. Louis, MO, a Section 8 tenant was indicted on 2 counts of stealing over
$750, second degree burglary, and failure to return property. The tenant sublet her
Section 8 unit to another individual while she rented a separate non-Section 8
apartment. The day after the subjects tenant cooperated with the Housing Au-
thority and informed them of the arrangement, the subject rented a truck, burglar-
ized the Section 8 residence, and then abandoned the truck after emptying its
contents. This was an OIG investigation.

     A Section 8 landlord, who was also a prominent public official in the Miami,
FL area, was indicted by federal grand jury on 10 counts of mail fraud, 10 counts
of making false statements to HUD, and 1 count of conspiracy. The charges were
the result of an investigation by OIG, the FBI, and the Miami-Dade Police Depart-
ment which disclosed that the landlord allegedly overcharged Section 8 residents
living in his properties.

    An individual was indicted by a federal grand jury on 10 counts of making
false statements in order to obtain Section 8 rent subsidies, unemployment com-
pensation, and food stamps. The indictment charges that from September 1997 to
August 2000, the individual submitted false personal declaration forms and zero
income certification forms to HUD through the Northeast Community Action
Corporation and the St. Louis, MO Housing Authority, which administer Section
8 rental subsidy programs. This was an OIG investigation.

    A former employee of the Louisville, KY Housing Authority was charged
with one count of knowingly transmitting a death threat to another Authority
employee. The individual previously confessed that he had sent two threatening e-
mails to the Authoritys executive director after the individual was terminated
from employment at the Authority. The individual is scheduled to appear in
federal district court to enter a guilty plea. This was an OIG investigation.
    In Lac Du Flambeau, WI, Miron Construction reached a settlement agree-
ment with the Department of Justice, Civil Division, for the Western District of
Wisconsin and agreed to pay the Chippewa Housing Authority $208,000 in addition
to completing $67,000 worth of repairs on Authority property. In total, $275,000
will be paid out by Miron Construction. The original allegation stated that Miron
provided false invoices to the Housing Authority while performing work for them.
This investigation was conducted by the OIG Offices of Investigation and Audit.

     Property owner Floyd Patterson entered into a stipulated agreement to reim-
burse HUD $14,736. Patterson, along with accomplice Delores Robinson, a
Section 8 recipient, violated the False Claims Act by submitting three documents
to HUD purporting that Robinson was eligible to receive housing assistance under
the Section 8 Voucher Program. The agreement was the result of an OIG investi-
gation which disclosed that Patterson and Robinson prepared, signed, and submit-
ted to HUD, through the Lafourche Parish Housing Authority in New Orleans,
LA, a request for lease approval. They also submitted a housing assistance
payments contract to the Authority, providing for assistance for one or more of
Robinsons family members. Robinson herself was not listed as a family member,
but lived in the home in question, received mail at the home, listed the homes
address on tax returns, and received Section 8 checks at the home. In total,
Robinson received $14,736 in benefits to which she was not entitled. Because of
the stipulated agreement, no criminal proceedings or civil complaint will be filed.

     An investigation by OIG and the Jacksonville, FL Police Department resulted
in the arrest of an individual for making false statements to obtain public housing.
Between January 1996 and August 2000, the defendant allegedly failed to disclose
a material fact in certifying and recertifying to receive rental assistance benefits.
The defendant allegedly received $25,787 in assistance to which he was not
entitled.

    OIG Agents and St. Joseph, MO Police Department Officers arrested an
individual on a state warrant for stealing by deceit. The arrestee, a former
Section 8 recipient, failed to report her employment income to the St. Joseph
Housing Authority and received approximately $12,000 in Section 8 overpayments.
Single Family Housing Programs
       Single Family Housing Programs provide mortgage insurance that enables
   individuals to finance the purchase, rehabilitation, and/or construction of a home.
   During this reporting period, OIG investigations uncovered schemes of fraud
   involving property flipping, loan origination, and Title I home improvement loans.

       Mark Rosenberg, a Ft. Lauderdale, FL multi-millionaire investor and
   leader/organizer of a property flipping scheme, was sentenced to 84 months in
   prison and 3 years supervised release, and ordered to pay $3.1 million in restitu-
   tion to the victims of the scheme, including HUD. He previously pled guilty to
   conspiracy to commit bank fraud and making false statements on FHA insured
   mortgage applications.
       Mimi Lawrence, a real estate broker and tax preparer, was sentenced to 12
   months and 1 day in prison and 3 years supervised release, and ordered to pay
   $881,504 in restitution to HUD. Lawrence previously pled guilty to conspiracy to
   commit bank fraud and making false statements on FHA insured mortgage appli-
   cations.
       Rosenberg and Lawrence were charged, along with six other individuals, with
   participating in a scheme from 1993 to 1996 to fraudulently purchase HUD owned
   properties by paying strawbuyers to pose as owner/occupants. The properties
   were then refinanced with FHA and conventional mortgages and sold to unquali-
   fied buyers at inflated prices with the help of fraudulent employment and income
   information. FHA and conventional loans totaled over $15,000,000. The investiga-
   tion was conducted by the OIG, IRS, and FBI.

        William and Charles King were sentenced for their part in a single family
   housing fraud scheme. Both previously pled guilty to one count of false statements.
   Both William and Charles King were sentenced to 6 months home detention and 3
   years probation, and were ordered to pay $273,717 in restitution to HUD. At the
   time of sentencing, on the Kings behalf, their attorney gave a check to the clerk
   of the court for $50,000 as partial payment of the restitution.
        In 1996 and 1997, William and Charles King purchased several homes in the
   Buffalo, NY area at minimal prices. They then made superficial repairs to the
   properties and sold them to unsophisticated first time homebuyers at extremely
   inflated prices. Because the homebuyers did not have the financial resources to
   purchase these homes, the Kings provided the homebuyers with the down payment
   in the form of gift donor funds. They then instructed the homebuyers to have a
   relative or friend fraudulently sign the gift donor letters provided to the bank
   stating they provided the homebuyers with the funds. This was an OIG/FBI investi-
   gation.

        Minneapolis, MN real estate agent Burnie Battle was sentenced to 1 year
   incarceration and 3 years supervised release, and was ordered to pay $183,419 in
   restitution to 6 victims. Battle orchestrated a property flipping scheme involving
   FHA and conventional loans. As part of the scheme, he bought properties at low
   prices and sold them for much higher prices, on or about the same day. This
   investigation was conducted by the FBI and OIG.
    Stanley Rabner, president of Fredmont Builders, a now defunct general
contracting firm in Pittsburgh, PA, was sentenced to 20 months incarceration
and 36 months probation, and was ordered to pay $218,145 in restitution to HUD.
The sentencing stemmed from his April 2001 guilty plea to defrauding poor and
elderly homeowners by falsifying their income, income sources, and credit
worthiness in order to secure approval for HUD insured Title I loans for which
they did not qualify. A 3-year joint investigation by the OIG Offices of Investigation
and Audit and the IRS found that Rabner generated as many as 70 fraudulent Title I
loans worth approximately $1 million. The investigation focused on 15 fraudulent
loans totaling $218,145 for which HUD paid claims and disclosed that more loans
would have resulted in claims if many homeowners had not taken extraordinary
measures to avoid default.

    In Tampa, FL, Robert Norman, an individual who rehabilitated homes,
arranged for fictitious mortgage down payments, and sold shoddy homes to low-
income residents, was sentenced to 15 months incarceration and 2 years super-
vised release, and ordered to pay $77,147 in restitution to HUD and a $100 special
assessment. Norman began buying and selling dilapidated houses in St. Peters-
burg in 1995, making minor repairs and then doubling or tripling the price that he
charged low-income homebuyers to purchase the homes. Over a 3-year period, he
bought and sold more than 220 homes, and at one time owned more homes than
anyone in St. Petersburg. He violated HUD rules by making down payments for the
homeowners by giving the money to relatives of the homebuyers, who falsely
claimed that the money was a gift. After the sale, the homeowners discovered that
the homes needed costly repairs; they could not afford to sell out because they
paid too much for the homes in the first place. More than 100 properties have
gone into foreclosure. This investigation was conducted by the OIG and the FBI.

     In St. Louis, MO, Bennet Kennell, also known as Denney Kennell, was
sentenced to 14 months in prison and ordered to pay $47,796 in restitution follow-
ing his guilty plea to 1 felony count of making false statements to HUD. In June
1996, Kennell applied for and received an FHA insured loan by using a fraudulent
Social Security number and false employment and wage information. The loan
was a first payment default, resulting in a loss to HUD of $47,796. Kennell was
indicted in December 1999, and was a fugitive for a year. He was arrested in
Atlanta, GA, in December 2000. His bond was revoked for violations of his pre-
trial conditions, and he has remained in federal custody. This was an OIG investi-
gation.

    Minneapolis, MN real estate agent Larry Darnell Maxwell, who pled guilty
in February 2001, was sentenced to 180 days home confinement and 5 years
supervised release, and ordered to pay $37,592 in restitution to HUD. An investi-
gation by OIG and the IRS Criminal Investigation Division disclosed that Maxwell
submitted fraudulent applications for FHA insured mortgages on behalf of nine
clients.

    Ali Hufani and Faduma Hufani were sentenced to 6 months home monitoring
and 5 years probation, and ordered to pay a total of $6,020 in restitution. These
sentencings resulted from initiatives by the SnoFraud Multi-Agency Task Force,
which was created in Everett, WA, to focus on widespread mail, housing, food
stamp, social security, and welfare fraud. Approximately 300 potential suspects
have been developed. The Task Force includes the HUD, Social Security Adminis-
tration, and Department of Agriculture OIGs, the FBI, INS, Postal Inspection
Service, and the Washington Department of Health and Human Services.

     As a result of a joint investigation by the OIG, FBI, and IRS Criminal Investiga-
tion Division  designated Operation Straw House  multiple subjects have
pled guilty and been sentenced for their involvement in a money laundering
scheme wherein they used the U.S. mail to submit false information to fraudu-
lently obtain over $1 million in home improvement loans (about 50 Title I loans)
insured by HUD. The overall scheme may involve 3 criminal organizations and an
estimated $74 million in fraudulent loans obtained by approximately 75 individu-
als.
     Real estate investors Gary Cross and John Pounds pled guilty to wire fraud
and mail fraud, respectively, for their roles in the scheme. Real estate agent
Michael Waggett was sentenced to bank fraud. He obtained more than $2 million
of mortgage loans in his name based on false statements. Waggett was sentenced
to 18 months in prison and 60 months supervised release, and ordered to pay a
$100 special assessment and $95,472 in restitution to the Bank of Yorba Linda,
CA.
     Frank D. Mei, Sr., pled guilty to one felony count. As part of the scheme, he
provided false information on applications for conventional and FHA insured single
family mortgage loans as well as home improvement loans in the Houston, TX
area.
     Three investors pled guilty to money laundering. Frank Domenic Mei, Kevin
Mei, and Daniel Mei, doing business as Mei Enterprises, BCM Builders, Zeno
Properties, T&E Investments, Inc., Foresite Mortgage, Innovative Residential
Funding, Venture Southwest Realty, and Bernard Management, among others,
admitted to engaging in a scheme in which they defrauded commercial lenders
and federally insured banks out of single family mortgage proceeds. They con-
spired with each other and with real estate appraisers, loan officers, and others to
carry out the scheme and defraud commercial lenders out of more than $30
million in loan proceeds. The Meis located houses listed for sale in the Houston
area, obtained fraudulent appraisals inflating the value of the houses by approxi-
mately $100,000, and applied for mortgage loans in the names of strawbuyers.
Based on the false statements regarding the true value of the houses and the
identities of the borrowers, banks and other lenders provided more than $30
million in loans beginning in April 1996 and continuing into 2000.
     Two investors pled guilty to one count each of money laundering related to
over $1 million in fraudulently obtained HUD Title I insured home improvement
loan proceeds. John Francis McGrath and Alex Francis McGrath, doing business
as AA Quality Construction, admitted submitting numerous false documents,
including W-2s, bank statements, and employment information, to lenders in order
to obtain HUD insured home improvement loans for borrowers. They also admitted
to conspiring with BCM Builders and others to defraud HUD and commercial
lenders.
     Phillip Durban, a construction manager for BCM Builders, pled guilty to one
count of wire fraud in connection with the scheme. BCM is a HUD Title I home
improvement contractor. Durban obtained 2 HUD insured Title I loans for a total
of $50,000 and 4 fraudulent single family mortgage loans totaling in excess of
$800,000 by submitting false information to commercial lenders. The false
information included employment history, income level, and intended use of the
loans. A former escrow officer with Citizens Title Company was charged with
mail fraud for assisting BCM Builders in obtaining single family mortgage loans
based on false statements. The owner of Beacon Realty was also charged with
mail fraud.
     William Kyle Triplett, a former construction manager for American Eagle
Construction, an FHA Title I home improvement contractor, was sentenced to 10
months home confinement and 36 months supervised release, and ordered to pay
a $100 special assessment. Triplett previously pled guilty to one count of bank
fraud.
     John Garcia, a real estate investor, was sentenced for his role in the scheme.
Garcia previously pled guilty to one count of bank fraud. He was sentenced to 1
day in jail, 10 months home confinement, and 3 years supervised release, and
ordered to pay a $100 special assessment. Restitution is to be ordered by the court
at a later date.
     Following a 3-week trial, FHA approved real estate appraiser and broker Joe
Bob Moncrief was convicted on 18 counts of a federal indictment which included
bank fraud, wire fraud, conspiracy, money laundering, and monetary transactions
with criminally derived proceeds in excess of $10,000.

    Maria McDonald, the owner/operator of Marias Real Estate in Houston,
TX, was charged with submitting false statements, pled guilty, and agreed to
immediately repay HUD $99,000. These actions are the result of an investigation
which determined that McDonald engaged in a scheme using strawbuyers to
misrepresent their intention to be owner/occupants in the purchase of HUD owned
properties. In reality, McDonald acquired the properties and resold them at a
profit to legitimate homebuyers. McDonald exploited a predominately Spanish
speaking clientele to whom she sold the homes at inflated prices. She provided the
strawbuyers with earnest money and paid some of them a fee of $500. In accor-
dance with the plea, McDonald has repaid HUD $92,803. This investigation was
conducted by the OIG Offices of Investigation and Audit.

    Ft. Lauderdale, FL closing attorney Dennis Stewart pled guilty in federal
district court to one count of making false statements to obtain FHA insured
mortgages. Stewart participated in a scheme to fraudulently originate Section
203(k) mortgages by not paying the required down payments. The scheme involved
over 80 properties with mortgages totaling over $3.2 million. The investigation
was conducted by the OIG Offices of Investigation, Audit, and Counsel.

     Marcus Andre Stancil, Wendy Andrea Dilbeck, and Regina McLean of
Atlanta, GA, pled guilty in federal court to conspiracy to defraud HUD. Stancil,
Dilbeck and another individual were indicted by a federal grand jury on 64 counts
of conspiracy, wire fraud, mail fraud, money laundering, using false Social
Security numbers, and HUD mortgage fraud. The properties involved mortgages
totaling over $2.4 million. The indictment also contained a forfeiture provision for
all assets obtained through their criminal activity. The defendants used false
identification to obtain mortgages and had strawbuyers assume the identities of
other individuals in order to purchase the properties. The defendants then lived in
the properties or rented them without making any mortgage payments. They
delayed foreclosure proceedings by filing false bankruptcy petitions in the names
of the purported owners of the properties. This investigation was conducted by the
FBI, IRS Criminal Investigation Division, and the HUD and Social Security Admin-
istration OIGs.

    In Miami, FL, investor Mark Cohen pled guilty in federal court to conspiracy
to commit wire fraud, HUD fraud, mail fraud, and money laundering. Cohen was
earlier indicted along with a closing attorney and an employee of a real estate
investment company. The individuals were 3 of the 7 members of an organization
who were previously indicted on 11 counts of conspiracy and 10 counts of HUD loan
fraud and bank fraud. From 1996 to 1999, the defendants allegedly conspired to
fraudulently originate over 120 FHA insured loans, through 7 banks and 9 mort-
gage companies, by creating false gift letters and income information for individu-
als who could not qualify for the loans. The loans totaled over $11 million. In
addition, the loan amounts were inflated as a result of flip sales from the original
sellers to the defendants, who then sold the properties at inflated prices to the
unqualified buyers on the same day, financing the purchases with the FHA loans.
The properties were inflated an average of over $15,000 each. The average loss
on the properties is over $30,000 and the total loss to HUD is expected to be over
$1.7 million. The defendants included closing attorneys, real estate brokers,
mortgage brokers, loan officers, loan processors, title company employees, and
the owner of a printing company, who created the false documentation. The
investigation was conducted jointly by the FBI and the OIG Offices of Investigation
and Audit.

    In Norfolk, VA, real estate developer Matthew Davis pled guilty to loan
origination fraud involving 15 FHA insured property transactions. Davis admitted
that he purchased numerous HUD owned properties, made minor repairs, and then
resold the properties at substantially higher prices. He also admitted providing
prospective buyers, who otherwise would not have qualified for the mortgages,
with funds for down payments and to pay off personal debts. He secured these
funds with second mortgages that were never disclosed. The potential loss in this
case exceeds $1 million. This investigation was conducted jointly by OIG and the
FBI.


   Ralph Pena, a former loan officer for Main Street Mortgage Services in
Saddlebrook, NJ, pled guilty in federal court to submitting false statements to the
government. Pena agreed that his actions caused damages to the FHA Single
Family Mortgage Insurance Program ranging from $500,000 to $800,000. This
was an OIG/FBI investigation.

    Alexander Ajemian, controller at MCA Financial Corporation in Detroit, MI,
pled guilty to one count of mail fraud and one count of false statements. MCA
Financial, which operated through two subsidiaries, Mortgage Corporation of
America and MCA Mortgage Corporation, a HUD direct endorsement lender, also
owned an identity of interest HUD approved nonprofit, known as Detroit Revitaliza-
tion, Inc. Ajemian participated in a scheme by lying to investors, the Securities
and Exchange Commission, and HUD by misrepresenting the mortgage companys
financial position and preparing fraudulent financial statements. The State of
Michigan has also filed state criminal charges against Ajemian and the chief
financial officer, the president, and the chairman of MCA Financial for securities
fraud. This was an OIG investigation.

    In Atlanta, GA, Lupita McCarthy pled guilty in federal district court to one
count of conspiracy to defraud HUD. McCarthy was previously charged for her
role as a money launderer in a property flipping scheme. She set up a corporation
named Sea Breeze Design that submitted invoices to a closing attorney that
detailed repairs and renovations that had allegedly been done on the flipped
properties. To disguise the flips, most of the fraudulently obtained loan proceeds
were paid to Sea Breeze Design so that huge amounts of money would not be
shown as cash to the sellers. In reality, Sea Breeze Design was just a shell
corporation used to launder the loan funds and disburse the flip proceeds to all of
the co-conspirators. No actual construction or design work was ever done to
flipped properties by Sea Breeze. The investigation was conducted by the FBI and
OIG.


    Five former loan officers of Mortgage Capital Resource Corporation in Las
Vegas, NV, were indicted by a federal grand jury on a total of 20 counts of con-
spiracy, false statements, and false use of a Social Security number in a scheme
to defraud HUD in the origination of FHA loans. The loan officers allegedly cre-
ated false pay stubs, W-2 forms, credit reports, and verifications of employment,
along with false employers, income, and assets. An investigation by OIG and the
FBI disclosed 25 fraudulent loans originated by the 5 loan officers valued at
$2,661,263 with a loss, to date, of $1,175,845.

    A grand jury returned a third superseding 51-count indictment against 4
individuals for their part in a property flipping scheme. The first individual would
allegedly acquire properties in the Denver, CO Metro area, using his mother,
who was one of the four indicted, as the real estate agent. Together they would
obtain strawbuyers to purchase the properties, providing false information so that
the strawbuyers would qualify for the loans. The other two individuals, one of
whom provided false income tax returns, income information, and W-2s for
strawbuyers, also allegedly acted as a strawbuyer in a number of the purchases.
Once the strawbuyers purchased the properties, the first individuals mother
would receive a large real estate commission. This first individual would then file
false releases of deeds indicating that his mortgages were paid off and that he
owned the properties free and clear. He would then obtain another loan from a
different mortgage company via another strawbuyer and begin the process all over
again.
    Charges against the four individuals included conspiracy to commit offenses,
mail fraud, wire fraud, making false statements in order to obtain HUD insured
loans, use of an unauthorized access device, conspiracy to launder money and
engage in monetary transactions in property derived from specified unlawful
activity, and fraudulent use of a Social Security number. This investigation was
conducted by the OIG, FBI, and IRS.
     Two Rochester, NY individuals were indicted by a federal grand jury on
conspiracy to defraud the government and providing false statements. These
charges stem from a 2-year investigation conducted by the FBI and the OIG Offices
of Investigation and Audit into fraud in the HUD Section 203(k) Rehabilitation
Home Mortgage Insurance Program. The first individual purchased 74 homes in
the Rochester area and received 203(k) rehabilitation funds to finance their
purchase and rehabilitation. She and others conspired to steal the rehabilitation
funds by either not completing the specified work on the houses or doing shoddy
work with inexpensive materials. The second individual, who was the property
inspector, signed off on the fund drawdowns, certifying that the work was com-
pleted in an acceptable manner. To date, 71 out of the 74 homes are in default. Of
those 71, HUD has paid claims on 67 with an estimated loss of $3.6 million.

    A Cleveland, OH general contractor for Faith Housing, a HUD approved
nonprofit, and a Section 203(k) consultant were charged in an eight-count indict-
ment with conspiracy and making false statements to HUD. While the consultant
purportedly falsified certifications for repairs on 203(k) escrow draws, the gen-
eral contractor may have been responsible for arranging for subcontractors to
actually perform the work for 40-50 percent less than what was obligated in the
203(k) rehabilitation escrow. The general contractor then allegedly ensured that
Faith Housing would receive the escrowed figure by submitting fraudulent draw
requests for the entire amount. Faith Housing defaulted on 14 properties in the
Northern District of Ohio, with losses to HUD estimated at $500,000. This was an
OIG investigation.


     In Carlsbad, CA, the founder and director of PinnFund, USA, a HUD ap-
proved direct endorsement lender, was indicted on 20 counts of interstate trans-
portation of stolen property, aiding and abetting, and false entries, reports, and
transactions. In 19 of the counts, the director is charged with unlawfully transfer-
ring approximately $17.3 million from PinnFund, USA, to Barbados for the
eventual benefit of his girlfriend. In one count, he is charged with causing a false
financial statement to be filed with HUD. The director allegedly falsely reported
to HUD that the funds used to support PinnFund, USAs direct endorsement appli-
cation were personal funds. In fact, in 1998 Grafton Partners lent the funds to
PinnFund, USA.
     The director is simultaneously facing civil fraud charges filed by the Securi-
ties and Exchange Commission for allegedly defrauding investors of approxi-
mately $330 million. This civil case is considered one of the largest securities
fraud cases in San Diego County history, and involves issues that are related to
the criminal case. This was a joint investigation by the FBI, IRS Criminal Investi-
gations Division, and OIG.

     A Philadelphia, PA developer was indicted on seven felony counts of fraud
and false statements to HUD with regard to the origination of two FHA insured
mortgages. This joint investigation by the OIG Offices of Investigation and Audit
and the FBI developed evidence that the developer provided funds to two prospec-
tive FHA insured homebuyers, enabling them to obtain mortgages for which they
did not qualify. The developer concealed his financial assistance in these FHA
transactions by providing false gift letters purportedly from the prospective
          buyers relatives, when in fact the gifts came from him. Neither buyer would have
          had sufficient funds to close on these mortgages without the gifts. In one transac-
          tion, the developer also influenced FHA loan approval by causing a false residential
          lease to be submitted showing $900 per month in rental income. The face value of
          the two transactions is $232,000 plus default costs and fees. The investigation
          further disclosed that the developer sold more than 50 prefabricated homes
          insured by FHA. Approximately 50 percent of these loans are currently in default
          and/or some stage of foreclosure.

               A New Jersey real estate speculator was arrested and later extradited to New
          York following a sting operation by OIG Special Agents and Investigators from the
          State of New York, Office of the Attorney General, and the U.S. Probation
          Office. The speculator waived extradition and answered to a 23-count indictment
          by a grand jury of the County of New York. The grand jury accused the speculator
          of grand larceny in the second degree and real estate fraud. The speculator
          allegedly defrauded 9 investors out of more than $1 million in a real estate scam
          that used advertisements in the New York Times and other publications promising
          guaranteed rates of return of 30 to 70 percent. Beginning in 1997, the speculator
          duped investors by claiming that he could purchase homes from HUD and others,
          make cosmetic repairs, and then sell the homes at greatly inflated prices. He
          continued with the scam by claiming that he had a special relationship (broker)
          with HUD and already had buyers for the repaired homes lined up and approved.
          The investors were told that the money they invested was being used to rehabilitate
          the homes and that the closings on the properties were imminent. Investors who
          complained and demanded their money back were given worthless promissory
          notes or checks that bounced. The speculator further perpetrated the ruse by
          filing documents with the State of New York for a company named HUD, enabling
          him to cash checks that investors had made payable to HUD. This investigation
          began with a complaint made to the State of New York, Office of Attorney Gen-
          eral.

              A Long Island, NY real estate broker was indicted on charges of conspiring
          to defraud HUD in connection with a $1.2 million 203(k) mortgage fraud scheme.
          The broker acted as a middle man and flipped properties to a real estate investor.
          The properties were sold at falsely inflated prices, with the investor providing
          false income and asset information to HUD. Eleven properties have either been
          foreclosed or are in foreclosure. HUD losses are expected to reach $1 million.


Community Planning and Development Programs
               The Office of Community Planning and Development (CPD) administers
          programs that provide financial and technical assistance to states and communi-
          ties for activities such as community development, housing rehabilitation, home-
          less shelters, and economic job development. Grantees are responsible for
          planning and funding eligible activities, often through subrecipients. OIG investiga-
          tions of these programs disclosed cases of program fraud, wire fraud, theft, and
          false claims.
     Nicholas Tontodonati, a former housing inspector with the City of Paterson,
NJ, pled guilty to executing a scheme to defraud the City of HOME (Rental Reha-
bilitation) Program funds and causing wire fraud. Tontodonati used his position as
a housing inspector to allow family members to be part of a Rental Rehabilitation
Program run by the City. Not all the money the City received through HUD was
used to pay contractors and others for their work on various properties. Instead,
the invoices submitted to the City exceeded the actual amount paid to the contrac-
tors, and Tontodonati and his family members kept the excess funds. This was a
joint investigation by OIG and the FBI.

    Clark Dale Koerner, former low-income rehabilitation manager for the
Valley of Imperial Development Alliance (VIDA) in El Centro, CA, pled guilty to
two counts of intentional misapplication of federal program funds. Koerner
submitted false claims, fraudulently verified work completed by contractors, and
diverted HUD Community Development Block Grant (CDBG) funds, which had
been earmarked for the rehabilitation of homes owned by low-income individuals.
    Koerner accepted applications from low-income homeowners who wished to
rehabilitate their properties, inspected the properties, estimated repairs, and
obtained bids from contractors to make the repairs. All rehabilitation work was
funded by the CDBG Program, which was administered by VIDA. A joint investiga-
tion by OIG and the FBI found that Koerner provided claims for reimbursement and
fraudulently verified that the work detailed on the claims was completed by
various contractors. As part of his scheme, Koerners identity of interest con-
struction company received approximately $105,000 in CDBG funds for work that
was substandard or incomplete. He also received approximately $65,000 in
kickbacks from various contractors for steering bids their way and approving
fraudulent claims. Koerner also diverted approximately $120,000 of CDBG funds
for personal expenditures.

    In Hackensack, NJ, an organizer of the Almighty Latin King/Queen Nation
(ALKQN) was arrested following a sting operation arranged by OIG Agents on
charges that he stole several U.S. Treasury checks from the mail while he was
employed by Praxis Housing Initiatives, Inc., as a residential staff member.
Praxis is a HUD funded social services housing agency that runs a hotel for
persons afflicted with AIDS. While employed by Praxis, the individual, acting in
concert with other ALKQN members employed by Praxis, stole several Social
Security checks and IRS refund checks. The loss is approximately $100,000. The
individual was made aware of the investigation by a corrupt New York State
Division of Parole Officer and fled from the Bronx, NY, to Lancaster, PA.
    Two additional ALKQN members and a female associate who accompanied
the organizer from Lancaster, PA, were also interviewed and identified by the
Bergen County Sheriffs Department Gang Intelligence Unit. One was deter-
mined to be a convicted felon who had served several years in state prison for
homicide. A full magazine of hollow point ammunition was found in their vehicle.
The Lancaster Sheriffs Department was contacted when the female associate
displayed a pistol permit which had been issued by that agency. The Sheriffs
Department advised that her permit would be revoked based on her association
with known ALKQN members and convicted felons.
              This was a joint investigation by the HUD and Social Security Administration
          OIGs, Postal Inspection Service, and the Secret Service.




Other Significant White Collar Investigations

              During this reporting period, other significant white collar OIG investigations
          resulted in one guilty plea and one sentencing.

              Following an OIG investigation, Daniel D. Asera, the former executive direc-
          tor of the Greater Nevada Fair Housing Council in Reno, NV, pled guilty to one
          count of theft of federal program funds. This nonprofit office operated under a
          $252,863 grant from HUD. It served rural Nevada in providing support and infor-
          mation regarding both federal and state laws prohibiting housing discrimination.
          From July 1998 to March 1999, Asera embezzled $39,630 by making unautho-
          rized charges to 3 credit cards he obtained in the name of the nonprofit. He
          charged hotel rooms and meals, took cash advances at local area casinos, and
          made charges for pornographic Internet sites. He also hosted two retreats at
          Squaw Valley for his college fraternity and alumni from the University of Califor-
          nia at Berkeley and paid for the hotel rooms and meals with the charge cards.

               Jerry Wernard Williams, a former employee of the HUD Beaumont, TX
          Office Fair Housing and Equal Opportunity, was sentenced to 6 months incarcera-
          tion and 2 years supervised release, and ordered to pay $1,400 in court assess-
          ment fees and $1,268 in restitution. The sentencing stemmed from an OIG investi-
          gation which disclosed that Williams submitted fraudulent travel vouchers while
          engaged in official government business. Specifically, between October 1996 and
          January 2000, Williams created and submitted 14 fraudulent hotel receipts. Some
          of the receipts included times when he stayed with friends at their homes, while
          others were for hotels where he did not actually stay.



Violent Crime in Public and Assisted Housing

              As part of their regular workload, OIG Special Agents investigate violent
          crime and drug trafficking in public and assisted housing. These investigations are
          part of an initiative known as Operation Safe Home. The investigations are
          conducted in coordination with various federal, state, and local law enforcement
          task forces. In addition to law enforcement personnel from states, counties, cities,
          and housing authorities, the following federal agencies are primary partners in
          Operation Safe Home investigations: the Federal Bureau of Investigation (FBI),
          the Drug Enforcement Administration (DEA), the Bureau of Alcohol, Tobacco,
          and Firearms (ATF), the U.S. Secret Service (USSS), the U.S. Marshals Service
          (USMS), the U.S. Postal Inspection Service (USPS), the U.S. Customs Service
(USCS), the Immigration and Naturalization Service (INS), the Internal Revenue
Service (IRS), and the Department of Justice (DOJ).
    Following are some of our recent significant investigative results in the violent
crime area.

     Thirty individuals were sentenced in federal court for distributing crack
cocaine at the Bel Air Gardens public housing development in Cleveland, OH.
The combined prison time totaled 172 years, while the average sentence was over
5 years with 5 years supervised release. Fifty-three of the 60 defendants in this
case have been sentenced to 1 to 11 years in federal prison. Five of the remaining
seven defendants have pled guilty and are awaiting sentencing.
     Bel Air Gardens and Riverside Park were the most drug infested properties
in West Cleveland before this Safe Home investigation began in 1999. Crime
statistics for Riverside Park disclosed that, since the Safe Home initiative, calls to
local Police have been reduced by 30 percent and drug arrests have declined by 67
percent. In addition, surveys have revealed that residents recognize and appreciate
the positive effects of this investigation. The investigation was conducted by the
OIG, DEA, FBI, Cuyahoga County Sheriffs Office, and the Cuyahoga Metropolitan
Housing Authority Police.

     The final sentencings resulting from an Organized Crime Drug Enforcement
Task Force investigation, known as Operation Tiger Paw, took place in Louis-
ville, KY, during this reporting period. The defendants were charged with numer-
ous counts of trafficking in crack cocaine in public housing developments, con-
spiracy to possess, sale of crack cocaine, and aiding and abetting in the possession
and sale of crack cocaine. Derrick Lee Gaddie was sentenced to 151 months
confinement, 4 years supervised release, and a $2,000 special assessment.
Jancinto T. Richardson received 60 months confinement, 3 years supervised
release, and a $1,600 special assessment. Kerry Wayne Richardson received 24
months confinement, 3 years supervised release, and a $200 special assessment.
Danielle Mattingly was sentenced to 6 months home confinement, 3 years proba-
tion, and a $400 special assessment. This Task Force investigation was conducted
by the OIG, FBI, and the Campbellsville Police Department.

     Efforts by the Albuquerque, NM Operation Safe Home Task Force during
this reporting period resulted in two sentencings, two indictments, seven prosecu-
tions, and eight arrests. Charlotte A. Griego was sentenced to 7 years in federal
prison and 3 years supervised probation for conspiracy to distribute crack cocaine
and carrying a firearm during a drug trafficking crime in public housing.
Guillermo Molina pled guilty in U.S. District Court to 1 count of conspiracy to
distribute crack cocaine and 1 count of conspiracy to distribute heroin in public
housing, and was sentenced to 37 months in prison and 36 months probation.
Since Molina is a Mexican National, he was also ordered that, upon his release
from prison, he is not to reenter the United States without prior approval from the
Attorney General.
     Two individuals were indicted on charges of selling narcotics to Task Force
members in an area comprised of assisted housing complexes. In addition,
Michelle A. Montano pled guilty to conspiracy to distribute crack cocaine and
carrying a firearm during and in relation to a drug trafficking crime in public
housing. Juan Amores pled guilty to possession with intent to distribute less than
50 grams of crack cocaine. He was also convicted in federal court for possession
with intent to distribute more than 50 grams of crack cocaine, conspiracy to
distribute over 50 grams of crack cocaine, and carrying a firearm during and in
relation to a drug trafficking crime in public housing. Martin Molina pled guilty
to one count of unlawfully, knowingly, and intentionally possessing with intent to
distribute more than 500 grams of cocaine in public housing. Emad Al-Mosawi
pled guilty to one count of intent to distribute crack cocaine and one count of
knowingly possessing a firearm in furtherance of a drug trafficking crime.
    The eight arrests resulted in the seizure of $4,500 worth of narcotics, several
handgun magazines, 2 handguns, an assortment of ammunition, and $3,350 in
cash. This Task Force is comprised of the OIG, the Westside and Eastside Narcot-
ics Units of the Albuquerque Police Department, and the Bernalillo County
Sheriffs Office.

    As a result of initiatives by the Houston, TX Operation Safe Home Task
Force during this period, 4 individuals were sentenced, 8 were indicted, and 487
were arrested in various public housing developments and Section 8 complexes.
Charges included felony possession with intent to distribute crack cocaine, con-
spiracy to possess with intent to distribute, possession of a controlled substance,
felony warrants, evading arrest, parole violations, theft, trespassing, felony
burglary, aggravated sexual assault, and terrorist threats. Sentences totaled 363
months in prison and 8 years supervised release. During these operations, Task
Force members seized a total of 1,260 grams of crack cocaine, 3,644 grams of
marijuana, 2,754 grams of codeine, 63 grams of Xanax, 13 grams of Vicodin,
small amounts of heroin, cocaine, PCP, and ecstasy, $4,068 in cash, and 8 weap-
ons. This Task Force is comprised of OIG, the Houston Police Department, and
the Harris County Constables Office.

     Operation Isolation is a joint effort by the OIG, USMS, Kansas Bureau of
Investigation, Topeka Police Department, FBI Violent Crime Task Force, and the
Kansas National Guard Counter Drug Operations Unit. The operation was
initiated to identify individuals who were distributing drugs in the Deer Creek and
Pine Ridge public housing developments and the Highland Park assisted housing
development in Topeka, KS. As a result of Task Force efforts during this report-
ing period, Bobby Lawayne Evans pled guilty to distributing 9 grams of cocaine
and 39 grams of marijuana with a total street value of over $2,800, and was
sentenced to 37 months in prison and 48 months supervised release. He was also
ordered to attend a substance abuse program.
     Also as a result of this investigation, Acie Evans pled guilty to 1 count of a 5-
count indictment for distributing 24 grams of cocaine with a street value of about
$4,400, was sentenced to 46 months in prison and 48 months supervised release,
and ordered to attend a substance abuse program. Evans is the 6th person out of
21 individuals previously arrested during Operation Isolation. In addition, three
individuals were evicted from public housing for drug related activities, violent
crime, or felony conviction. Three other individuals were also served with
restraining orders banning them from public housing premises due to criminal
activity.
     A federal jury in Richmond, VA, found Beverly A. Claiborne, Jr., guilty of
murder and various narcotics related offenses, including conspiracy, possession
with intent to distribute crack cocaine and heroin, murder in aid of racketeering
activity, use of a firearm during a crime of violence, and murder during a crime
of drug trafficking. Evidence disclosed that Claiborne shot one of his heroin
customers, whom he suspected of being a police informant, five times in the head
in the front yard of a South Richmond public housing residence in 1998. Claiborne
was identified as a member of the 17th Street Boys gang that distributed drugs and
was responsible for widespread violence in South Richmond in the 1990s. Al-
though most of the older gang members are currently incarcerated, prior to their
incarceration they were developing the younger men in the neighborhood into
narcotics dealers.
     Tabari Riley, a Young Guns gang member, pled guilty in federal court to
possession with intent to distribute crack cocaine. Riley was previously arrested
by for selling 62 grams of crack cocaine during a controlled buy which took place
in the vicinity of Ruffin Road Apartments, a federally assisted complex. A search
incident to the arrest resulted in the seizure of $10,000 in cash and additional
illegal drugs.
     Pearl White, a Jamaican National, pled guilty in federal court to possession
with intent to distribute cocaine hydrochloride. An investigation found that White
frequently transported cocaine from New York to Richmond for sale by a particu-
lar dealer in the Hillside Court public housing complex.
     These actions resulted from efforts by the Operation Southside Crackdown
Task Force, which is comprised of the OIG, DEA, FBI, Virginia State Police, and
the City of Richmond Police Department.

    Patricia Hayes was sentenced to 12 months in federal prison and 36 months
probation, and ordered to continue drug testing. The sentencing follows Hayes
guilty plea to maintaining a premise for the unlawful storage/distribution/use of
crack cocaine. Hayes was previously arrested by members of the Project Safe
Home Task Force. This Task Force is a multi-agency entity made up of the OIG,
DEA, FBI, the U.S. Attorneys Office, the City of Camden, NJ Police Depart-
ment, and the Camden County Prosecutors Office, tasked by the Department of
Justice to investigate instances of widespread illegal narcotics distribution in
Camdens public and assisted housing. Specifically, Hayes was arrested for her
involvement in the Lost Boys crack cocaine distribution network which operated in
and around the Peter J. McGuire public housing development.
    Also as a result of operations by the Project Safe Home Task Force, Devin
Prichett was sentenced for his role in a crack cocaine distribution organization
that was based in the same development. Prichett, who previously pled guilty to
conspiracy to distribute crack cocaine, was sentenced to 15 months incarceration
and 5 years supervised release, was fined $1,000, and ordered to pay a $100
special assessment.

    Dereck Farmer pled guilty to distributing crack cocaine in Key West, FL
Housing Authority developments. Farmer was one of 67 defendants who were
arrested in December 1999 for selling crack cocaine to undercover Officers and
Agents. Farmer was sentenced to 1 year imprisonment and 1 year probation. The
investigation was conducted by OIG, DEA, and the Key West Police Department.
     In Greensboro, NC, Roy William Lee pled guilty to one count of narcotics
distribution and one count of maintaining a dwelling for drug distribution. Lee
supplied a HUD subsidized Section 8 housing complex with drugs. The guilty plea
stemmed from Safe Home initiatives by the Greensboro Operation Safe Home
Task Force, made up of the OIG, FBI, Greensboro Police Department, and the
North Carolina State Bureau of Investigations. In addition to the plea, three
individuals were arrested. Two were charged with possession with intent to
distribute cocaine, possession of cocaine, and sale and delivery of cocaine for
supplying cocaine to Greensboro public housing developments. The third was
charged with federal narcotics and weapons violations. This arrestee has been
linked to an Organized Crime Drug Enforcement Task Force investigation in
Greensboro. In total, the Task Force seized 15 ounces of cocaine, $22,000 in
cash, and 1 vehicle.

     Sylvan Perry was sentenced to 60 months in federal prison for distributing
crack cocaine. During a 2-month undercover Safe Home initiative, OIG and the
DEA identified Perry as a main source of crack cocaine to various Section 8
apartments in Oklahoma City, OK. Perry was arrested after selling over 23
grams of crack cocaine to undercover Task Force Agents. In addition, over 300
grams of marijuana, 30 grams of cocaine, 1 loaded pistol with laser sights and a
filed down serial number, 2 digital scales, $7,600 in cash, and 1 vehicle were
confiscated.

    Operations by the OIG, FBI, and the Newport, RI Police Department led to
the sentencing of Isaac Platts to 100 months incarceration and 48 months proba-
tion following his guilty plea to 4 counts of distribution of cocaine base. During this
reporting period, Task Force investigations targeted narcotics traffickers operat-
ing in the Tonomy Hill, Park Holm, Chapel Hill, Festival Field, Bayside Village,
and Rolling Green public housing developments. In addition to the sentencing, the
execution of 4 search warrants and 27 arrest warrants resulted in the seizure of 7
bags of marijuana, 2 bags of cocaine, 2 vehicles, and $450 in cash, along with the
arrest of 19 individuals on outstanding warrants.

    Forty-seven individuals who controlled the sale of crack, heroin, cocaine, and
marijuana in the Castle Hill public housing development in the Bronx, NY, were
indicted on charges of conspiring to distribute controlled substances in the devel-
opment. Following a 4-month undercover operation conducted jointly by the New
York City Police Departments (NYPD) Organized Crime Control Bureau, South
Bronx Narcotics Initiative, and the OIG, the individuals were identified as control-
ling a $1 million per year criminal enterprise in Castle Hill. Organized with
assigned lieutenants, enforcers, street dealers, stash house operators, and look-
outs that used handheld radios and bicycles, the subjects divided the 14 buildings of
the development into sections where specified drugs were sold.
    Castle Hill was one of the most drug plagued and crime ridden public housing
developments in New York City. Designated as Operation Good Neighbor, this
Operation Safe Home initiative was organized at the request of the NYPD to
identify the gang members and the leadership structure controlling the sale of
narcotics in the development.
    Two high ranking members of a local organized gang were indicted by a
federal grand jury on charges of possession of controlled, dangerous substances
and drug trafficking in and around the Haddington Homes public housing develop-
ment in Philadelphia, PA. The indictment is the result of an investigation, known
as Operation West One, by the Philadelphia Housing Drug Task Force which
includes OIG and local and public housing police.

     Special Agents from the OIG, DEA, FBI, ATF, and the Charleston, SC Police
Department arrested 19 individuals for distribution of heroin and crack cocaine.
The arrests were the result of a federal indictment that charged 47 individuals
with distributing heroin. In addition, state arrest warrants were issued against 20
people, charging them with distributing crack cocaine. The indictment was the
result of 1-1/2 year undercover investigation involving criminal activity in an
eastside Charleston neighborhood, which includes the Wraggsborough Homes,
Wraggsborough Extension, and Meeting Street Manor public housing develop-
ments. The investigation was initiated after numerous complaints were received
from residents about drug dealing. The residents reacted positively to the opera-
tion and openly welcomed law enforcement into the community; they were
thankful that the dealers were finally being removed from the community.
     Heroin purchased during the investigation that was tested at a DEA laboratory
proved to be 90 percent pure, which is considerably higher than what is usually
sold by street level dealers. This high grade of purity has also been linked to the
rise in heroin overdose deaths in the State of South Carolina. Also during the
investigation, the execution of 5 federal search warrants resulted in the seizure of
over 1/4 key of heroin, 3 pounds of marijuana, 4 vehicles, 5 shotguns, 2 handguns,
and approximately $50,000 in cash.

    One person was indicted for selling over 10 grams of crack cocaine to an
undercover OIG Agent in a HUD subsidized apartment complex. The indictment is
the result of a 9-month Safe Home initiative targeting drug traffickers in subsi-
dized housing in the Kansas City, MO area.

    As part of Operation Street Sweeper, the Manchester, NH Police Depart-
ment and the OIG arrested 33 individuals. Operation Street Sweeper is a multi-
agency narcotics investigation which targets narcotics street level drug dealing.
The arrests were the result of dozens of undercover operations. The arrestees
were charged with federal and state narcotics violations, state firearms viola-
tions, and conspiracy to commit murder. Many of those arrested resided in
densely populated Section 8 neighborhoods.

    Safe Home Task Force members arrested 11 of the 24 individuals who were
indicted for possession of cocaine with intent to distribute in Savannah, TN public
housing developments. The arrests were the result of a 6-month undercover
operation conducted by OIG, the 24th Judicial District Drug Task Force, the
Tennessee Highway Patrol, Tennessee Bureau of Investigation, and the Savannah
Police Department. One of the arrestees was in possession of $1,200 in cash, 4
grams of crack cocaine, and 1 pistol. Thirteen other individuals are still fugitives.
    During this reporting period, OIG, the Massachusetts State Police, the Bristol
County Sheriffs Office, and the Massachusetts Department of Corrections
conducted several Safe Home operations at public and assisted housing develop-
ments and Section 8 neighborhoods in New Bedford, Fall River, Taunton,
Somerset, and Dartmouth, MA. A total of 60 people were arrested on charges
including drug possession, delivering drugs to a prisoner, conspiracy to traffick in
cocaine, cocaine possession, rape, kidnapping, assault and battery with a danger-
ous weapon, disorderly conduct, receiving stolen property, larceny, home inva-
sion, public assistance fraud, and conspiracy to commit Racketeer Influenced
Corrupt Organizations violations. One person was arrested on 1 outstanding
warrant from the State of Delaware for 27 counts of theft, 16 counts of forgery, 16
counts of conspiracy, and identity theft. The individual was also charged with
being a fugitive from justice.

    A multi-agency task force arrested the leader of the Santana Block Crips
street gang and 24 other co-conspirator gang members on federal drug possession
and distribution charges. The arrests were the culmination of a 2-year investiga-
tion into an organization that imported cocaine from Mexico and distributed it to
dealers in Texas, Illinois, Ohio, and other states. The leader of the Santana Block
Crips and his lieutenants were responsible for the interstate distribution of multi-
kilogram quantities of cocaine, as well as street distribution in the Los Angeles,
CA area. The gang laundered money through a business called OGs Paging
Network; a review of bank records showed that substantial cash deposits were
made to the companys bank account.
    In addition to the arrests, cash, drugs, 13 guns, including an AK-47 rifle, and
16 vehicles, valued at over $400,000, were seized. Over the 2-year span of the
investigation, 33 kilograms of cocaine and over $250,000 in cash were seized.
    The Task Force, known as the Compton Violent Inner-City Crime Task Force,
was a collaboration by the FBI, DEA, ATF, INS, OIG, USMS, IRS Criminal Investiga-
tion Division, and the Los Angeles Sheriffs Department.

    An OIG Agent and Officers of the Washington, DC Metropolitan Police
Department executed an arrest warrant at Langston Dwelling, a public housing
complex. One individual was arrested and charged with distribution of heroin.
The arrestee bought and sold heroin at Edgewood Terrace, another public housing
complex; he allegedly bought and sold the heroin on behalf of another person who
has been indicted. The Langston Dwelling investigation identified the largest
heroin ring in the District of Columbia. To date, 37 individuals have been arrested
and charged with various federal drug violations in this case. Several individuals
identified during the investigation will be included in a federal grand jury super-
seding indictment.

     The New Haven, CT Task Force arrested a total of 27 people during this
reporting period on a variety of charges, including conducting a prostitution ring,
criminal impersonation, assault, operating a drug factory, selling narcotics,
selling within 1,500 feet of a school, possession with intent to sell, and destruction
of evidence. The arrests took place in public and/or assisted housing develop-
ments, including the Quinnipiac Terrace, Farnam Courts, Prescott Bush-Mall,
Katherine Harvey Terrace, and Constance Motley developments. Task Force
members seized over $18,000 in cash, 238 grams of crack cocaine, 1,469 grams
of marijuana, 9 grams of heroin, 1 rifle, 1 shotgun, 1 Tec-9 weapon, 1 vehicle, 4
scales, 1 bullet proof vest, 4 crack pipes, ammunition, and drug packaging mate-
rials. This Task Force is made up of OIG, the Connecticut State Police, and the
New Haven Police Department.

    As part of the our Operation Safe Home activities targeting clandestine
methamphetamine labs around public and assisted housing in Tacoma, WA, the
Tacoma Police Departments Clandestine Methamphetamine Lab Unit (TPD) and
an OIG Agent conducted several initiatives during this reporting period. During
one effort, Task Force members served a search warrant at a residence next to
several single family residences receiving assistance, and seized equipment and
chemical precursors commonly used in the manufacturing of methamphetamine,
2 grams of pure methamphetamine, 7 handguns, and 1 illegally shortened 12-
gauge shotgun. Of the weapons seized, two had their serial numbers filed off and
two were stolen, including a .357 Magnum revolver which had been reported
stolen from a nearby Police Department in 1999. Two individuals were arrested
and charged with the unlawful manufacturing of a controlled substance with intent
to deliver and possession of a stolen firearm. Four people were arrested in
another initiative at public and assisted housing residences containing metham-
phetamine labs. A search revealed a large lab, including a 150-pound anhydrous
ammonia cylinder. This lab was located next to two apartment buildings where
several families receive HUD assistance. While farmers commonly use anhydrous
ammonia as a fertilizer, it is a gas that can be fatal if inhaled and can cause
severe burns. Officers also found eight hydrogen chloride gas generators, which
are used in the final stage of methamphetamine production.
    TPD and the OIG also combined forces with the Department of Corrections
(DOC) to proactively contact individuals who are on supervised release and are
suspected of selling or manufacturing methamphetamine. TPD and OIG assisted
DOC in contacting a subject on active supervision residing next to several families
on HUD assistance. The resident had been arrested in the past for the illicit
production of methamphetamine. DOC conducted a search of the residence and
located 1 gram of methamphetamine and 1 loaded semi-automatic pistol. The
offender faces state charges for unlawful possession of a controlled substance and
felon in possession of a firearm.

    Operations in Copiah County, Jackson, and Meridian, MS, resulted in the
arrest of two people for distributing drugs in and around areas of HUD subsidized
housing. In addition, a reverse undercover operation resulted in the arrest of 3
individuals and the seizure of 2 vehicles and $2,500 in cash. The sting was part of
an investigation related to the distribution of methamphetamine and cocaine from
Texas into areas of Mississippi public and assisted housing. These efforts were
carried out by OIG and DEA Agents, the Mississippi Highway Patrol, the Missis-
sippi Bureau of Narcotics, and the Jackson Police Department.

    OIG Agents and Officers from the Chicago, IL Police Departments Orga-
nized Crime Division executed a state search warrant at the Ogden Courts public
housing development and arrested two individuals for possession of a controlled
substance and the unlawful use of a weapon by a convicted felon. They seized 66
grams of crack cocaine, 1 loaded revolver, ammunition, drug paraphernalia, and
$200 in cash.

    OIG and DEA Agents purchased 1/4 pound of methamphetamine for $2,300
from an individual who lived in Stratford Square Apartments, a project-based
Section 8 complex in Omaha, NE. Three weeks later, the individual was arrested
with 1/2 pound of methamphetamine in his possession. A search of his residence
yielded another 1/2 pound of methamphetamine, $1,000 in cash, and an 8-ball
(about 4 grams) of cocaine.
    Also in this case, an investigation by the OIG, FBI, and the Omaha Police
Department identified numerous narcotics traffickers living in public housing.
One undercover operation involved the purchase of 1/2 pound of methamphet-
amine and 1 ounce of cocaine from a public housing resident. A purchase of 2
pounds of methamphetamine led to the identification of further co-conspirators
and 2 arrests. Search warrants yielded an additional 3 pounds of methamphet-
amine and 1 kilo of cocaine.
    Since the initiation of this investigation, $9,200 in cash, 2 handguns, 2 ve-
hicles, 2,067 grams of methamphetamine, and 1,130 grams of cocaine have been
seized. Eviction action is pending for one resident.
Chapter 5
       Regulations, Notices,
       and Other Directives
                              Making recommendations on legislation, regulations, and policy issues is
                          a critical part of the OIGs responsibilities under the Inspector General Act.
                          During this 6-month reporting period, the OIG reviewed 98 proposed HUD
                          regulations and notices. This Chapter highlights some of the issues raised by
                          OIG during these reviews.



                                      Regulations

Voluntary Conversion of        This proposed final rule requires public housing agencies (PHAs) to assess
     Developments from    the appropriateness of converting an entire development. The 1937 Housing
                          Act, as amended, and the HUD implementing regulations require every PHA to
  Public Housing Stock    conduct and submit to HUD an initial assessment, no later than October 1,
                          2001, to determine for each development whether the units should be con-
                          verted from the Low-Income Program to the Tenant-based Assistance Pro-
                          gram.
                               We nonconcurred with this proposed final rule because it did not comply
                          with authorizing legislation. The OIG was concerned about the assessment
                          limitation because although an entire development may be viable, a small
                          segment of units within a development may meet the conversion criteria and
                          will not be identified. These nonviable units within a development can acceler-
                          ate the deterioration of the entire development. Further, excluding the nonvi-
                          able units from the assessment can understate the number of units needing to
                          be converted to tenant-based assistance and the amount of resources HUD will
                          need to direct and control the conversion activity.
                               HUDs Office of Public and Indian Housing and the OIG mutually agreed
                          to revise the proposed final rule to notify PHAs that the assessment will
                          determine whether a development or a portion of a development needs to be
                          converted to tenant-based assistance.
                               The proposed final rule was published in the Federal Register and the rule
                          became effective on July 23, 2001.

Public Housing Capital        This proposed rule governs PHA use of HUD provided funds for either the
        Fund Program      development of new housing or the modernization of existing housing as well
                          as management improvement activities.
                              We nonconcurred with the proposed rule because HUD did not: conduct a
                          required risk assessment, establish controls for limiting new construction to
                          the replacement of units in PHA inventory, and prescribe a methodology for the
                          disposition of appropriated funds designated for emergencies but not used for
                          emergencies.
                              The Appropriation Act for FY 2001 provided about $3 billion for the
                          Capital Fund subject to HUDs publishing regulations containing controls to
                          mitigate any risks before the funds are obligated and expended. HUD obligated
                          the $3 billion to PHAs. However, HUD did not conduct a risk assessment and
                          the proposed regulation did not contain controls to mitigate the risks to the
                          effective, economical, and efficient expenditure of the funds by PHAs for
                          development, modernization, and management activities.
                                     Section 9(g) of the 1937 Housing Act stated that a PHA may not use funds to
                                construct new units if the construction would result in a net increase from the
                                number of public housing units owned, assisted, or operated by the PHA on Octo-
                                ber 1, 1999. HUD did not prescribe in the proposed regulation or in existing
                                regulations and handbooks any methodology for determining the number of units in
                                a PHA inventory at October 1, 1999. Consequently, the Department may authorize
                                the construction of new units in excess of the unit limitation and the financial
                                assistance normally associated with low-income housing.
                                     Section 9(k) of the Act states that HUD shall set aside not more than 2 percent
                                of the appropriation for an emergency reserve, and not more than $25 million can
                                be used in succeeding years. HUDs proposed regulation did not prescribe a
                                methodology for the disposition of appropriated funds designated for emergencies
                                but not used for emergencies. A potential consequence of the lack of a formal
                                methodology for processing the unobligated funds is that the funds will remain
                                idle for a prolonged time, losing their purchasing power.
                                     The Office of Public and Indian Housing is considering OIGs nonconcurring
                                comments. The proposed rule had not been issued at the close of this semiannual
                                reporting period.

Resident Participation in     This proposed rule would recognize the importance of resident involvement in
      Section 8 Housing   creating a positive living environment and in actively participating in the overall
                                mission of public housing. The proposed rule was to implement sections 20 and 34
                                of the 1937 Housing Act, as amended.
                                     We nonconcurred with the proposed rule because HUD did not conduct the
                                required risk assessment, and the rule contained requirements conflicting with
                                the provisions in the statute. Additionally, certain terms needed to be defined in
                                the rule so that the prescribed controls will be interpreted by PHAs as HUD
                                intended.
                                     The Office of Public and Indian Housing and OIG mutually agreed to the
                                revision to the proposed rule and on the need to conduct a risk assessment. The
                                proposed rule, after revision, will contribute to achieving HUDs stated goal of
                                promoting housing stability, self-sufficiency, and asset development of families and
                                individuals.
                                     The proposed rule is being revised and had not been issued at the close of this
                                semiannual reporting period.


                                                Notices

 Program Requirements         This Notice would provide changes to the application procedures, rating
for the Sections 202 and criteria, and selection process for Sections 202 and 811 Capital Advance Pro-
     811 Capital Advance grams.  The Notice also provides minority business enterprise goals and guidance
                         on the Fair Housing and Equal Opportunity application processing.
               Programs       We nonconcurred with this Notice because HUD had not performed a front-
                                end risk assessment, or developed adequate rules, regulations, and controls for a
                                new, complex financing structure. This financing structure would allow mixing
                                Sections 202 and 811 funds with other sources of funds for project financing. HUD
                                had not developed procedures for reviews, underwriting, or mixed-finance
                                projects, making this concept inherently risky.
                                    We recommended that HUD perform a front-end risk assessment and develop
                                rules and regulations, as well as a legal and programmatic framework, for mixed-
                                financing prior to selecting or approving projects. We also recommended that the
                                Notice be revised to include clear instructions on the intended financing structures
                                and controlling provisions.
                                    The Department revised the Notice to address our concerns and agreed to
                                perform a risk assessment before any funds were committed. The Notice was
                                issued on July 2, 2001.

  PHA Plan Guidance;                 This proposed Notice would allow a PHA to obligate and expend up to 50
Further Streamlining of         percent of its Capital Funds before HUD approved both the PHAs annual and 5-
                                year spending plans. HUD allocated Capital Funds to PHAs for rehabilitating
     Small PHA Plans;
                                existing housing and building replacement units. Each year, PHAs submit annual
      Partial Release of        and 5-year plans specifying the work items to be funded. HUD determined that
       Capital Formula          PHAs are not spending their Capital Funds in a timely manner, resulting in
Funding; Sanctions for          reduced purchasing power, and, according to statutory requirements, subjecting
        Noncompliance           the funds to recapture. To accelerate obligations and expenditures, HUD decided to
                                authorize PHAs to obligate and spend the funds before HUD approved the PHA
                                annual and 5-year plans.
                                     We nonconcurred with this proposed Notice because it would cause PHAs to
                                incur approximately $1.5 billion in ineligible obligations and expenditures. The
                                Offices of Public and Indian Housing and Inspector General mutually agreed to
                                enhancements for the proposed Notice that accommodated HUDs policy for
                                accelerating spending of the Capital Funds while at the same time ensuring the
                                funds are properly spent. The Notice was amended to reflect that each PHA is
                                eligible to obligate 50 percent of the annual Capital Fund allocation for work items
                                in the HUD approved PHA 5-year plan, prior to HUDs reviewing, amending, and
                                approving the PHAs current annual plan.
                                     The Notice was issued on August 2, 2001.

 Section 8 Project-Based      This proposed Notice was to update existing guidance relating to Rent Compa-
Rent Adjustments Using    rability Studies (RCS) for Section 8 properties that utilize the Annual Adjustment
                          Factor (AAF) as the method of rent adjustment.
 an Annual Adjustment
                              In 1997, the Congress passed and the President signed the Multifamily
                   Factor Assisted Housing Reform and Affordability Act (MAHRA) that dramatically
                                altered the way in which expiring project-based Section 8 contracts are renewed.
                                One of the primary changes made by MAHRA was the requirement that projects
                                must conduct an RCS to assure that Section 8 contracts are not renewed at rents
                                that exceed comparable market rents for the area.
                                     Many project owners, who have not yet renewed under MAHRA and who
                                utilize the AAF as the method of rent adjustment, have requested that HUD permit
                                a 5-year RCS to be used for AAF properties. Owners held that an annual RCS was
                                costly and unnecessary. HUD was proposing to make such a change by replacing
                                the annual RCS with an inflation adjusted RCS.
                                     We nonconcurred because using an inflation adjusted rent as the maximum
                                allowable rent no longer provides the test of comparability to market rents that is
                                required.
                                     After consultation with OIG and other HUD offices, the Department is now
                                considering other options.
                                 The Notice had not been issued at the close of this semiannual reporting
                             period.

 Close Out of Turnkey    This proposed Notice would terminate the Turnkey III Homeownership
   III Homeownership  Opportunity Program. PHAs would be required to determine whether each unit
             Program has a buyer residing in the unit with the financial capacity to meet the contractual
                             terms of the Turnkey III Program. When the PHA determines the potential buyer
                             is not qualified, the unit will be converted from the Turnkey III Program into a
                             unit in the Low-income Housing Program.
                                 We nonconcurred with this proposed Notice because the Department has not
                             decided on the methodology for counting the number of units in the PHA inventory
                             at October 1, 1999. Section 9 of the 1937 Housing Act, as amended, prohibits a
                             PHA from constructing any new units except as replacements for units in the
                             inventory at October 1, 1999. The Department has a number of options for
                             determining the unit count at October 1, 1999. When the Department evaluates
                             the PHA request to convert one or more units from the Turnkey III Program to the
                             Low-income Program, a determination as to the number of units owned by the
                             PHA at October 1, 1999, should be part of the evaluation process, but cannot occur
                             without the methodology for determining the number of units being established.
                             After HUD establishes the methodology for determining the number of units in the
                             inventory, the methodology should be incorporated into the conversion review
                             process.
                                 The Office of Public and Indian Housing is considering OIG comments. The
                             Notice had not been published at the close of this semiannual reporting period.


                                    Mortgagee Letter

       Clarification of           This proposed Mortgagee Letter would clarify the requirements that new
     Requirements for        nonprofit applicants must meet to participate in FHAs Single Family Nonprofit
Nonprofit Participation      Programs, including discounted purchases of HUD homes, FHA insured financing,
                             and down payment or secondary financing assistance.
in Single Family FHA              We did not agree with the proposed Mortgagee Letter that experience with
              Activities     group homes, homeless shelters, or housing counseling activities demonstrated
                             that an organization had the financial and administrative capacity to operate a
                             homeownership program. We did not believe there is a sufficient correlation
                             between these type activities and having knowledge of housing development
                             experience, such as managing rehabilitation, purchasing and selling properties,
                             etc. Also, the Mortgagee Letter should state that HUD would not approve nonprofit
                             entities whose entities have been assumed within the past 2 years by another entity
                             and/or individuals. This is one method that has recently come to our attention to
                             circumvent HUDs 2-year requirement of having 501(c)(3) IRS tax-exempt status.
                                  The Office of Housing agreed with our comments and the Mortgagee Letter
                             had not been issued at the close of this semiannual reporting period.
                   Notice of Funding Availability (NOFA)

Funding Availability for     This NOFA would announce that PHAs are eligible to compete for $25 million
 the Family Unification  in housing rental assistance for the Family Unification Program. This program
              Program    provides financial assistance to families for whom the lack of adequate housing is
                               a primary factor in the separation, or the threat of imminent separation, of
                               children from their families.
                                    We nonconcurred with this proposed NOFA because it proposed awarding
                               assistance in excess of the authorized budget contrary to the requirement in
                               section 422 of Public Law 106-377. This Public Law mandated that no part of the
                               appropriations shall be available for any activity in excess of the amount set forth
                               in the budget estimate submitted to the Congress. HUD sent to the Congress a
                               budget estimate of $11,466,000 for the Family Unification Program. The proposed
                               NOFA anticipated expending $13,534,000 in excess of the amount budgeted (pro-
                               posed NOFA funds of $25 million minus the budget authority of $11,466,000).
                                    The Office of Public and Indian Housing agreed only to provide assistance
                               equal to the budget estimate of $11,466,000. The Office of Public and Indian
                               Housing actions promoted compliance with the budgeting process.
                                    The NOFA was published on July 11, 2001.
Chapter 6
              Audit
            Resolution
                                In the audit resolution process, the OIG and HUD management come to an
                            agreement as to the needed actions and timeframes for resolving audit recom-
                            mendations. Through this process, we hope to achieve measurable improvements
                            in HUD programs and operations. The overall responsibility for assuring that the
                            agreed upon changes are implemented rests with HUD managers. This Chapter
                            describes some of the more significant pending issues where resolution action is
                            delayed. It also contains a status report on HUDs implementation of the Federal
                            Financial Management Improvement Act of 1996. In addition to this Chapter on
                            audit resolution, see Appendix 2, Table A, Audit Reports Issued Prior to Start of
                            Period With No Management Decision at 9/30/01, and Table B, Significant
                            Audit Reports Described in Previous Semiannual Reports Where Final Action
                            Had Not Been Completed as of 9/30/01.


                                    Delayed Actions

 Audits of HUDs FY      First issued June 30, 1992. HUD has been preparing financial statements
   1991 through 2000 under the requirements of the Chief Financial Officers Act for 10 fiscal years,
 Financial Statements beginning with Fiscal Year (FY) 1991. Various internal control weaknesses have
                            been reported in these audits. In our most recent audit effort for FY 2000, we
                            were able to express an unqualified opinion on HUDs principal financial state-
                            ments.
                                The results of our FY 2000 report on internal controls were consistent with
                            results reported in Semiannual Reports from prior years. While there has been
                            progress, material weaknesses continue with respect to the need to: (1) complete
                            improvements to financial systems; (2) ensure that subsidies are based on correct
                            tenant income; and (3) improve monitoring of housing subsidy determinations. In
                            addition to the weaknesses that continue to exist from prior years, our report also
                            includes a material weakness about the need to enhance FHAs information
                            technology systems to more effectively support its business processes as well as
                            data integrity. Corrective action plans to resolve these issues have continued to
                            change over the last decade.

  Audits of FHAs FY       First issued March 27, 1992. FHA has been preparing financial statements
1991 through FY 2000  for 10 years under the Chief Financial Officers Act, beginning with FY 1991. The
 Financial Statements audit of FHAs FY 2000 financial statements discussed problems similar to those
                            that have been reported since the audit of FHAs FY 1991 financial statements.
                            The audit continues to recognize that FHA needs to: (1) improve its information
                            technology (primarily accounting and financial management systems) to more
                            effectively support FHAs business processes; (2) place more emphasis on early
                            warning and loss prevention for single family insured mortgages; and (3) monitor
                            and account for its single family property inventory. A weakness reported since
                            the FY 1992 financial statement audit relates to the need for FHA to enhance the
                            design and operation of information systems general and application level
                            security controls. This weakness was expanded in FY 1999 and FY 2000 to include
                            improvements needed in FHAs data integrity. FHA did resolve a material weak-
                            ness in FY 2000 and part or all of three reportable conditions.
                                 FHAs latest action plan continues to report efforts toward resolving these
                             long-standing issues. The FY 2001 financial statement audit will assess FHAs
                             accomplishments in correcting these conditions

        San Francisco             First issued July 22, 1998. An audit of the San Francisco Housing Authority
  Housing Authority         (SFHA) Drug Elimination Program found weaknesses in the procurement process,
                             such as a lack of adequate cost analyses, and fixed-price elements in contracts
    Drug Elimination
                             that should have been entirely cost reimbursable. In some cases, written contracts
             Program         were not executed. These weaknesses resulted in excessive and unsupported costs,
                             which potentially could lead to disputes with contractors as well as give the
                             appearance of favoritism. Corrective action was to include centralization of
                             procurement activities, training of staff, and revision of procurement procedures.
                                  Based on assurances and documentation provided by the Housing Authority,
                             the Memphis Troubled Agency Recovery Center (TARC) was prepared to consider
                             action completed in September 1999. However, the OIG advised the TARC that an
                             ongoing audit of the SFHA showed that actions were not complete. Our March 31,
                             2000 audit report on contracting practices, conducted in conjunction with our audit
                             of the Low-Income Housing Program, noted continuation of the same or similar
                             deficient procurement practices. Accordingly, the TARC did not close the recom-
                             mendations.
                                  The TARC engaged a consulting firm to evaluate more recent procurement
                             activities that showed a continuation of poor procurement practices. In May 2001,
                             following an OIG on-site review, we sent a memorandum to the TARC advising that
                             the SFHA had not completed corrective actions on seven open recommendations.
                             In August 2001, the TARC notified the SFHA of needed corrective actions and
                             requested a written response detailing actions taken to resolve the open issues.
                             The TARC is performing on-site monitoring of SFHAs contracting practices and
                             expects to continue monitoring through at least December 2001. (Report No.
                             1998-SF-1003)

HUDs Oversight of the   Issued March 30, 1999. HUD did not have an adequate system of oversight and
  Empowerment Zone control for the Empowerment Zone Program. Specifically, HUD did not effec-
             Program tively assess the progress and status of empowerment zones, confirm whether the
                             use of empowerment zone funds was appropriate or complied with cities strate-
                             gic plans, or ensure the accuracy of performance reviews submitted by cities. As
                             a result, HUD did not detect inefficient and ineffective uses of empowerment zone
                             resources and empowerment zone benefit achievements were overstated. In 1999,
                             HUD agreed to develop procedures to improve the oversight and control of the
                             Empowerment Zone Program by March 2000.
                                 HUD did not meet the March 2000 completion date because the former
                             empowerment zone coordinator did not take action on the recommendations.
                             Based on the OIGs discussions with the Office of Community Planning and
                             Development (CPD), the CPD Comptroller started taking action on the recommen-
                             dations in February 2001. In March 2001, the Comptroller estimated that the
                             outstanding recommendations would be closed by July 2001. CPDs decision to
                             obtain the services of a contractor has further delayed completion of final action.
                             HUDs Comptroller advised that CPD completed a statement of work to obtain
                             outside services in drafting the recommended procedures and controls. The
                             Comptroller expects that all actions will be completed by March 31, 2002.
                             (Report No. 1999-CH-0001)
 City of Lynwood, CA              Issued August 19, 1999. The City of Lynwood could not demonstrate its
             Community        compliance with CDBG requirements for activities administered by subgrantees.
                              The subgrantees operated a community-based program which provided business
      Development Block       training and incubator space for the benefit of low- and moderate-income resi-
Grant (CDBG) Program          dents. The training component included businesses outside of the grantees City
                              limits. However, the City could not provide documentation to support the number
                              of jobs for low- and moderate-income persons created or retained, or document
                              future benefits accruing to its residents. We recommended that HUD require the
                              grantee to submit documentation of the job creation and retention activities or
                              return to its letter of credit, from non-federal funds, the amount the grantee is
                              unable to support. In December 1999, the Los Angeles Office of CPD agreed with
                              our recommendations and agreed to complete actions by October 31, 2000.
                                   In November 2000, the Los Angeles Office of CPD requested revised manage-
                              ment decisions. The local office agreed that the City could not support job cre-
                              ation/retention and area benefit activities. However, they concluded that the Citys
                              program benefited low- and moderate-income persons. Therefore, it would not be
                              necessary for the City to repay the program. The basis for the local offices
                              decision was that a legitimate business training activity occurred and businesses
                              that received CDBG assistance obtained business licenses in the City. Further, the
                              businesses were located in an area with 57 percent low-income households and
                              jobs created were primarily low paying.
                                   We disagreed with the Los Angeles Office of CPD and referred the matter to
                              the Acting General Deputy Assistant Secretary for CPD for decision in February
                              2001.
                                   In July 2001, the Comptroller for the Office of the Assistant Secretary for
                              CPD agreed with the OIGs position and the Los Angeles Office of CPD advised the
                              City to reimburse about $732,000 to its line of credit. The City has advised the
                              Los Angeles Office of CPD that it will offer a resolution to this matter by October
                              4, 2001. (Report No. 1999-SF-1003)

CDBG Program  City     Issued September 28, 1999. The audit found that a special economic develop-
    of St. Louis, MO ment activity totaling approximately $700,000 did not meet a national objective of
                              the Housing and Community Development Act. The project was intended to meet
                              the national objective of benefiting low- and moderate-income persons with an
                              eligible activity of job creation. The audit found that the City created no jobs for
                              low- and moderate-income persons. In January 2000, HUD agreed with our
                              recommendation that the City would need to demonstrate that the activity met
                              another national objective or repay the amount of ineligible assistance. Actions
                              were to be completed by January 2001.
                                   Subsequent to the audit, the City changed the national objective to an activity
                              to aid in the prevention or elimination of slums or blight. However, the City has
                              produced no documentation to support that the area of the activity was deteriorat-
                              ing, declared a slum or blighted area, or that there were conditions existing in the
                              building that would qualify it as spot blight. Nonetheless, in March 2001, the
                              Office of CPD advised they consider the project to meet the national objective of
                              prevention or elimination of slums or blight. On March 16, 2001, we advised the
                              Acting General Deputy Assistant Secretary that we disagreed with their position
                              and requested a meeting to discuss the issue.
                                   In June 2001, the Acting General Deputy Assistant Secretary again requested
                              that the City provide sufficient supporting documentation on its use of HUD funds.
              HUD program staff believes the City has supported some of the expenditures;
              however, as of August 2001, HUD had requested further support for other expendi-
              tures. On September 24, 2001, the General Deputy Assistant Secretary provided
              documentation to the OIG to support the expenditures. The OIG is currently evalu-
              ating the information. If agreement cannot be reached, the matter will be re-
              ferred to the Deputy Secretary in October 2001. (Report No. 1999-KC-244-1002)



Federal Financial Management Improvement Act of 1996
                      (FFMIA)

                   FFMIA requires that HUD implement a remediation plan that will bring
              financial systems into compliance with federal financial system requirements
              within 3 years or obtain OMBs concurrence if more time is needed. FFMIA
              requires us to report, in our Semiannual Reports to the Congress, instances and
              reasons when an agency has not met the intermediate target dates established in
              the remediation plan required by FFMIA. In April 1998, HUD determined that 38
              of its systems were not in substantial compliance with FFMIA. At the end of FY
              2000, the Department reported that 11 systems were not in substantial compliance
              with FFMIA. Our audit of HUDs FY 2000 financial statements cites additional
              financial management systems weaknesses which we reported as reasons for the
              Departments FFMIA noncompliance. These include noncompliance with: (1)
              federal financial management systems requirements; and (2) the standard general
              ledger at the transaction level. HUD has submitted plans to OMB to correct
              material system weaknesses with a target completion date of December 31, 2005.
              Since the Department was not in compliance by April 2001, HUD will need to
              obtain OMBs approval for additional time to comply with FFMIA.
             Appendices
                       of

U.S. Department of Housing and Urban Development
           Office of Inspector General
          Semiannual Report to Congress
           for the period ending 9/30/01
                             APPENDIX 1 - AUDIT REPORTS ISSUED
                                                            for the period
                                          April 1, 2001 through September 30, 2001

                                                                  Internal Reports

  Single Family                                                      Audit Reports

2001-AT-0001      Audit of the Officer and Teacher Next Door Programs, 6/29/01. Questioned: $1,113,200; Unsupported: $84,750.



       PIH

2001-AT-0002      Troubled Agency Recovery Center, Memphis, TN, 8/17/01.
2001-FW-0001      New Orleans, LA Housing Authority, 5/11/01.
2001-AO-0003      Drug Elimination Funds Used for Creative Wellness Program, 8/29/01. Questioned: $98,110; Unsupported: $1,089.
2001-SE-0002      Implementation of the Native American Housing Assistance and Self-Determination Act of 1996, 8/02/01.



  IT & Systems

2001-DP-0003      Real Estate Management System (REMS), 9/28/01.
2001-DP-0004      Real Estate Assessment Center (REAC) Systems Development and Security, 9/28/01.


  Miscellaneous

2001-AO-0002      Use of Contractors by the Deputy Chief Financial Officer, 6/04/01.
2001-FW-0002      HUDs Compliance with the Government Performance and Results Act, 5/31/01.


  Single Family                                                 Audit-Related Memoranda

2001-DE-0801      Approval and Monitoring of Nonprofit Organizations in FHA Single Family Insurance Programs, Denver, CO, 9/28/01.
2001-PH-0803      Philadelphia, PA Homeownership Center, Single Family Disposition Activities, 6/14/01. Questioned: $937,280;Unsupported:
                      $937,280.
                                                                                                                                   APPENDIX 1

                                                          Internal Reports - continued

   Multifamily                                            Audit-Related Memoranda - continued

2001-HQ-0801      HUDs Procedures for Notifying Internal Revenue Service of Foreclosures, 9/27/01.


       PIH

2001-AO-0803      Administration of the Vacancy Reduction Program, 9/21/01.
2001-BO-0801      Unprocessed Year End Settlements for Contract Administered Section 8 Projects in Massachusetts, 5/23/01. Questioned:
                     $3,233,094; Unsupported: $3,233,094.
2001-SE-0802      Nationwide Audit of Rent Reasonableness for Section 8 Tenant-Based Units, 8/29/01.


  IT & Systems

2001-DP-0802      Annual Evaluation of HUDs Security Program and Practices, 9/06/01.


                                                                   External Reports

  Single Family                                                        Audit Reports

2001-DE-1002      Brothers Redevelopment, Inc., Denver, CO, Housing Activities in FHA Single Family Insurance Programs, 9/28/01.
2001-KC-1005      First Community Resources, Inc., St. Louis, MO, Section 203(b) Home Mortgage Insurance Program, 9/28/01.


   Multifamily

2001-CH-1006      Alliance, OH Community Hospital, Special Purpose Grants, 5/03/01. Questioned: $140,388; Unsupported: $5,490.
2001-DE-1003      Foster and Associates, Kalispell, MT, Management Activities for Projects Clark Fork Manor and Whitefish Manor, 9/28/01.
2001-KC-1002      One McKnight Place, St. Louis, MO, Review of Project Disbursements, 5/11/01. Questioned: $31,708.
2001-KC-1003      Villa West II Apartments, Topeka, KS, Topeka Housing Associates II, L.P., 6/04/01. Questioned: $8,853.
2001-NY-1002      Belmax Management Corporation, Brooklyn, NY, Management Agent, 4/17/01. Questioned: $391,287; Unsupported: $327,305.
2001-NY-1004      National City Mortgage Company, Buffalo, NY, Non-Supervised Mortgagee, 8/23/01.
                                                                                                                               APPENDIX 1

                                                        External Reports - continued
        PIH                                                   Audit Reports - continued
2001-BO-1004      Weymouth, MA Housing Authority, 4/02/01. Questioned: $79,434; Unsupported: $77,638.
2001-BO-1005      City of Meriden, CT Housing Authority, 5/21/01. Questioned: $23,242.
2001-CH-1007      Detroit, MI Housing Commission, Hope VI Program, 5/16/01. Questioned: $17,550,686: Unsupported: $16,416,788.
2001-NY-1003      Saratoga Springs, NY Housing Authority, Low-Rent Housing Program, 7/24/01. Questioned: $228,217; Unsupported: $225,480.
2001-PH-1005      City of Pittsburgh, PA Housing Authority, 5/03/01. Questioned: $8,141,168; Unsupported: $6,758,294.


       CPD

2001-AT-1006      City of Hattiesburg, MS Community Planning and Development Programs, 8/27/01. Questioned: $291,460;
                      Unsupported: $242,000.
2001-BO-1006      State of Connecticut, Home Investment Partnerships Program, 8/29/01.
2001-CH-1008      Travelers and Immigrants AID/Chicago Connections, Chicago, IL, Supportive Housing Program Grant, 6/19/01.
                      Questioned: $20,491; Unsupported: $11,441.
2001-FW-1004      City of San Antonio, TX Section 108 Loan Program, 5/25/01. Questioned: $17,575,841; Unsupported: $17,575,841.
2001-FW-1005      Harmony House, Inc., Harrison, AR, Supportive Housing Program, 8/27/01. Questioned: $157,066; Unsupported: $37,263.
2001-FW-1006      Dallas, TX Homeless Consortium, Continuum of Care Program, 8/27/01.
2001-KC-1004      Kansas City, MO Department of Housing and Community Development, Review of Subrecipient Selection, Monitoring and
                      Reporting, 7/09/01.
2001-PH-1004      Resources for Human Development, Philadelphia, PA, Supportive Housing Grants, 4/20/01. Questioned: $343,023.
2001-PH-1006      Philadelphia, PA Department of Commerces Loan Assistance to the Urban Education Development Research and Retreat
                      Center Rehabilitation Project, 8/01/01. Questioned: $2,917,629; Unsupported: $2,117,629.
2001-SE-1001      City of Seattle, WA Continuum of Care, Supportive Housing Program Grants, 8/15/01. Questioned: $239,928;
                      Unsupported: $142,890.

  Single Family                                                 Audit-Related Memoranda

2001-AT-1806      The Rain Foundation, Titusville, FL, Nonprofit Participation in FHA Single Family Insurance Program, 9/24/01.
2001-AT-1807      Family Home Providers, Inc., Cumming, GA, Nonprofit Participation in FHA Single Family Insurance Program, 9/25/01.
2001-AT-1808      Autographed Book Give-Away for Inner-City Youths, Inc., Orlando, FL, Nonprofit Participation in FHA Single Family
                     Insurance Program, 9/27/01. Questioned: $23,225.
2001-DE-1801      Clarion Mortgage Capital Inc., Centennial, CO, Single Family Loan Originator, 6/01/01.
2001-FW-1807      Community Housing Fund, Irving, TX, Nonprofit Participation in FHA Single Family Insurance Program, 8/17/01.
2001-SF-1806      Golden Home Mortgage, Concord, CA, Sections 203(b) & (k) Mortgage Loan Insurance Programs, 9/28/01.
                                                                                                                               APPENDIX 1

                                                         External Reports - continued
   Multifamily                                                   Audit-Related Memoranda

2001-DE-1802     Lafayette Square Apartments, Macomb, IL, Management Controls over Disbursements, 9/28/01.
2001-CH-1802     Apex Management Company, Dayton, OH, Multifamily Equity Skimming, 8/02/01.
2001-KC-1802     Prairie Park Apartments, Waterloo, IA, 6/28/01.
2001-KC-1803     Review of Oak Tree Park Apartments, Overland, MO, 9/28/01. Questioned: $164,713.


       PIH

2001-AT-1804     Decatur, GA Housing Authority and Dekalb County Housing Authority, 6/05/01.
2001-AT-1805     Parish, AL Housing Authority, 8/17/01. Questioned: $6,454.
2001-FW-1806     City of Edinburg, TX Housing Authority, 6/29/01.
2001-FW-1808     HUD Takeover of Beaumont, TX Housing Authority, 8/21/01.
2001-FW-1809     Jefferson Parish, LA Housing Authority, Limited Procurement Review, 9/25/01. Questioned: $512,058; Unsupported: $512,058.
2001-PH-1803     County of Chester, PA Housing Authority, Low-Rent Housing Operations, 8/31/01.
2001-SE-1801     Interior Regional Housing Authority, Fairbanks, AK, Management of a Rehabilitation Project at the Native Village of
                     Fort Yukon, 7/13/01.


       CPD

2001-AT-1803     Veterans Opportunity and Resource Center, Inc., Atlanta, GA, Accounting System Evaluation, 4/23/01.
2001-BO-1803     State of Massachusetts, Department of Housing and Community Development, Home Program, 5/17/01.
2001-FW-1804     Neighborhood Housing Services, Inc., Tulsa, OK, CDBG & Home Activities, 4/06/01.
2001-FW-1805     Harris County, Supportive Housing Grant, Houston, TX, 4/27/01.
2001-PH-1802     City of Philadelphia, PA Shelter Plus Care Grant, 8/24/01. Questioned: $331,907; Unsupported: $331,907.
2001-SF-1804     County of Orange, Mercy House Coalition, Santa Ana, CA, Supportive Housing Program Grant, 5/09/01.
                     Questioned: $294,987; Unsupported: $182,463.
2001-SF-1805     Los Coyotes Band of Mission Indians, Warner Springs, CA, 9/25/01. Questioned: $21,620.
                                                                                              APPENDIX 2
                                          TABLE A
                        AUDIT REPORTS ISSUED PRIOR TO START OF PERIOD          WITH
                              NO MANAGEMENT DECISION AT 09/30/01


                                                                                          ISSUE DATE/
                                                                                          TARGET FOR
REPORT NUMBER & TITLE                   REASON   FOR   LACK    OF   MANAGEMENT DECISION
                                                                                          MANAGEMENT
                                                                                            DECISION




                                          Nothing to report.
                                                                                                                               APPENDIX 2
                                                             TABLE B
                         SIGNIFICANT AUDIT REPORTS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                             WHERE FINAL ACTION HAD NOT BEEN COMPLETED AS OF 09/30/01
  Report                                                                                                  Issue     Decision     Final
  Number                                               Report Title                                       Date       Date        Action

1992TS0011   Audit of Fiscal Year 1991 HUD Consolidated Financial Statements                             06/30/92   09/30/94    Note 1

1992PH1009   Huntington, WV Community Development Block Grant Program                                    07/10/92   11/07/92    12/31/01

1993SF1014   Tucson Health Care Limited Partnership                                                      09/23/93   01/21/94    Note 1

1993FW1016   Anthony & Associates, Inc., Multifamily Management Agent, Albuquerque, NM                   09/28/93   12/10/93    Note 1

1995SF0001   Multi-district Audit of Section 236 Program, Excess Rental Income Collections               12/21/94   03/31/96    09/30/02

1995CH1009   Alliance Mortgage Corporation, Single Family Mortgage Insurance Program, Villa Park, IL     08/08/95   11/30/95    Note 1

1996FW1001   Credit Finance Corporation, Multifamily Management Agent, Dallas, TX                        10/16/95   06/05/96    Note 2

1996SF1002   Pascua Yaqui Housing Authority, Tucson, AZ                                                  02/13/96   06/11/96    Note 1

1996FW1002   Credit Finance Corporation, Multifamily Management Agent, Dallas, TX                        08/19/96   10/17/96    Note 2

1996DP0002   Multifamily Information Systems                                                             09/30/96   03/31/97    Note 1

1997PH1002   Newport News General Hospital, Section 242 Hospital Program, Newport News, VA               12/09/96   03/26/97    Note 1

1997AT1001   Memphis, TN Housing Authority                                                               01/13/97   03/31/98    10/05/01

1997NY0802   Riverside South Apartments, New York, NY                                                    02/21/97   09/30/99    Note 1

1997AT1806   Limited Review of Martin Street Plaza, Atlanta, GA                                          04/17/97   07/14/97    Note 2

1997FW1003   Medlock Southwest Management Corporation, Multifamily Management Agent, Lubbock, TX         08/26/97   01/16/98    Note 1

1997CH1010   Major Mortgage Corporation, Section 203(k) Rehabilitation Home Mortgage Ins. Prog., Livo-   09/17/97 01/06/98      Note 1
             nia, MI
                                                                                                         APPENDIX 2, TABLE B
  Report                                                                                       Issue     Decision   Final
  Number                                            Report Title                               Date       Date      Action

1998HQ0801   Review of HUDs 2020 Management Reform Plan                                      11/25/97   07/14/99   Note 1

1998SF1002   Redwood Villa, Multifamily Mortgagor Operations, Mountain View, CA               03/31/98   08/14/98   04/03/02

1998AT1005   Housing Authority of the City of Tampa, FL                                       04/23/98   10/21/98   06/01/02

1998SF1003   San Francisco, CA Housing Authority, Drug Elimination Program                    07/22/98   12/09/98   12/31/01

1998CH1005   City of Atlanta, GA Empowerment Zone Program                                     09/28/98   09/20/99   Note 1

1998CH1006   City of Philadelphia, PA Empowerment Zone Program                                09/30/98   09/20/99   Note 1

1998DP0004   Controls Over the Single Family Acquired Asset Management System                 09/30/98   09/29/99   Note 1

1999PH0001   Youthbuild Program, Multiple Location Review                                     11/10/98   03/08/99   Note 1

1999NY1004   Homestead Financial Services, Inc., Non-supervised Mortgagee, Syracuse, NY       02/17/99   06/25/99   Note 1

1999FO0003   U.S. Department of HUD Fiscal Year 1998 Financial Statements                     03/29/99   09/30/99   12/31/01

1999CH0001   HUDs Oversight of the Empowerment Zone Program                                  03/30/99   09/17/99   Note 1

1999PH0801   Chester, PA Housing Authority Receivership                                       06/01/99   12/02/99   07/31/03

1999SF1003   City of Lynwood, CA, CDBG and HOME Programs                                      08/19/99   12/16/99   Note 2

1999SF1803   Northern Pueblos Housing Authority, Limited Review of Operations, Santa Fe, NM   09/08/99   11/09/99   Note 2

1999CH1803   Fairfield County, Community Housing Improvement Program, Lancaster, OH           09/15/99   01/13/00   Note 2

1999NY1007   Alliance Mortgage Banking Corporation, Non-supervised Mortgagee, Rochester, NY   09/27/99   02/16/00   Note 2

1999KC1002   Community Development Block Grant Program, St. Louis, MO                         09/28/99   01/21/00   Note 2

1999DE0001   Nationwide Review of HUDs Loss Mitigation Program                               09/30/99   03/31/00   Note 2

2000AT1001   Mego Mortgage Corporation, Title I Approved Lender, Atlanta, GA                  10/04/99   02/09/00   Note 2
                                                                                                                 APPENDIX 2, TABLE B
 Report                                                                                                Issue    Decision    Final
 Number                                              Report Title                                      Date      Date       Action

2000DP0002   Initial Development Efforts of the Departmental Grants Management System                11/04/99   09/19/01   10/31/04

2000PH1002   Philadelphia, PA Housing Authority Police Department                                    11/15/99   03/16/00   04/01/02

2000NY1002   Target V Phase I Development Associates, Multifamily Housing Program, Bronx, NY         12/08/99   05/08/00   Note 2

2000FW1001   New Orleans, LA Housing Authority, Executive Monitor Contract with Moten & Associates   01/19/00   09/29/00   Note 2

2000FO0002   Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements          02/29/00   08/09/00   Note 2

2000FO0003   Attempt to Audit the Fiscal Year 1999 HUD Financial Statements                          03/01/00   09/29/00   12/31/01

2000AT1003   Puerto Rico Public Housing Administration, Procurement Management, San Juan, PR         03/06/00   09/28/01   12/31/02

2000AT1801   Misuse of HUD Funds, Puerto Rico Public Housing Administration, San Juan, PR            03/09/00   09/28/01   12/31/02

2000AT1004   Pinellas County Housing Authority, Clearwater, FL                                       03/23/00   07/24/00   Note 2

2000SF0001   Single Family Production                                                                03/30/00   01/19/01   12/31/01

2000AO0001   Nationwide Audit of Storefront Operations                                               03/31/00   09/08/00   Note 1

2000CH1002   Cuyahoga Metropolitan Housing Authority, Title V Account, Cleveland, OH                 03/31/00   09/29/00   10/15/02

2000KC0001   Assessment of Resident Association Grants, Multi-Location Summary Report                03/31/00   07/28/00   Note 2

2000SF1001   San Francisco, CA Housing Authority, Low-Income and Section 8 Programs                  03/31/00   09/01/00   03/30/02

2000FW1802 Alexandria, LA Housing Authority, Agreed Upon Procedures                                  04/26/00   10/01/00   Note 2

2000FW1803 Leesville, LA Housing Authority                                                           05/10/00   10/06/00   04/01/11

2000DP0003   Integrated Disbursement and Information Systems                                         05/11/00   02/14/01   Note 2

2000AT1007 St. Petersburg, FL Housing Authority                                                      05/24/00   10/03/00   Note 2
                                                                                                                     APPENDIX 2, TABLE B
 Report                                                                                                   Issue      Decision   Final
 Number                                               Report Title                                        Date        Date      Action

2000FW1003   Pope & Booth, P.C. Closing Agent Contract, Austin, TX                                        05/24/00   07/24/01   Note 2

2000CH1003   State of Ohio, Community Housing Improvement Program, Columbus, OH                           06/15/00   10/18/00   10/18/01

2000FW1006   Fortune Escrow, Inc., Closing Agent Contract, Glendora, CA                                   08/23/00   11/02/00   10/24/01

2000CH1811   City of South Bend, IN, Broadway Street Mortgage Loan Subsidy Program                        09/13/00   01/04/01   12/31/01

2000DE1004   Chippewa Cree Housing Authority, Housing Activities and Related Mgmt. Controls, Rocky Boy,   09/21/00   01/19/01   10/15/02
             MT
                                                                                                          09/25/00   01/23/01   11/20/01
2000BO1803   State of Maine, FIX ME Program, Augusta, ME
                                                                                                          09/25/00   02/13/01   10/31/01
2000NY1005   Poughkeepsie, NY Housing Authority, Low-Rent Housing Program
                                                                                                          09/25/00   12/01/00   12/01/01
2000NY1803   Hoboken, NJ Housing Authority, Low-Rent Housing Program
                                                                                                          09/28/00   02/20/01   12/31/01
2000AT0001   Single Family Property Disposition Program
                                                                                                          09/28/00   05/10/01   02/01/02
2000AT0002   Demolition of HUD Real Estate Owned Properties, Chicago, IL
                                                                                                          09/28/00   03/30/01   Note 2
2000CH0801   HUDs Settlement Agreement, Associated Estates Realty Corp., Office of Multifamily Housing
                                                                                                          09/28/00   01/25/01   12/11/01
2000PH1004   Wilmington, DE Housing Authority, Public Housing Operations
                                                                                                          09/29/00   03/30/01   03/30/02
2000DP0804   Departments September 2000 Purchase of COTS Financial Management System
                                                                                                          09/29/00   01/31/01   01/31/02
2000FO0802   Survey of HUDs Contract Award Process
                                                                                                          09/29/00   02/21/01   12/31/01
2000KC0002   Housing Subsidy Payments
                                                                                                          09/29/00   08/15/01   12/30/03
2000SE0003   Nationwide Audit, Use of and Disposition of Residual Receipts
                                                                                                          10/20/00   02/13/01   02/13/02
2001AT1001   Housing Authority of the City of Miami Beach, FL
                                                                                                          10/31/00   01/09/01   10/01/01
2001DP0001   HUD Entity-Wide Security Program
                                                                                                                      APPENDIX 2, TABLE B
  Report                                                                                                   Issue     Decision   Final
  Number                                           Report Title                                            Date       Date      Action

2001CH1001   City of Ironton, OH Community Development Block Grant Program                                11/16/00   03/21/01   03/20/02

2001CH1002   Muskegon, MI Housing Commission, Low-Rent Public Housing, Section 8 and SRO Programs         11/29/00   03/29/01   12/31/01

2001NY1001   Bay Towers, Far Rockaway, NY                                                                 12/07/00   04/20/01   12/31/01

2001AT1004   Palm Beach, FL, County Division of Human Resources, Supportive Housing Grant                 12/08/00   06/05/01   12/31/01

2001AT1801   Municipality of Aquadilla, PR                                                                12/12/00   05/10/01   04/30/02

2001FW1002   City of Dallas, TX Continuum of Care Program                                                 12/13/00   06/26/01   04/12/02

2001FW1003   City of Uvalde, TX Housing Authority, Section 8 and Low-Rent Programs                        12/18/00   04/26/01   11/30/09

2001CH1003   Saginaw, MI Housing Commission, Low-Income, Section 8, and Drug Elimination Grant Programs   01/04/01   05/04/01   10/31/01

2001BO1002   Waller, Smith and Palmer PC  HUD Closing Agent, New London, CT                              01/05/01   05/16/01   12/31/01

2001BO1802   Hartford, CT Department of Mental Health/Addiction Service, Continuum of Care                01/05/01   04/11/01   10/31/01

2001CH1801   Cuyahoga County CDBG, Revolving Loan Fund, Cleveland, OH                                     01/10/01   05/10/01   12/05/01

2001PH1801   Housing Authority of Baltimore City, MD, Thompson Court Decree                               01/24/01   05/21/01   02/28/02

2001BO1003   Multifamily Operations, Bowdoin Apartments, Malden, MA                                       01/29/01   05/16/01   10/31/01

2001AO0001   Drug Elimination Technical Assistance Program                                                01/31/01   04/27/01   04/27/02

2001SF1802   HUD Earthquake Loan Program Funds, Woodland Hills, CA                                        02/08/01   06/14/01   07/31/02

2001PH1002   Chester, PA Housing Authority                                                                02/15/01   05/18/01   12/31/01

2001DP0801   Review of the Departments Internet Privacy Status                                           02/21/01   04/23/01   03/31/02

2001DP0002   HUDs Central Accounting and Program System                                                  02/27/01   06/08/01   Note 2
                                                                                                                                  APPENDIX 2, TABLE B
  Report                                                                                                              Issue     Decision     Final
  Number                                                    Report Title                                              Date       Date        Action


2001FO0002      FHA Audit of Fiscal Year 2000 Financial Statements                                                   03/01/01    07/24/01   12/21/06

2001FO0003      Audit of HUDs Fiscal Year 2000 Financial Statements                                                 03/01/01    07/18/01   12/31/02

2001CH1004      Youngstown, OH Metropolitan Housing Authority                                                        03/09/01    07/09/01   10/31/01

2001FW1803      AIDS Foundation Houston, Inc., Supportive Housing Program Grant, Houston, TX                         03/09/01    05/21/01   05/21/02

2001CH1005      London, OH Metropolitan Housing Authority, Safeguarding of Monetary Assets and Inventory             03/22/01    07/18/01   02/28/02

2001SF1803      Supportive Housing Program Grant, Los Angeles, CA                                                    03/23/01    07/24/01   12/31/01

2001FO0004      HUDs Internal Controls over Fiscal Year 1999 Annual Performance Data                                03/28/01    07/24/01   06/30/03

2001PH1003      Housing Authority of Baltimore City, MD, Section 8 Certificate and Voucher Programs                  03/28/01    09/10/01   08/31/02

2001AT1005      San Juan, PR Public Housing Administration, HOPE VI, Comprehensive Grant, and Economic               03/30/01    09/28/01   08/06/02
                Development & Support Services Programs

2001NY0001      Canal Corridor Initiative, HUD Administered Small Cities, CDBG, Section 108 Loan Guarantee           03/30/01    05/29/01   12/01/01
                Programs

2001SF1001      Force Account Modernization Activities, Comprehensive Grant Program, San Francisco, CA               03/30/01    08/04/01   12/31/01




AUDITS EXCLUDED:                                                           NOTES:

17 audits under repayment plans                                            1 Management did not meet the target date. Target date is over 1 year old.
23 audits under formal judicial review, investigation, or                  2 Management did not meet the target date. Target date is under 1 year old.
   legislative solution
                                                                                                                                                          APPENDIX 2

                                                                           TABLE C
                                                     INSPECTOR GENERAL ISSUED REPORTS WITH
                                                  QUESTIONED AND UNSUPPORTED COSTS AT 09/30/01
                                                            (DOLLARS IN THOUSANDS)
                                                                                                                1XPEHU RI $XGLW           4XHVWLRQHG    8QVXSSRUWHG
                                                 5HSRUWV                                                           5HSRUWV                  &RVWV          &RVWV
$ )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH FRPPHQFHPHQW RI WKH UHSRUWLQJ                                                             
   SHULRG
$ )RU ZKLFK OLWLJDWLRQ OHJLVODWLRQ RU LQYHVWLJDWLRQ ZDV SHQGLQJ DW WKH FRPPHQFHPHQW RI WKH                                                        
   UHSRUWLQJ SHULRG
$ )RU ZKLFK DGGLWLRQDO FRVWV ZHUH DGGHG WR UHSRUWV LQ EHJLQQLQJ LQYHQWRU\                                                                                
$ )RU ZKLFK FRVWV ZHUH DGGHG WR QRQFRVW UHSRUWV                                                                                                      
% :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG                                                                                                   
% :KLFK ZHUH UHRSHQHG GXULQJ WKH UHSRUWLQJ SHULRG                                                                                                         
                                                                                          6XEWRWDOV $%                                         
&    )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH GXULQJ WKH UHSRUWLQJ SHULRG                                                                         
      'ROODU YDOXH RI GLVDOORZHG FRVWV
          'XH +8'                                                                                                                                
          'XH 3URJUDP 3DUWLFLSDQWV                                                                                                                 
      'ROODU YDOXH RI FRVWV QRW GLVDOORZHG                                                                                                         
'    )RU ZKLFK PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH QRW WR GHWHUPLQH FRVWV XQWLO FRPSOHWLRQ RI                                                         
     OLWLJDWLRQ OHJLVODWLRQ RU LQYHVWLJDWLRQ
                                                                                                                                                  
(    )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH HQG RI WKH UHSRUWLQJ SHULRG
                                                                                                                      !               !      !




    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK IXQGV WR EH SXW WR EHWWHU XVH
    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK IXQGV GXH SURJUDP SDUWLFLSDQWV
    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK IXQGV DJUHHG WR E\ PDQDJHPHQW
   7KH ILJXUHV LQ EUDFNHWV UHSUHVHQW GDWD DW WKH UHFRPPHQGDWLRQ OHYHO DV FRPSDUHG WR WKH UHSRUW OHYHO 6HH ([SODQDWLRQV RI 7DEOHV & DQG '
                                                                                                                                                    APPENDIX 2

                                                                         TABLE D
                                                     INSPECTOR GENERAL ISSUED REPORTS
                                        WITH    RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                AT 09/30/01
                                                          (DOLLARS IN THOUSANDS)

                                                       5HSRUWV                                                                1XPEHU RI $XGLW   'ROODU 9DOXH
                                                                                                                                 5HSRUWV
$ )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH FRPPHQFHPHQW RI WKH UHSRUWLQJ SHULRG                                                     
$ )RU ZKLFK OLWLJDWLRQ OHJLVODWLRQ RU LQYHVWLJDWLRQ ZDV SHQGLQJ DW WKH FRPPHQFHPHQW RI WKH UHSRUWLQJ SHULRG                                     
$ )RU ZKLFK DGGLWLRQDO FRVWV ZHUH DGGHG WR UHSRUWV LQ EHJLQQLQJ LQYHQWRU\                                                                          
$ )RU ZKLFK FRVWV ZHUH DGGHG WR QRQFRVW UHSRUWV                                                                                                   
% :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG                                                                                                    

                                                                                                       6XEWRWDOV $%                            
& )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH GXULQJ WKH UHSRUWLQJ SHULRG                                                                            
     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH DJUHHG WR E\ PDQDJHPHQW
         'XH +8'                                                                                                                                    
         'XH 3URJUDP 3DUWLFLSDQWV                                                                                                                 
     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH QRW DJUHHG WR E\ PDQDJHPHQW                                                                       
' )RU ZKLFK PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH QRW WR GHWHUPLQH FRVWV XQWLO FRPSOHWLRQ RI OLWLJDWLRQ                                               
  OHJLVODWLRQ RU LQYHVWLJDWLRQ
                                                                                                                                                   
( )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDG EHHQ PDGH E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                                                 !           !




    DXGLW UHSRUWV DOVR FRQWDLQ UHFRPPHQGDWLRQV ZLWK TXHVWLRQHG FRVWV
   7KH ILJXUHV LQ EUDFNHWV UHSUHVHQW GDWD DW WKH UHFRPPHQGDWLRQ OHYHO DV FRPSDUHG WR WKH UHSRUW OHYHO 6HH ([SODQDWLRQV RI 7DEOHV & DQG '
                                                                                                                                              APPENDIX 2
EXPLANATIONS OF TABLES C AND D

    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report cost data on management decisions and final
actions on audit reports. The current method of reporting at the report level rather than at the individual audit recommendation level results in
misleading reporting of cost data. Under the Act, an audit report does not have a management decision or final action until all questioned cost items or
other recommendations have a management decision or final action. Under these circumstances, the use of the report based rather than the recom-
mendation based method of reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For example, certain
cost items or recommendations could have a management decision and repayment (final action) in a short period of time. Other cost items or nonmon-
etary recommendation issues in the same audit report may be more complex, requiring a longer period of time for managements decision or final action.
Although management may have taken timely action on all but one of many recommendations in an audit report, the current all or nothing reporting
format does not take recognition of their efforts.

   The closing inventory for items with no management decision on Tables C and D (Line E) reflects figures at the report level as well as the
recommendation level.
                                                                                                                               APPENDIX 3

                                PROFILE             OF      PERFORMANCE
                                                      for the period
                             April 1, 2001 through September 30, 2001
               $XGLW DQG ,QYHVWLJDWLRQ 5HVXOWV                   $XGLW        ,QYHVWLJDWLRQ    &RPELQHG        )< 
 5HFRPPHQGDWLRQV 7KDW )XQGV %H 3XW WR %HWWHU 8VH                                                             
 0DQDJHPHQW 'HFLVLRQV RQ $XGLWV ZLWK 5HFRPPHQGDWLRQV
                                                                                             
   7KDW )XQGV %H 3XW WR %HWWHU 8VH
 4XHVWLRQHG &RVWV                                                                          
 0DQDJHPHQW 'HFLVLRQV RQ $XGLWV ZLWK 4XHVWLRQHG &RVWV                                      
 ,QGLFWPHQWV                                                                                                
 6XFFHVVIXO 3URVHFXWLRQV                                                                                    
 <HDUV RI 3ULVRQ 6HQWHQFHV                                                                                 
 ,QYHVWLJDWLYH 5HFRYHULHV                                                           
 &ROOHFWLRQV )URP $XGLWV DQG ,QYHVWLJDWLRQV                                       
 $UUHVWV                                                                                                   
 6HDUFK :DUUDQWV                                                                                              
 9DOXH RI 'UXJV 6HL]HG                                                                       
 :HDSRQV 6HL]HG                                                                                             
 $GPLQLVWUDWLYH 6DQFWLRQV                                                                                 
 6XESRHQDV ,VVXHG                                                                                          

127( 7KLV UHSRUWLQJ SHULRG·V LQYHVWLJDWLYH VWDWLVWLFV DUH LQFRPSOHWH DV WKH 1HZ <RUN +RXVLQJ )UDXG ,QLWLDWLYH 2IILFH LQ WKH
      :RUOG 7UDGH &HQWHU ZDV GHVWUR\HG RQ 6HSWHPEHU  
